<html>
<title> - NOMINATIONS OF FRANCISCO SANCHEZ, TO BE ASSISTANT SECRETARY FOR AVIATION AND INTERNATIONAL AFFAIRS FOR THE DEPARTMENT OF TRANSPORTATION; AND KATHERINE ANDERSON, FRANK CRUZ, KENNETH TOMLINSON AND ERNEST WILSON, TO BE MEMBERS OF THE BOARD OF DIRECTORS OF THE CORPORATION FOR PUBLIC BROADCASTING</title>
<body><pre>[Senate Hearing 106-1127]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 106-1127
 
    NOMINATIONS OF FRANCISCO SANCHEZ, TO BE ASSISTANT SECRETARY FOR 
       AVIATION AND INTERNATIONAL AFFAIRS FOR THE DEPARTMENT OF 
 TRANSPORTATION; AND KATHERINE ANDERSON, FRANK CRUZ, KENNETH TOMLINSON 
   AND ERNEST WILSON, TO BE MEMBERS OF THE BOARD OF DIRECTORS OF THE 
                  CORPORATION FOR PUBLIC BROADCASTING
=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation










                       U. S. GOVERNMENT PRINTING OFFICE
82-914                       WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 12, 2000....................................     1
Statement of Senator Burns.......................................     2
    Prepared statement...........................................     3
Statement of Senator Dorgan......................................     8
Statement of Senator Lott........................................     5
Statement of Senator McCain......................................     1
    Prepared statement........................................... 2, 27
Statement of Senator Rockefeller.................................     6

                               Witnesses

Anderson, Katherine, Nominee, Member of the Board of Directors, 
  Corporation for Public Broadcasting............................    27
    Prepared statement...........................................    29
    Biographical information.....................................    30
Cruz, Frank, Nominee, Member of the Board of Directors, 
  Corporation for Public Broadcasting............................    35
    Prepared statement...........................................    37
    Biographical information.....................................    38
Graham, Hon. Bob, U.S. Senator from Florida, Introduction of 
  Francisco Sanchez..............................................     6
Mack, Hon. Connie, U.S. Senator from Florida, prepared statement.     7
Sanchez, Francisco J., Nominee, Assistant Secretary for Aviation 
  and International Affairs, Department of Transportation........     8
    Prepared statement...........................................     9
    Biographical information.....................................    11
Tomlinson, Kenneth, Nominee, Member of the Board of Directors, 
  Corporation for Public Broadcasting............................    42
    Prepared statement...........................................    43
    Biographical information.....................................    44
Wilson, III, Dr. Ernest J., Nominee, Member of the Board of 
  Directors, Corporation for Public Broadcasting.................    49
    Prepared statement...........................................    50
    Biographical information.....................................    51

                                Appendix

Cruz, Frank H., Corporation for Public Broadcasting, Washington, 
  D.C., letter written July 28, 2000, to Hon. John D. Rockefeller 
  IV.............................................................    65
Response to Written Questions Submitted to Francisco Sanchez by:
    Hon. Slade Gorton............................................    73
    Hon. Ernest F. Hollings......................................    75
    Hon. John McCain.............................................    77


    NOMINATIONS OF FRANCISCO SANCHEZ, TO BE ASSISTANT SECRETARY FOR 
       AVIATION AND INTERNATIONAL AFFAIRS FOR THE DEPARTMENT OF 
 TRANSPORTATION; AND KATHERINE ANDERSON, FRANK CRUZ, KENNETH TOMLINSON 
   AND ERNEST WILSON, TO BE MEMBERS OF THE BOARD OF DIRECTORS OF THE 
                  CORPORATION FOR PUBLIC BROADCASTING

                              ----------                              


                        WEDNESDAY, JULY 12, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room SR-253, Russell Senate Office Building, Senator John 
McCain, Chairman of the Committee, presiding.
    Staff members assigned to this hearing: Virginia Pounds, 
Republican Professional Staff; and Jonathan Oakman, Democratic 
Staff Assistant.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. The first nomination before us 
today is that of Francisco Sanchez, to be Assistant Secretary 
of Transportation for Aviation and International Affairs. I 
want to thank Mr. Sanchez for coming before the Committee.
    I'd like to recognize Mr. Sanchez's parents, Delea and 
Francisco, who are with him today. Welcome. Welcome. Thank you. 
I know this is a proud day for you and your son. He wouldn't be 
here without you, in a number of ways.
    [Laughter.]
    In addition to his family, Mr. Sanchez is accompanied by 
his current boss, Buddy MacKay, who is the Special Envoy to the 
Americas for the White House, and an old friend and colleague 
of mine. I welcome all of you here today.
    Among other things, the Assistant Secretary for Aviation 
and International Affairs is responsible for such important 
matters as negotiating international air services agreements, 
ensuring the benefits of a deregulated, competitive domestic 
airline industry, and expanding transportation and trade 
opportunities for U.S. companies around the globe.
    I'll take just a moment to touch on key aviation policy 
areas that will face Mr. Sanchez if he is confirmed. On the 
domestic front, we still need to reduce barriers to competition 
in the airline industry. DOT must show more initiative in using 
its existing powers to open up constrained airports.
    With respect to international aviation policy, I continue 
to support fully DOT's effort to pursue open skies agreements 
which promote free trade between countries in aviation 
services, and produce significant consumer benefits. All of us 
continue to be frustrated that the United States and the United 
Kingdom cannot come to terms on open skies.
    I welcome you before the Committee, Mr. Sanchez. Senator 
Burns.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona
   The Nomination of Francisco Sanchez To Be Assistant Secretary of 
         Transportation for Aviation and International Affairs
    The first nomination before us today is that of Francisco Sanchez 
to be Assistant Secretary of Transportation for Aviation and 
International Affairs. I want to thank Mr. Sanchez for appearing before 
the Committee. I would also like to recognize Mr. Sanchez's parents, 
Delia and Francisco, who are with him today. In addition to his family, 
Mr. Sanchez is accompanied by his current boss, Buddy MacKay, who is 
the Special Envoy to the Americas for the White House. I welcome all of 
you here this morning.
    Among other things, the Assistant Secretary for Aviation and 
International Affairs is responsible for such important matters as 
negotiating international air services agreements, ensuring the 
benefits of a deregulated, competitive domestic airline industry, and 
expanding transportation and trade opportunities for U.S. companies 
around the globe.
    I will take just a moment to touch on key aviation policy areas 
that will face Mr. Sanchez, if he is confirmed. On the domestic front, 
we still need to reduce barriers to competition in the airline 
industry. DOT must show more initiative in using its existing powers to 
open up constrained airports.
    With respect to international aviation policy, I continue to 
support fully DOT's effort to pursue open skies agreements, which 
promote free trade between countries in aviation services and produce 
significant consumer benefits. I continue to be frustrated, however, 
that the U.S. and United Kingdom cannot come to terms on open skies.

            OPENING STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman, and thank you for 
holding this hearing today; and thank you, Mr. Sanchez, for 
your public service, we appreciate that very much.
    I want to make a couple of points this morning. Last week 
they just made the assignments outside the perimeter rule out 
of National Airport. And I feel that it was a very bad decision 
that they made down there.
    I wish we would look, just for a second, and talk about 
fair. I've got a little thing here I want to show you.
    [Holding up map of U.S.]
    This is where the slots went: Las Vegas, Denver, Phoenix, 
and Los Angeles. A good argument could be made for Phoenix, no 
problem.
    [Laughter.]
    How am I doing, boss?
    This is the worst of them all: None in Salt Lake, where 
it's a hub, there are some 60-odd markets of which the 
Northwest gets nothing, nothing. Now there's no television here 
and it's a simple thing. But I want to alert you in what we 
have to look at with that group that you're going to work with 
down there.
    Even Las Vegas, I don't have a problem with; I don't even 
have much of a problem with Denver and Frontier. Because I'll 
have to change airlines, but I can do that. But it offers no 
competition from a hub that offers more cities in one-stop 
service to Washington National than any hub in the West. Do you 
know how much they serve there? Six cities. Six out of Los 
Angeles and sixty up here.
    Now somebody down there did not either read the guidelines 
of which those slots were to be awarded. And I am more than 
unhappy about it because we are--yes, we are sparsely 
populated, but we don't have competition, and the competition 
that we don't have, we pay through the nose in air fares.
    So I just want to bring that up and make a point at this 
hearing this morning. I will be supporting you, by the way; but 
nonetheless, I think the Los Angeles part is just egregious, 
Mr. Chairman. Whenever you turn down a hub that serves sixty-
some-odd cities in the Northwest, the Northwest got nothing out 
of that. Not one darn thing.
    Had I known that, Air 21 would still be on the floor of the 
U.S. Senate.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Burns follows:]

               Prepared Statement of Hon. Conrad Burns, 
                       U.S. Senator from Montana
    Thank you Mr. Chairman, I am very interested in the position Mr. 
Sanchez has been nominated to fill. Mr. Sanchez has been nominated to 
be the Assistant Secretary for Aviation and International Affairs at 
the Department of Transportation. Among other responsibilities, Mr. 
Sanchez will oversee the determination of requests for slots and slot 
exemptions at airports affected by the High Density Rule or the 
perimeter rule as it is known in Washington, D.C.
    Recently, the office being considered was responsible to carry out 
a Congressional directive (as determined by AIR-21, H.R. 1000) to 
allocate 24 slots at DCA-12 within the perimeter and 12 outside the 
perimeter. We are all aware of the numerous applications that were 
submitted for these slots but I think it was very clear whom the most 
eligible carriers were based on the criteria cited in AIR-21.
    The outside the perimeter slots were awarded in the following 
manner:

    1) LTwo slots were allocated to Frontier Airlines (Denver);

    2) LTwo slots were allocated to National Airlines (Las Vegas);

    3) LTwo slots were allocated to TWA (Los Angeles);

    4) LSix slots were allocated to America West (four to Phoenix and 
two to Las Vegas).

    The language in AIR-21 required certain criteria be met before 
allocations were determined. The most important of those criteria:

    1) LProvide domestic network benefit in areas beyond the perimeter

    2) LIncrease competition by new entrant carriers or in multiple 
markets

    America West serves several markets in the west and is in the 
process of expanding service across the west as their name indicates. 
However, I must question the allocations of slots to Frontier Airlines 
and National Airlines considering their status as new entrant carriers 
that provide the best domestic network benefits in areas beyond the 
perimeter. Furthermore, are these airlines securely established in 
their so-called hubs?
    Finally, I must make it very clear that I find the TWA award very 
curious. Mr. Chairman, I must say that the allocation of two slots to 
TWA to serve Los Angeles is a very questionable move motivated more by 
politics than by merit.
    As indicated by this chart (source: TWA's website), TWA provides 
service to six markets without direct access to DCA.* I am aware the 
award of their allocation includes a requirement that TWA partner with 
another regional airline but the fact still remains that TWA currently 
provides service to only 6 communities. The partnering airline is 
Chatauqua Airlines which is considered an inside-the-perimeter airline 
serving several East Coast markets.
---------------------------------------------------------------------------
    * The information referred to was not available.
---------------------------------------------------------------------------
    On the other hand, I, along with several of my colleagues were 
supportive of Delta Airline's application which would have provided 
direct service between Salt Lake City and DCA. Awarding Delta DCA slots 
would have provided one-stop service to our nation's capital to 64 
communities in the West.
    Frankly, I am very concerned that the allocation process--which was 
praised by the Administration as ``non-partisan''--was instead very 
political. Based solely on the first and primary criteria as dictated 
by H.R. 1000, Congressional direction, I believe, was ignored by the 
Administration. Let me say that again, I believe that Congressional 
direction was ignored by the Administration.
    Thank you, Mr. Chairman.

    The Chairman. Thank you, Senator Burns. I think your point 
is well made, and I'd like to make a couple of additional 
comments.
    Thanks to the really extraordinary efforts on the part of 
those who support the maintenance of the perimeter rule, 
including United Air Lines, including several other airlines, 
including the parochialism that exists here in the Washington, 
D.C. metropolitan area, we were unable to do what we really 
need to do, and that is do away with the perimeter rule and let 
people fly wherever the markets are.
    So what we did, and I'm not taking the side of the 
Department of Transportation, but we really, as I said on the 
floor, we won a pyrrhic victory: Just 24 flights, 12 of them 
within and 12 of them without, outside of the perimeter rule. 
Then it lent itself, very frankly, to a huge amount of 
politicization and political pressure on the Department of 
Transportation.
    Everybody wrote letters--I did not, but everybody, 
understand, wrote letters, ``give us flights to our particular 
city,'' putting absolutely to rest for all times that there is 
a need for flights beyond the perimeter rule in the United 
States of America from Reagan National Airport, which 
incidentally as we all know, has the highest air fares in the 
country.
    But it is also a telling commentary, the power, 
particularly of United Air Lines and other airlines who wanted 
the status quo so that they can have the high air fares out of 
Reagan National and maintain what they have out at BWI as well 
as Dulles.
    I would just remind you, the reason why we put in the 
perimeter rule was so that Dulles Airport, which was a white 
elephant back in the Fifties, would have a chance to grow and 
prosper. I landed at Dulles Airport on Sunday afternoon. It's 
congested, it's full, it's packed.
    And by the way, I have to give credit to the Virginia 
delegation as well, and The Washington Post, which 
editorialized at least once a week about how we were 
interfering with the operation of Reagan National Airport by 
trying to change a federal law. Curious logic.
    Senator Burns. Mr. Chairman, if you would yield just for a 
second.
    The Chairman. I would be glad to.
    Senator Burns. If they just looked at the guidelines of Air 
21 that was written into that, it says to provide domestic 
network benefit in areas beyond the perimeter, to benefit those 
areas. And to increase competition by new entrant carriers or 
in multiple markets.
    We might as well have made a doorstop out of those two 
statements, because they weren't even looked at. So I guess 
that's my--I have no problem with going to Phoenix for the 
simple reason that I think those slots will be very well 
served. But the Los Angeles market, to a carrier--now I know 
TWA, you know, 30 wobbly airplanes, and only serve six cities 
out of that hub is not, that doesn't fulfill the guidelines in 
the language of Air 21.
    The Chairman. Let me just assure you that I will continue 
the struggle to try to remove the perimeter rule and other 
restrictions against competition, which then causes lower air 
fares, which then allows for more markets to be served. And 
when we get into our questioning Mr. Sanchez, I am deeply 
concerned about the consolidations within the industry, the 
United-U.S. Air merger; we read in The Washington Post and The 
New York Times this morning, American is now talking to Delta-
Northwest. If there is then a spinoff of Continental, you will 
end up with three major airlines in America. I am not sure 
that's good for America; in fact, I'm pretty sure that it is 
not.
    Senator Lott, did you want to engage in this discussion 
before we allow Mr. Sanchez to talk?

             OPENING STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. It has been very interesting to observe it.
    Mr. Sanchez, welcome, and good luck in your new position.
    Mr. Chairman, I share the feelings that you and Senator 
Burns have both expressed, including the ridiculousness of the 
perimeter rule, but I think perhaps enough has been said this 
morning. I just want to emphasize, as you've already heard from 
Senator Burns, and from others as you have been making courtesy 
calls.
    Please keep in mind in your new position the small and 
underserved markets, which we have found when they get service, 
flourish and do quite well. Jackson, Mississippi was one of the 
five most underserved areas in the country. When we had another 
airline come in, the dominant airline that was there complained 
that they would probably have to reduce their service or stop 
serving that area. But, the boardings went up 106 percent or 
something of that magnitude; not only did the existing airline 
increase in ridership, the new airline was full almost 
immediately. So it has worked very well where they do get 
reasonable service in these underserved and smaller markets.
    So good luck, and I look forward to working with you.
    The Chairman. Senator Rockefeller.

         OPENING STATEMENT OF JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman.
    My priorities in aviation are to try to make the system 
work, for big markets as well as small markets, because it 
isn't working for the most part. We have kind of stood by here 
in Congress and watched the system deteriorate, and have not 
really done very much about it until we passed the last FAA 
bill, which will take a while to kick in, and it won't be 
nearly enough.
    You have an enormously important position; people 
underestimate it. But the power that you have, the influence 
that you have, the types of decisions that you will make, are 
not only domestic but they're international and they're very 
far-flung on all sides.
    There may be some who try to say that ``Well, you haven't 
had a lot of aviation experience.'' Well, none of us had much 
experience when we came up here as being Senators. But people 
said that about Jane Garvey, too, and she's the best FAA 
Administrator I've ever seen.
    You have my full confidence. You should know that along 
with the national system of making air traffic safety smoother 
and safer and all the rest of it which we're not yet up to, 
obviously I have a very strong interest in small markets. You 
do essential air service, you administer this grant program 
which is new and would be very, very interesting, but I have a 
lot of confidence in your ability and I look forward to voting 
for you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Graham.

             INTRODUCTION OF FRANCISCO SANCHEZ BY 
           HON. BOB GRAHAM, U.S. SENATOR FROM FLORIDA

    Senator Graham. Mr. Chairman and members of the Committee, 
thank you very much for this opportunity to introduce to the 
Committee a good friend, a long friend of mine, Francisco 
Sanchez, who has been nominated to be the Deputy Secretary of 
Transportation for Aviation.
    I have known Mr. Sanchez for most of his adult life. He 
comes from Tampa, Florida where his family is a very important 
part of the fabric of that community. While I was Governor, Mr. 
Sanchez served with distinction in our administration, working 
particularly closely with our Lieutenant Governor, Wayne 
Mixson, primarily in economic development issues.
    I can attest that Mr. Sanchez is a man of dedication, 
honor, integrity and very keen intelligence. One of his 
particular skills is as a gifted problem-solver, which from the 
opening comments, sounds as if it would be a characteristic 
extremely valuable in this position.
    Mr. Sanchez, although a relatively young man, brings a rich 
blend of public and private sector experience, including 
employment with one of Florida's leading law firms and later 
the Dispute Resolution Center at Harvard.
    Mr. Sanchez has a special appreciation of the aviation 
needs of rural communities, small towns and underserved areas; 
experience and expertise that he will be able to use at the 
Department of Transportation. In part, this experience was 
gained through his work in state government where part of his 
portfolio was to bring aviation service to underserved 
communities in Florida.
    He also served as the first director of Florida's Caribbean 
Basin initiative program. He has used his expertise in Latin 
America and the Caribbean in many other positions.
    One of Frank's particular skills is in negotiation. He was 
part of the Harvard negotiation group which has been very 
instrumental in not only educating individuals and groups about 
negotiating skills, but also actually applying those skills. As 
the managing director of CMI International Group, Frank 
designed and facilitated the negotiations for complex 
international transactions in labor-management.
    He has worked in such diverse areas as Medellin, Colombia 
as part of a teaching tolerance program, an initiative to end 
violence in that province. He played an advisory role in ending 
the Peru-Ecuador dispute which contributed to a peace treaty 
signed in October 1998, and I can say I know his firsthand 
abilities in the area of negotiation because he taught to our 
Washington staff and myself, through an intensive, multi-day 
seminar, techniques in negotiating skill which all of you have 
had an opportunity to be exposed to, and thus you can now 
understand why I have been so persuasive in asking your support 
for common causes.
    Currently, Mr. Sanchez serves as Special Assistant to the 
President and Senior Advisor to a Special Envoy for the 
Americas, Ambassador Buddy MacKay. There his focus includes 
economic issues, democracy, judicial reform, human rights, 
health and education systems, environmental policy and 
sustainable development.
    Mr. Sanchez has a bachelor's and law degree from Florida 
State University, and a Master's degree in Public 
Administration from the Kennedy School of Government.
    Mr. Chairman, Members of the Committee, I appreciate the 
chance to be here today. I am certain that you will find the 
same qualities in Mr. Sanchez that I have known for many years.
    My colleague, Senator Mack, has asked me to join in support 
of Mr. Sanchez, and I would like to submit his statement for 
the record.
    The Chairman. Without objection.
    Senator Graham. Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Mack follows:]

   Prepared Statement of Hon. Connie Mack, U.S. Senator from Florida
    Mr. Chairman and members of the Committee, I am pleased to have the 
opportunity to introduce Francisco Sanchez for your consideration as 
the Assistant Secretary for Aviation and International Affairs at the 
Department of Transportation.
    Mr. Sanchez has an impressive resume and an extensive background in 
foreign relations and negotiations. He began his academic career at 
Florida State University where he graduated with a Bachelor of Arts 
degree in Multi-National Business and Spanish. Mr. Sanchez then earned 
his Juris Doctorate from the Florida State University College of Law. 
In 1993, Mr. Sanchez received a Master's degree in public 
administration from the Kennedy School of Government at Harvard 
University.
    Over the course of Mr. Sanchez's career, he has served as the 
Secretary for the Florida Department of Commerce, the State of 
Florida's first director of their Caribbean Basin Initiative Program, 
and as former Governor Bob Graham's Liaison to the Florida Commission 
on Hispanic Affairs. While in Florida, Mr. Sanchez also practiced 
corporate and administrative law with Steel, Hector and Davis, a Miami 
based firm.
    Following his time practicing law, Mr. Sanchez joined CMI 
International Group where he served as Senior Consultant and Managing 
Director. This group designs and facilitates negotiation processes for 
complex transactions and labor management matters worldwide, with an 
emphasis in Latin America and the Caribbean.
    I am informed that, while at CMI, Mr. Sanchez worked with the 
private sector on a variety of negotiations including 
telecommunications, mining franchises and collective bargaining 
agreements. Mr. Sanchez headed a team in Medellin, Colombia as part of 
the ``Teaching Tolerance'' program, an initiative to curb the violence 
in the province of Antioquia. This program brought together disparate 
groups to learn conflict resolution. He also played an advisory role in 
the Ecuador-Peru border dispute, which contributed to the signing of a 
peace treaty in October of 1998. Mr. Sanchez was also a contributing 
author to Negociacion 2000 published by McGraw-Hill.
    In 1999, Mr. Sanchez came to Washington, D.C. to serve as Special 
Assistant to the President in the Office of the Special Envoy for the 
Americas. He currently serves as Chief of Staff and advises on policy 
related to the Americas including economic integration, promoting 
democratic and judicial reforms, human rights, health and education 
systems, cultural exchange, sustainable development, environmental 
practices and other issues.
    Mr. Sanchez's credentials are truly impressive, and it is evident 
that he has achieved excellence throughout his career. His professional 
experience in the field of international affairs would certainly be an 
asset to the Department of Transportation.
    Mr. Chairman, it has been my pleasure to introduce this fine and 
capable man to the Commerce Committee this morning. Thank you.

    The Chairman. Thank you very much, Senator Graham. I know 
you have a very busy schedule this morning, and we appreciate 
the fact that you would take the time out on behalf of your 
friend and fellow Floridian.
    Thank you very much, Senator Graham.
    Senator Dorgan, did you have anything to say before we 
allow Mr. Sanchez to say a word?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, I will wait and, if it's 
permissible, I want to ask Mr. Sanchez a few questions. But let 
me just say that I am delighted that he is here. I think he has 
wonderful credentials, and I am supportive of his nomination.
    I thank Senator Graham for his wonderful introduction. I 
would like to ask him a couple of questions following his 
testimony.
    The Chairman. Mr. Sanchez, welcome to the Committee.

STATEMENT OF FRANCISCO J. SANCHEZ, NOMINEE, ASSISTANT SECRETARY 
     FOR AVIATION AND INTERNATIONAL AFFAIRS, DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Sanchez. Thank you, Mr. Chairman, Members of the 
Committee.
    I am honored to come before you today as you consider my 
nomination to be Assistant Secretary of Transportation for 
Aviation and International Affairs. I especially appreciate the 
Committee's efforts to expedite my nomination during this busy 
legislative period.
    And I want to thank Senator Graham for his kind words. My 
introduction to public service began 20 years ago when I first 
went to work for Senator Graham in the Florida Governor's 
office. I thank him for that opportunity and I thank him for 
his continued support today.
    I also want to thank Senator Mack for his written testimony 
in support of my nomination.
    I am also pleased to be joined today by Special Envoy for 
the Americas Buddy MacKay, himself a former Member of Congress.
    Serving as chief of staff to Special Envoy MacKay has 
allowed me to advance America's strategic and economic 
interests throughout the Western Hemisphere. I want to thank 
Mr. MacKay, and I also would like to thank the Special Envoy 
staff for their friendship and tremendous support.
    Finally and most importantly, Mr. Chairman, I want to thank 
you for acknowledging my mother and father. I am grateful for 
their consistent support and encouragement over the years, as 
well as that of my friends who have joined me here this 
morning.
    Mr. Chairman, I am deeply honored by the confidence that 
the President and Secretary Slater have placed in me. The 
President and Secretary Slater recognize the critical 
importance of the international transportation system to our 
nation's economy, security, and quality of life.
    The Office of Assistant Secretary for Aviation and 
International Affairs will tackle numerous complex issues. I 
know that my time is limited, but I believe that my background 
and my energy can be valuable assets as we work to increase 
competition and access at home and open up new markets abroad.
    I know this Committee has worked hard to enhance air 
service and airline competition in domestic communities both 
large and small. I will work to ensure that the Essential Air 
Service program is responsive to airline customers throughout 
the United States. The Department of Transportation will also 
monitor the impacts of airline consolidation, providing input 
on major changes like the merger of United and U.S. Airways.
    As Chief of Staff in the Special Envoy for the Americas 
office in the White House, I became intensely aware of the need 
to promote free and open markets. I am ready to draw on my 
background in negotiation to help the Department complete open 
sky agreements with foreign governments in all corners of the 
world.
    Before joining the Special Envoy staff, I was managing 
director of an international consulting firm specializing in 
negotiation strategies for business and government. This 
experience can be an asset as we move forward with negotiations 
with the United Kingdom, and expand multilateral aviation 
agreements with APEC, the Asian Pacific Economic Cooperation 
organization.
    I look forward to working with this Committee, the 
industry, labor and other interested groups to help the United 
States achieve transportation excellence in the 21st Century.
    Thank you for your consideration. I would be happy to 
address any questions that you may have.
    [The prepared statement and biographical information of Mr. 
Sanchez follow:]

    Prepared Statement of Francisco J. Sanchez, Nominee, Assistant 
    Secretary for Aviation and International Affairs, Department of 
                             Transportation
    Chairman McCain, Senator Hollings and members of the Committee, I 
am honored to come before you today as you consider my nomination to be 
the Assistant Secretary of Transportation for Aviation and 
International Affairs. I especially appreciate the efforts of the 
Committee to expedite my nomination during your busy legislative 
period.
    And thank you, Senator Graham, for your kind words of introduction. 
My introduction to public service began more than 20 years ago when I 
first went to work for you in the Florida governor's office. Thank you 
for that opportunity then and for your continued support today.
    I would also like to thank Senator Connie Mack for his written 
testimony in support of my nomination.
    I am pleased to be joined today by Special Envoy for the Americas 
Buddy MacKay, himself a former Member of Congress. Serving as Chief of 
Staff to Special Envoy MacKay has allowed me to help advance America's 
strategic and economic interests throughout the Western Hemisphere. I 
would like to thank Mr. MacKay and the Special Envoy staff for their 
friendship and tremendous support.
    Finally, but most importantly, I would like to acknowledge my Mom 
and Dad. I am grateful for their constant support and encouragement 
over the years as well as that of my friends who have joined me here 
this morning.
    Mr. Chairman, I am deeply honored by the confidence that the 
President and Secretary Slater have placed in me. The President and 
Secretary Slater recognize the critical importance of the international 
transportation system. In particular, they are very much aware of the 
role air service plays in our nation's economy, its security, and its 
quality of life. My pledge to them, to Congress, and to the American 
people is that, if confirmed, I will work hard to serve the public 
interest by promoting the Department's policies of increasing 
competition and access at home and by continuing to open up global 
markets.
    The development of an efficient global air transportation system 
has enormous consequences for consumers, local communities, and the 
national economy. Air transportation is a growing part of world 
commerce. More than 650 million passengers flew on US airlines last 
year, a number that will reach one billion by 2010. Travel and tourism 
is already the world's largest industry, directly or indirectly 
creating 10 percent of global jobs. The $1 trillion global air 
transportation industry accounts for 24 million jobs worldwide. By 
2010, this economic impact will approach $2 trillion, accounting for 
over 30 million jobs.
    The Office of the Assistant Secretary for Aviation and 
International Affairs is critical to this nation's position in the 
world economy. There are numerous, complex issues that need to be 
addressed. I know my time may be limited, but I believe my background 
and energy can be valuable assets at the Department of Transportation.
    Domestically, consumer access to affordable air service is 
essential to efficient commerce. I support the efforts of this 
Committee and the Department to enhance air service and airline 
competition in communities both large and small. I will work to ensure 
that the Essential Air Service program is responsive to airline 
customers throughout the United States.
    I look forward to managing our efforts to extend the reach of 
individual airlines and to offer passengers and shippers better and 
more cost-effective access to ever-expanding markets. The Department of 
Transportation will monitor the impacts of airline consolidation, 
providing input on major changes like the merger of United and U.S. 
Airways. The Department will also monitor passenger service to 
determine how airlines treat their customers.
    As Chief of Staff to the Special Envoy for the Americas in the 
White House, I became intensely aware of the need to promote free and 
open markets and of the tremendous opportunities in global aviation 
that await us. I am also ready to draw on my background in negotiation 
to help the Department reach Secretary Slater's goal of a true 
international aviation network built through bilateral, plurilateral, 
regional, and global agreements.
    Before joining the Special Envoy's staff, I was managing director 
of an international consulting firm specializing in negotiation 
strategy advice for businesses and governments around the world. I look 
forward to using my international negotiation experience to build on 
the Department's success in negotiating 46 open-skies agreements with 
foreign governments in all corners of the world. Our negotiations with 
the United Kingdom are now at a critical juncture, and we are working 
to expand pluralateral aviation agreements with APEC, the Asian-Pacific 
Economic Cooperation organization.
    As the Committee is well aware, we still have much to do. I look 
forward to working with this Committee, the industry, and other 
interested groups to achieve transportation excellence in the 21st 
Century.
    Thank you for your consideration. I would be happy to address any 
questions you may have.
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Francisco 
Juan Sanchez. Also have used ``Frank.''
    2. Position to which nominated: Assistant Secretary for Aviation 
and International Affairs at the Department of Transportation.
    3. Date of nomination: June 13, 2000.
    4. Address: (List current place of residence and office addresses.) 
Residence: 1080 Wisconsin Avenue #1014, Washington, D.C. 20007. Office: 
Office of the Special Envoy for the Americas, OEOB 176A, Washington, 
D.C. 20502.
    5. Date and place of birth: June 16, 1959, Tampa, Florida.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Single.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) Not Applicable.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)


------------------------------------------------------------------------
                                        Date
    School Attended       Dates of     Degree        Degrees Awarded
                         Attendance    Granted
------------------------------------------------------------------------
Hillsborough High        1974-1977   1977        High school diploma
 School
------------------------------------------------------------------------
University of Florida    1977-1978
------------------------------------------------------------------------
Florida State            1979-1981   1981        B.A. Degree
 University
------------------------------------------------------------------------
Florida State            1983-1986   1986        J.D. Degree
 University
------------------------------------------------------------------------
Harvard University       1992-1993   1993        Masters Degree in
                                                  Public
                                                   Administration
------------------------------------------------------------------------


    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)


------------------------------------------------------------------------
                                                              Dates of
  Title of Job    Name of Employer     Location of Work      Employment
------------------------------------------------------------------------
Special           The White House   Office of the Special   April 1999
 Assistant to                        Envoy, OEOB 176A,       to the
 the President                       Washington, DC 20502    present
 and Chief of
 Staff of the
 Office of
 Special Envoy
------------------------------------------------------------------------
Managing          CMI               1030 Massachusetts      September
 Director          International     Ave., Cambridge, MA     1997 to
                   Group             02138                   April 1999
------------------------------------------------------------------------
Senior            Conflict          1030 Massachusetts      September
 Consultant        Management Inc.   Ave., Cambridge, MA     1993 to
                                     02138                   August 1997
------------------------------------------------------------------------
Associate         Steel Hector &    200 S. Biscayne Blvd.,  February
 Attorney          Davis             4th Floor, Miami, FL    1987 to
                                     33131                   July 1992
------------------------------------------------------------------------
Asst. to the      Florida           Collins Bldg, 107 W.    June 1984 to
Secretary of       Department of     Gaines Street,          January
Commerce           Commerce          Tallahassee, FL 32399   1987
------------------------------------------------------------------------


    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.) Not Applicable.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)


------------------------------------------------------------------------
    Affliated Corp./
      Institution           Relationship/Duty        Dates of Service
------------------------------------------------------------------------
CMI International Group  Former Managing          September 1997 to
                          Director, current        April 1999
                          equity holder
------------------------------------------------------------------------
Florida International    Member-Board of          1989-1998
 Volunteer Corps          Directors
------------------------------------------------------------------------
Government of Ecuador    Advisor on negotiations  April 1998-December
                          and conflict             1998
                          resolution
------------------------------------------------------------------------
Government of Colombia   Advisor on negotiations  August 1994-December
                          and conflict             1998
                          resolution
------------------------------------------------------------------------
Conflict Management      Advisor on negotiations  August 1993-April 1999
 Group                    and conflict
                          resolution
------------------------------------------------------------------------
PDVSA Venezuela          Advisor on negotiations  February 1997-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
Bell South Ecuador       Advisor on negotiations  November 1998-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
Conecel Ecuador          Advisor on negotiations  June 1998-April 1999
                          and conflict
                          resolution
------------------------------------------------------------------------
Andinatel Ecuador        Advisor on negotiations  December 1998-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
Pacifictel Ecuador       Advisor on negotiations  December 1998-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
APENAC Peru              Advisor on negotiations  September 1995-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
Fundacion Chile          Served as                September 1998-April
                          Representative to CMI    1999
                          International Group
------------------------------------------------------------------------
AIRAD Argentina          Served as                January 1996-April
                          Representative to CMI    1999
                          International Group
------------------------------------------------------------------------
VISA International       Advisor on negotiations  June 1998-April 1999
                          and conflict
                          resolution
------------------------------------------------------------------------
Sprinters International  Advisor on negotiations  May 1997-April 1999
                          and conflict
                          resolution
------------------------------------------------------------------------
Government of Costa      Advisor on negotiations  July 1998
 Rica                     and conflict
                          resolution
------------------------------------------------------------------------
InterAmerican            Advisor on negotiations  June 1994-April 1999
 Development Bank         and conflict
                          resolution
------------------------------------------------------------------------
World Bank               Advisor on negotiations  January 1996-February
                          and conflict             1996
                          resolution
------------------------------------------------------------------------
BANAMEX                  Advisor on negotiations  September 1993-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
Banca Serfin             Advisor on negotiations  December 1996-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
Camara de Comercio de    Served as                January 1997-April
  Bogota                  Representative to CMI    1999
                          International Group
------------------------------------------------------------------------
Camara de Comercio de    Served as                July 1997-April 1999
 Quito                    Representative to CMI
                          International Group
------------------------------------------------------------------------
Camara de Comercio de    Served as                July 1997-April 1999
 Guayaquil                Representative to CMI
                          International Group
------------------------------------------------------------------------
Art Tech Uruguay         Advisor on negotiations  January 1997-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
Accion International     Advisor on negotiations  January 1997-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
Discovery Channel Latin  Advisor on negotiations  January 1997-April
 America                  and conflict             1999
                          resolution
------------------------------------------------------------------------
Grupo Bavaria            Advisor on negotiations  June 1996
                          and conflict
                          resolution
------------------------------------------------------------------------
Andersen Consulting      Advisor on negotiations  January 1994-January
                          and conflict             1998
                          resolution
------------------------------------------------------------------------
Arthur Andersen          Advisor on negotiations  January 1994-January
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
IBM                      Advisor on negotiations  September 1993-April
                          and conflict             1999
                          resolution
------------------------------------------------------------------------
Smith Barney             Advisor on negotiations  September 1996
                          and conflict
                          resolution
------------------------------------------------------------------------
Bank of America          Advisor on negotiations  September 1993-
                          and conflict             September 1997
                          resolution
------------------------------------------------------------------------
Conflict Management,     Advisor on negotiations  September 1993-
 Inc.                     and conflict             September 1997
                          resolution
------------------------------------------------------------------------
Boston Teachers Union    Advisor on negotiations  January 1994-July 1994
                          and conflict
                          resolution
------------------------------------------------------------------------
Boston Public Schools    Advisor on negotiations  January 1994-September
                          and conflict             1995
                          resolution
------------------------------------------------------------------------
Florida Chamber of       Advisor on negotiations  January 1995-April
 Commerce                 and conflict             1999
                          resolution
------------------------------------------------------------------------
J.P. Morgan              Advisor on negotiations  April 1993-April 1999
                          and conflict
                          resolution
------------------------------------------------------------------------


    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)


------------------------------------------------------------------------
                                                           Dates of
     Membership Organization        Positions Held        Membership
------------------------------------------------------------------------
Boston Museum of Fine Arts        Member              1997-1999
------------------------------------------------------------------------
Boston Museum of Science          Member              1997-1999
------------------------------------------------------------------------
Florida Assoc. For Voluntary      Board of Directors  1989-1998
 Agencies
  (Florida Int'l Volunteer
 Corp.)
------------------------------------------------------------------------
Florida Bar Association           Member              1986-present
------------------------------------------------------------------------
American Bar Association          Member              1987-1992
------------------------------------------------------------------------
Do the Right Thing, Inc.          Chairman of Board   1989-1992
------------------------------------------------------------------------
Florida Center for Family &       Member              1990-1991
 Youth
------------------------------------------------------------------------
Miami Chamber of Commerce         Member              1990-1992
 Legislative
  Affairs Committee
------------------------------------------------------------------------
City Club                         Member              1987-1992
------------------------------------------------------------------------
Harvard Faculty Club              Member              1993-present
------------------------------------------------------------------------
Kennedy School Alumni Assoc.      Member              1993-present
------------------------------------------------------------------------
Florida State U. Alumni Assoc.    Member              1986-present
------------------------------------------------------------------------


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. I am a registered Democrat; I did fundraising for the Lawton 
Chiles campaign for Governor of Florida in 1990. I also volunteered for 
the Clinton-Gore campaign in 1992.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. I cannot recall any 
contributions made in the last 10 years that were $500.00 or more.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
(a) Florida International Volunteer Corp., Volunteer of the Year, 1998; 
(b) American Legion Leadership Award, 1977; (c) Florida Chamber of 
Commerce Star Student Award, 1976.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)


------------------------------------------------------------------------
                                                              Dates of
              Titles                     Publishers         Publication
------------------------------------------------------------------------
``La Negociacion y el Proceso      McGraw-Hill             July 1996
 Legislativo'' (Cf. ``Negotiation   Interamericana,
 and the Legislative Process''),    Colombia
 Negociacion 2000: La coleccion
 de Conflict Management
------------------------------------------------------------------------
``Preparandose para Negociar''     Carta Gerencial 9,      January 1998
 (Cf. ``Getting Ready to            Uruguay
 Negotiate''). Ertel, Danny and
 Francisco Sanchez with Horacio
 Falcao
------------------------------------------------------------------------
``A fase de preparacao'' (Cf.      HSM Management 8        May 1998
 ``Getting Ready to Negotiate'').
 Ertel, Danny and Francisco
 Sanchez with Horacio Falcao
------------------------------------------------------------------------


    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. I have not delivered any speeches during the last five years 
on topics relevant to the position for which I have been nominated.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President?
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
    Yes, I do know why I was chosen for this nomination by the 
President. The office of Assistant Secretary for Aviation and 
International Affairs of the U.S. Department of Transportation is 
responsible for negotiating Open Skies agreements with other nations. 
This is not the only duty of this office, but it is a major work 
component. I bring to this job extensive experience in negotiating 
complex transactions and providing advice on negotiating strategy. 
Prior to my current work at the Office of the Special Envoy for the 
Americas in the White House, I worked as a consultant with Conflict 
Management, Inc. and CMI International Group. Both are consulting firms 
specializing in providing negotiation strategy and business 
relationship management advice. I have worked with governments, 
corporations, and multilateral organizations located in more than 
thirty countries from around the world. Secretary Slater believes--as I 
do--that my negotiating experience can complement the efforts of the 
Department in negotiating Open Skies agreements and other 
transportation issues.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? I currently have no positions or 
affiliations outside of government.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? I have discussed working again with CMI International 
Group, the consulting company with which I was previously associated, 
but I have not entered into any plan, agreement, or arrangement with 
that organization.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


------------------------------------------------------------------------
    Status & Terms of any
  Agreement  or Arrangement            Parties                 Date
------------------------------------------------------------------------
Pursuant to a shareholders    Mark Smith, Los Angeles,   September 1997
 agreement with Mark Smith,    CA
 I receive a share of
 profits, if any, from CMI
 International Group
------------------------------------------------------------------------
I have rented my apartment    CMI International Group,   April 1999
 to my former company, CMI    Cambridge, MA
 International Group, at
 fair market value
------------------------------------------------------------------------
I am a non-contributing       CMI International Group    March 1998
 participant in a 401K Plan
 sponsored by CMI
 International Group
------------------------------------------------------------------------


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None of which I am 
aware.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? In 1990 I briefly 
represented Pan American World Airways before the State of Florida and 
Dade County. Other than that, I am not aware of any.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    From 1987 to 1992 I lobbied the Florida legislature and executive 
branch on a variety of issues. Below is a list of my former clients:


Ablecare, Inc.                       Pharmaceuticals Searle
American Electronics Assn.           Psychotherapists Society
American Express                     Scholarship Inter-Americans
Argus Insurance Services, Inc.       SLAAC State Legislative Alert &
ARRDA                                 Action
Arvida/JMB Partners                  Miami-Dade Community College
Avis Rent-A-Car                      Ethanol Corp.
Assn. Of FL Broadcasters             FCCI Self Insurers Fund
Broilers Assn., NE FL                Flo-Sun
Budget Rent-A-Car                    Knight-Ridder
Coca-Cola Enterprises                Loan America Financial Corp.
Coca-Cola Foods                      National Medical Enterprises
Distilled Spirits Council            Pan American World Airways
Education Corp. of America           Paramount Communications
Environmental Products Corp.         Pay Telephone Association
Florida Bar                          Peoples Telephone Co.
General Electric                     Securities Industry Assn.
Hearing Aid Society                  Telesat Cablevision
Kurzweil Computers                   United Gas Pipe Line Co.
Magella Corp.                        Vittoria (Bermuda) Insurance &
Microtel, Inc.                         Reinsurance Co.
Multistate Assoc. Inc.               Walt Disney World
 


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I will 
do whatever is necessary to eliminate any potential conflict of 
interest.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. I can think of no unfavorable 
information that should be considered. My resume is attached. Also, 
please refer to question 17 of Section A.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes, I will 
make this a top priority.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. As 
the Assistant Secretary for Aviation and International Affairs, I will 
review all potentially significant regulations and ensure they comply 
with the spirit of legislation passed by Congress.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. The Office of the Assistant 
Secretary for Aviation and International Affairs is responsible for a 
broad portfolio of responsibilities covering domestic and international 
aviation, international trade, and a range of other international 
cooperation and facilitation issues. The Office has three primary 
goals. The Office works to (1) liberalize international air services; 
(2) ensure the benefits of a deregulated, competitive domestic airline 
industry; and (3) expand transportation and trade opportunities for 
U.S. companies around the globe. Several initiatives support these 
goals. For example, Secretary Slater has initiated implementation of 
the President's Safe Skies for Africa Initiative, an effort to improve 
aviation safety and airport security in Africa and to foster the growth 
of aviation services between Africa and the United States. The 
Department has increased the number of ``Open Skies'' agreements, and 
it is working on a post ``Open-Skies'' policy to address the economics 
of networks and their impact on prices and services, infrastructure 
limitations, and barriers to entry. Domestically, the Office has worked 
hard to ensure the benefit to consumers of air deregulation; encouraged 
small community air service through the Essential Air Service Program; 
and is well underway with implementation of the provisions of AIR-21.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated? From 
1993 to 1999 I worked as a consultant with Conflict Management, Inc. 
and CMI International Group. Both of these organizations were born out 
of the Harvard Negotiation Project, a negotiation and conflict 
resolution think tank at Harvard Law School. I provided advice and 
training and facilitated complex negotiations on behalf of 
corporations, governments and multilateral organizations throughout the 
world. I had a particular focus in Latin America.
    Prior to my work with these organizations I practiced corporate and 
administrative law with the law firm of Steel Hector & Davis. Both my 
law background and my negotiation consulting work will serve me well in 
this position.
    2. Why do you wish to serve in the position for which you have been 
nominated? I believe my academic background and professional experience 
will permit me to add value to the Department of Transportation. I 
enjoy my work as a negotiator and in formulating public policy. I want 
to bring those skills to bear at the Department of Transportation.
    3. What goals have you established for your first two years in this 
position, if confirmed? I will work to continue the process of 
liberalization with our international trading partners, including 
efforts to achieve an Open Skies agreement with Great Britain. I will 
continue Secretary Slater's initiative to develop pluralateral aviation 
agreements. For example, there are promising developments with 
economies represented in APEC, the Asia Pacific Economic Cooperation 
organization. I will also work to sustain the benefits of a competitive 
domestic aviation industry. In this regard, I will work closely with 
the FAA to implement the provisions of AIR-21.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I do not have an extensive aviation 
background. I will work closely with staff to enhance my understanding 
of complex aviation issues.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. 
Government should involve itself in the private sector when national 
security, safety, health, and economic stability are threatened. Any 
government program should have quantifiable objectives, and when those 
goals are met, it is appropriate to terminate the program. It is also 
appropriate to eliminate a government program when a comprehensive 
review has determined those societal objectives could best be met by 
other means. Because air space is a national resource, aviation is a 
perfect example of how government should be involved in the marketplace 
to meet the larger goals of safety and security.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. The Office 
of the Assistant Secretary for Aviation and International Affairs has 
two primary duties. First, the Office works to make aviation more 
accessible, efficient, and competitive. Every year, more than 550 
million people fly domestically, while another 50 million use American 
carriers for international flights. Second, the Office seeks to expand 
international Open Skies agreements, implement the provisions of AIR-
21, and work the Land Transportation Standards Subcommittee, which was 
created by the North American Free Trade Agreement to develop 
compatible standards for truck, bus, and rail operations.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. Several developments may affect the mission of this office over 
the next five years. Economic globalization is an ever-present force. 
Additionally, there is increased demand for airline and infrastructure 
services. Technology is changing at a rapid rate, affecting operations 
like e-commerce and prompting companies to consider the internet 
distribution of tickets.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why? Two major outside forces may prevent the 
agency from accomplishing its mission: (1) restrictive international 
regimes and (2) infrastructure problems. The top three challenges 
facing the office are (1) ensuring airline competition; (2) 
liberalization; and (3) enhancing international transportation trade 
services.
    9. In further reference to question number six, what factors in 
your opinion have kept the department/agency from achieving its 
missions over the past several years? Although the Office of the 
Assistant Secretary for Aviation and International Affairs has 
completed several important initiatives, the presence of restrictive 
international regimes and continued infrastructure problems has limited 
its work.
    10. Who are the stakeholders in the work of this agency? The 
Office's stakeholders include the traveling public; the aviation 
industry; manufacturers and shippers that use maritime, surface, and 
air transportation; international organizations; and the Congress.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten? I 
believe it is important to solicit input from stakeholders when 
developing policy. There are divergent opinions regarding our 
strategies for achieving better transportation in the Twenty-First 
Century. Senior government leaders should listen to views from 
Congress, industry, and the public. In a regulatory environment, it is 
essential to make decisions after all viewpoints have been considered.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls? 
The Department of Transportation has an institutionalized financial 
management process in which major departmental units report directly to 
the Assistant Secretary for Budget and Programs. The Inspector General 
regularly reviews departmental financial statements.
    (b) What experience do you have in managing a large organization? I 
have management experience in both the public and private sectors. From 
May of 1984 to January of 1987, I had management responsibilities with 
the Florida Department of Commerce during the administration of 
Governor Bob Graham. I was the first director of Florida's Caribbean 
Basin Initiative Program, which promotes economic development in the 
Caribbean Basin. I am currently Special Assistant to the President and 
Chief of Staff to the Special Envoy for the Americas, Buddy MacKay. 
Before this appointment, I was the managing director of CMI 
International Group. This group facilitates negotiations for complex 
transactions and labor-management issues worldwide, but with a special 
emphasis on Latin America and the Caribbean. For example, I led a team 
in Medellin, Colombia as part of the ``Teaching Tolerance'' program, an 
initiative to curb the violence in the province of Antioquia. I also 
played an advisory role in the Peru-Ecuador dispute, which led to the 
signing of a peace treaty in October of 1998.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. Performance goals are an essential element of 
any successful organization. They provide quantifiable targets for 
stakeholders. I will strongly support the Strategic and Performance 
Plans for the Department of Transportation. These documents have 
received strong marks from Congress for their clarity and vision.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? After determining why a performance goal has not been 
met, all steps should be considered to produce a positive outcome. 
Eliminating, privatizing, downsizing, or consolidating departments or 
programs are all options.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? I will work to meet all five 
goals in the Performance Plan for the Department of Transportation. 
There are quantifiable measures for safety, mobility, economic growth 
and trade, human and natural environment, and national security. 
However, I believe improvements in safety, mobility, and economic 
growth and trade are most directly affected by the Office of the 
Assistant Secretary for Aviation and International Affairs.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? Supervisors should 
provide the tools and guidance for employees to perform successfully in 
an organization. Most federal employees I have met are exceptionally 
able people, and they will perform well with the right resources and 
leadership. Supervisors should recognize outstanding performers and 
also identify problem employees. Fundamentally, though, a supervisor 
should set a good example for his or her employees. Morale is a 
critical element for success in any organization. To that end, I am not 
aware of any complaints brought against me.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I have worked on certain trade 
issues related to the Americas while working in the Office of the 
Special Envoy. In that capacity, I have had good working relationships 
with Members and Staff.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The Inspector General (IG) is critical within the 
Department of Transportation. The IG office is charged with uncovering 
waste, fraud, and abuse within the Department of Transportation. It is 
essential to have this independent unit within the Department, just as 
it is important to consider reforms recommended by the IG office for 
improving Departmental operations. There is a strong, respectful 
relationship between the current IG office and the office of the 
Secretary of Transportation. I will work to continue that tradition.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. As the 
Assistant Secretary for Aviation and International Affairs, I will 
review all potentially significant regulations and ensure they comply 
with the spirit of legislation passed by Congress.
    18. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. Passage of the Wendell H. Ford Aviation 
Investment Reform Act for the Twenty-First Century (AIR-21) was a major 
achievement that will help the office meet its mission.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a time frame for their 
implementation. Compared to other units within the Department of 
Transportation, the Office of the Assistant Secretary for Aviation and 
International Affairs has relatively few discretionary resources.
                                                         Attachment
                          Francisco J. Sanchez
                            Washington D.C.
Employment History
April 1999-present
The White House, Washington, D.C.
Special Assistant to the President, Office of the Special Envoy for the 
Americas
    Serves as Chief of Staff and advises on policy related to the 
Americas including economic integration, trade and promotion of 
democracy; coordinates closely with the National Security Council, the 
State Department and the United States Trade Representative.

September 1993-April 1999
CMI International Group, Cambridge, Massachusetts
Senior Consultant and Managing Director (September 1997-April 1999)
    An international consulting firm specializing in interest-based 
negotiation strategy, relationship management, mediation and conflict 
resolution.

  <bullet> Advising public and private organizations in the United 
        States, Latin America and Europe in negotiation strategy and 
        conflict prevention/resolution.

  <bullet> Facilitating business negotiations; labor-management 
        contract negotiations; serving as a mediator in resolving 
        litigation and other conflicts.
Sample international consulting engagements:
  <bullet> The World Bank sought advice on how to deal with a conflict 
        that was affecting an important project it was funding in Lima, 
        Peru; CMI developed a strategy in collaboration with World Bank 
        officials on how to manage the conflict.

  <bullet> Ecuador-Peru Border Dispute led to military confrontation in 
        1995 over sovereign rights in certain lands. CMI offered 
        strategic advice that contributed to the signing of a peace 
        treaty in October 1998.

  <bullet> The Governor of Antioquia, Colombia launched an 
        instructional program to reduce violence and to promote a 
        culture of tolerance; administered a program that brought 
        disparate groups (i.e. mayor, town council, teachers, private 
        sector) together to learn conflict resolution.

  <bullet> Ecopetrol is a state-owned oil company in Colombia affected 
        by a constitutional amendment requiring community approval for 
        all major development projects. Led an effort to develop 
        strategy to reach community consensus.

February 1987-August 1993
Steel Hector & Davis, Miami, Florida
Associate Attorney
    Florida-based law firm with a diversified practice including 
litigation, international, corporate, commercial and governmental law.

  <bullet> Retained by BIOFIL, S.A. of Brazil, a biotechnology company 
        specializing in products for burn victims and other skin 
        related problems; represented them in the U.S. on joint-venture 
        agreements, product licensing, FDA approval and venture-capital 
        financing.

  <bullet> Retained by United Gas Pipeline of Houston, TX to develop 
        and pass legislation regulating natural gas pipelines to 
        facilitate development of a 900-mile pipeline across the State 
        of Florida.

May 1984-January 1987
Florida Department of Commerce, Tallahassee, Florida
Chief Assistant to the Lieutenant Governor of Florida
    Served under the Lt. Governor (also served as the Secretary of the 
Department of Commerce) in the overall management of the agency.

  <bullet> Served as the initial Director of Florida's Caribbean Basin 
        Initiative Program (a program designed to promote economic 
        development in the Caribbean Basin.)

  <bullet> Served as Director of the Department's Legislative Affairs 
        Office.

June 1982-November 1982
Graham-Mixson Re-Election Campaign, Tallahassee, Florida
Deputy Campaign Director

  <bullet> Managed campaign planning/strategy development, fundraising, 
        candidate scheduling, media and public relations for Lt. 
        Governor Wayne Mixson.

  <bullet> Served as an Advisor on Hispanic Affairs to the campaign.

November 1978-May 1982
Office of the Governor, Tallahassee, Florida
Assistant to Governor & Lieutenant Governor
    Served as Governor Graham's Liaison to the Commission on Hispanic 
Affairs. As assistant to Lt. Governor Mixson, coordinated international 
trade projects and served as a Spanish language translator.
Education
Graduate
June 1993
Harvard University, John F. Kennedy School of Government
Masters Degree in Public Administration

Legal
April 1986
Florida State University, College of Law: Tallahassee, Florida
J.D. Degree, With Honors
    Activities: Advisor to the Dean, Caribbean Law Institute and 
Member, Faculty Selection Committee

Undergraduate
December 1982
Florida State University: Tallahassee, Florida
B.A. Degree: Multi-National Business & Spanish
Minor: Economics; Honors: Spanish Honor Society
Language
Speak, read, and write Spanish fluently; Proficient in Portuguese
Community Service
1990-1992
Chairman of the Board, Do The Right Thing, Inc.
    A non-profit corporation working with the City of Miami Police 
Department dedicated to recognizing students who are ``Doing the Right 
Thing''

1988-1992
General Counsel, Little Havana Nutrition & Activities Centers of Dade 
County
    One of the largest social service organizations for Hispanic senior 
citizens

1993
Evaluator, Innovations in State and Local Government Program
    Ford Foundation and John F. Kennedy School of Government

1989-1998
Board Member, Florida International Volunteer Corps
    A mini Peace Corps servicing the Caribbean Basin and Central 
America

1990-1992
Member, Florida Center for Family and Youth

1989-1991
Member, Greater Miami Chamber of Commerce Legislative Affairs Committee

1988-1989
Mentor, Private Industry Council High School Drop-Out Prevention 
Program
Additional Experience
December 1995
Co-creator of the Conflict Management Mediation Tool Kit

August 1995 & 1996
Guest lecturer on mediation at University of Massachusetts

June 1993
Teaching Assistant, Negotiation Workshop, Harvard Law School

May 1990-November 1990
Director of Young Professionals Fundraising for the Lawton Chiles 
Campaign for Governor of Florida

December 1982
Personal trip around the world. Met with commercial sections of 
American Embassies on behalf of the State of Florida.
Publications
July, 1996
``La Negociacion y el Proceso Legislativo'' (Cf. ``Negotiation and the 
Legislative Process''), Negociacion 2000: La coleccion de Conflict 
Management, McGraw-Hill Interamericana, Colombia, 1996.

January, 1998
``Preparandose para Negociar'' (Cf. ``Getting Ready to Negotiate''). 
Ertel, Danny and Francisco J. Sanchez with Horacio Falcao. Carta 
Gerencial 9, January-February Ed., 17 (Uruguay, 1998).

May, 1998
``A fase da preparacao'' (Cf. ``Getting Ready to Negotiate''). Ertel, 
Danny and Francisco J. Sanchez with Horacio Falcao. HSM Management 8, 
May-June Ed., 62 (Brazil, 1998).

    The Chairman. Thank you very much, Mr. Sanchez.
    My first question to you is, did you see this morning's 
paper about a possible merger between Northwest and American?
    Mr. Sanchez. To be honest, I was preparing for possible 
questions and reading my statement over, so I didn't read the 
paper this morning.
    The Chairman. Well, the rumors of it, I am sure you had 
heard even before.
    Mr. Sanchez. Yes, sir, I have.
    The Chairman. Do you share the concern of many, including 
me, that we could end up with three mega-airlines in America?
    Mr. Sanchez. I share the concern that we need to be ever-
vigilant, that we maintain a competitive airline industry. I 
think that much has been accomplished.
    The Chairman. Do you believe that three airlines is good 
for America?
    Mr. Sanchez. I am not sure what number is appropriate or 
inappropriate. I know that it will be a priority of this office 
and my tenure to contribute as much as I can to analyze and----
    The Chairman. I'd like some straight answers, Mr. Sanchez. 
Do you believe that it is good for airline competition for us 
to go from six major airlines to three major airlines?
    Mr. Sanchez. I don't feel I have enough information to 
respond to whether three or six or four are correct. I know 
that I need to be very concerned about the impact of a 
reduction in the number of airlines, and I will work as hard as 
possible with you and members of this Committee as we analyze 
that.
    The Chairman. Could I just pause for a minute? The Majority 
Leader obviously has to try to make the train run on the floor 
of the Senate, and I'd like to pause so that he could make a 
very brief statement. We'd be pleased to have him leave, 
anyway.
    [Laughter.]
    Senator Lott. Well, I appreciate your courtesy, Mr. 
Chairman, and the indulgence of my colleagues. And again, I've 
already wished the best to Mr. Sanchez. I think he's an 
excellent choice and I look forward to working with him.
    I had hoped to be here for the next panel, but we do have a 
matter on the floor of the Senate I need to go work on. I just 
want to extend my congratulations and offer my support to the 
four nominees that will be on the next panel for the 
Corporation for Public Broadcasting: the Chairman, Mr. Cruz; 
Mr. Tomlinson; Dr. Wilson; and the renomination of Katherine 
Anderson, who has been on the Board for 3 years.
    I think this is a good group of nominees for the Board of 
the Corporation for Public Broadcasting. They have an important 
role to fulfill. Educational TV can be very positive. I have 
felt in the past that it has not done some of the things it 
should have done. Mistakes obviously were made with the way the 
lists were handled; and I do think that sometimes a biased 
point of view was reflected. But I think that progress has been 
made in trying to straighten that out and have a fairer 
representation. I certainly hope that you are successful and I 
offer my support to this Board. I thank you, Mr. Chairman, for 
allowing me to make this brief statement.
    The Chairman. I thank the Majority Leader, and I appreciate 
his continued involvement in the Committee work, given his 
other responsibilities. I believe I'm correct in saying we'd 
like to move these quickly to the floor for full Senate 
confirmations.
    Senator Lott. Yes. Thank you.
    The Chairman. I thank the Majority Leader.
    Mr. Sanchez, do you support eliminating the perimeter rule 
at Reagan National Airport?
    Mr. Sanchez. I'm not prepared to make a statement on that. 
As you know, I haven't gone to the Department of Transportation 
yet. I know that my mandate as, the Department's mandate is to 
do everything it can to increase competition. So I think we 
need to look at all options as we try to do that, working with 
the Committee.
    The Chairman. Well, I regret that you can't give me answers 
to two very important questions.
    Senator Burns?
    Senator Burns. I think I have already made my statement. I 
don't think he wants to sit through that again. I am 
disappointed that--those are two questions I would imagine that 
are probably the most important questions that will be asked of 
this Committee, of this office. Especially air service, those 
kinds of things, are very, very important to our part of the 
country.
    So I have no questions.
    The Chairman. Senator Rockefeller?
    Senator Rockefeller. I think you answered those questions 
precisely as you should have. And that is that you haven't 
taken office yet, they would try to put you on record on two 
issues which are extremely important to a lot of people; one 
much less so to me than to the Chairman. But I think you did 
the right thing in answering that way.
    I would hope that, you have had a lot of international 
experience, you have very good relations with the White House, 
and I say that in the best sense of the word; that's something 
that DOT has needed, and I think that you can be very effective 
in helping formulate policy.
    I don't really have any questions beyond that, except for 
an observation. And that is that Senator Dorgan and I, and 
Senator Burns, come from very rural states. There's an 
interesting kind of a conflict between that, because we 
understood--or at least we should understand that when there 
are problems in Cleveland or Chicago or LaGuardia, the bigger 
airports--we're the first ones to get hurt. In other words, if 
thunder storms cause a mix-up or delay or whatever, we're the 
first ones to get hurt because we're the first airports they 
start canceling flights; that is the small airports.
    It's a tricky business when you're looking for essential 
air service and trying to increase competition into small areas 
at the same time or simultaneously because those small areas 
are also affected primarily by what happens in the larger ones.
    So you've got a hard job, and we in Congress--I think a lot 
of the fault of all of this is our lack of leadership in 
Congress. I mean, I think that the airlines are blamed and can 
be, and people's expectations are too high, and that's 
understood. But we also understand it's going to be twice as 
bad before the FAA authorization bill, which we thankfully 
passed, has really a chance to kick in.
    We're going to get a much, much worse situation of delays 
and cancellations and passenger frustration; much less--you 
know, the next airline into China, and when are you going to 
announce what that might be and what's the delay, and you're 
not in office yet, and you're not confirmed so you can't do 
that.
    But it's a very, very tricky business. I am one who feels 
that with the airlines, that aviation has sort of overtaken our 
highway system, as important to the development of America, and 
particularly rural America. The highway system is everywhere 
now, and the relative strength of the economies of states 
hasn't changed all that much. I think the aviation system, if 
properly apportioned, and fairly apportioned throughout the 
states, can make that kind of difference. And in a so-called 
new economy world, will make that kind of difference on a 
global scale.
    So I really wish you well, and I have an enormous amount of 
respect for what you bring. Thank you.
    The Chairman. Senator Dorgan?
    Senator Dorgan. Mr. Chairman, thank you.
    Mr. Sanchez, as I indicated, I am going to support your 
nomination; I think you have very impressive credentials. You 
have not, it appears to me, worked extensively in aviation 
issues or areas.
    Mr. Sanchez. That's correct.
    Senator Dorgan. And, while I don't have heartburn about 
your reply to the Chairman, I think the Chairman's questions 
are important questions, and I want to probe a bit on those 
issues.
    I think it's very important that we understand how you feel 
about where all of this is heading. How has deregulation of the 
airlines affected our country? How has it affected rural areas 
versus urban areas? What has it meant in terms of increased or 
decreased competition? What has it meant in terms of fares and 
so on.
    The Chairman mentioned that this morning in the newspaper 
there was a rather large article about the prospect about a 
merger between American Airlines and Northwest Airlines. I have 
no specific knowledge of that issue, I should say, but I am 
very concerned about it; I am concerned about the proposed 
United-U.S. Air merger; I am concerned about what I am sure 
inevitably would be major talks between Delta and Continental.
    I am concerned about ending up with three major airline 
carriers in this country, and I am concerned about the merger-
stopping justification at least, justification for mergers, 
talking about creating seamless transportation systems. I 
suppose the ultimate seamless transportation system is to have 
one company left, and they'll decide who they serve, when they 
fly, how they fly, what kind of equipment they fly, and what 
fares they charge, and if you don't like it, tough luck. That's 
the ultimate seamlessness. And, of course, it is antithetical 
to everything we understand about the free market system and 
how it ought to work to serve the American people.
    So the question is this: We're kind of, I think, at the 
famous fork-in-the-road here. And one road, with respect to the 
domestic airline industry, leads to more mergers, it leads to 
fewer and bigger airlines, it leads to less choice, and it 
leads to higher fares. The other road, of course, has a better 
destination and better outcome.
    I would like to understand, as you come to this job with 
the objective of ensuring the benefits of a deregulated 
competitive domestic airline industry, give me your sense of 
these issues. I mean, the Chairman has asked about them. I 
wasn't here, but I understand Senator Burns referred to it. I 
asked about it.
    Give me your sense of this. I have a real foreboding about 
these merger discussions. I think this is serious, serious 
stuff. What's your impression?
    Mr. Sanchez. Well, let me begin with your first question of 
what I think deregulation has meant for the airline industry 
and for our country. I think it's been very good. I think it's 
helped bring down prices, I think that it has stimulated 
competition. I have been involved, in one form or another, of 
economic development sometimes for my own company, other times 
on behalf of the State of Florida, and most recently promoting 
open markets within our own hemisphere.
    So just as a basic premise, I believe that more 
competition, deregulation has been a good thing. On the 
negative side, as Senator Rockefeller can attest, small 
communities have experienced challenges. And as Senator Graham 
mentioned, I served in his administration in several 
capacities, one of which was at the Florida Department of 
Commerce, where part of my portfolio was helping smaller 
communities develop economically. And without a strong 
transportation system, particularly air service, those 
communities could not thrive.
    So on balance, I think it's been very good and I think 
there are areas where we need to pay particular attention and 
be as helpful as we can.
    I guess another premise that I come in with is that 
competition works strongest where we have a lot of competitors. 
Having said that, I don't feel comfortable shooting from the 
hip and offering--with all due respect, I don't mean to not 
answer straight, but I do want to have the benefit of analysis, 
I want to have the benefit of reflection that we will get 
through this process before I offer very concrete responses to 
whether there should be a certain number and what that impact 
is. But I can say in general, those are my feelings about open 
markets, about deregulation, and about competition.
    Senator Dorgan. But would you concede that a domestic 
airline industry with six or eight or ten healthy domestic 
airline companies is better than an aviation airline industry 
with three companies? I mean, that's the question that was 
asked earlier. Right off the top, I'd say absolutely.
    Generally speaking, in a competitive environment, in a 
market system in which user's prices are regulated by 
competition, and you have got entrants and contestants that are 
aggressively competing for the consumer's dollars, more is 
better.
    I used to teach economics and overcame that, ultimately--
but it's just fundamental that more is better in this 
circumstance. Do you agree with that?
    Mr. Sanchez. As a general premise I agree, Senator, that 
more competitors tends to lead to more competition. I think 
that's an accurate statement.
    Senator Dorgan. And fewer competitors, as a result of 
deregulation, has resulted in less competition in some areas of 
the country; would you agree with that?
    Mr. Sanchez. Again, without knowing which areas of the 
country to which you're referring, but I know that some areas 
are underserved and we need to do what we can to help bring 
service to those areas.
    Senator Dorgan. You know something, I can show you how you 
can fly twice as far for half as much. If you want to leave 
this table and fly to Los Angeles, I can show you how to fly to 
Los Angeles, which is twice as far as flying to Bismarck, and 
you can fly twice as far and pay half the price.
    So that relates to my question of how this system works and 
who benefits, and whether it is truly competitive and whether 
it would be enhanced or injured by more mergers.
    I would not want to send anybody into any agency that 
becomes part of the grateful dead that just sits around when 
merger talks are going on saying ``Well, gosh, that's OK with 
us.'' I want real tigers to be in these agencies saying, ``I 
want to aggressively look at these issues on behalf of the 
American consumer, and see whether this enhances the market 
system in this country'' because this country is better off 
with robust, aggressive competition.
    And as I read this morning's paper--we had a hearing here, 
in the chair that you sit now, we had the CEOs of United Air 
and U.S. Air. If you just listen to that in isolation, you 
would just think, ``Gosh, that's the best thing in the world 
for the country, to have these two big companies merge.'' And 
I'm sure Northwest and American, if they ever get together, 
they'd come and say the same thing. Pretty soon it will be down 
to three companies and then two companies. Frankly, I don't 
think that's in the country's interest, and I want to send 
somebody to DOT that's going to look at ensuring the benefits 
of a deregulated, competitive domestic airline industry who is 
going to be a real tiger, who has real passion about these 
things.
    Mr. Sanchez. Senator, I can assure you, I've heard you, 
I've heard your concerns, I've heard the Chairman's concerns, 
and I can commit to you and pledge to you that I will work hard 
with this Committee, with individual members, to make sure that 
together we ensure a competitive air service here in this 
country.
    Senator Dorgan. Mr. Chairman, I've taken more than my time.
    The Chairman. Thank you, Mr. Sanchez. I may give you an 
opportunity to reflect and analyze before we move your 
nomination.
    Any further questions?
    Thank you very much, Mr. Sanchez.
    Mr. Sanchez. Thank you, Mr. Chairman.
    The Chairman. The Committee will now move to our second 
item of business, review of the renominations of Ms. Katherine 
Anderson and Mr. Frank Cruz as members of the Board of 
Directors of the Corporation for Public Broadcasting, and the 
nominations to the Board of Mr. Kenneth Tomlinson and Dr. 
Ernest Wilson.
    I welcome the nominees to the Committee, and I invite them 
at the beginning of their statement to introduce any family 
members that may be present today.
    As we consider these nominees to the Board of CPB, we must 
acknowledge that the sweeping changes affecting the entire 
telecommunications industry impact CPB as well as more 
commercial interests such as cable, satellite and commercial 
broadcast television.
    In the past, I've criticized CPB for a lack of objectivity 
in public programming, and I've encouraged nominees to work 
toward improving programming balance. I believe that CPB has 
made significant strides in this area.
    I hope the Board will be vigilant in ensuring that future 
programming is balanced and objective. I look forward to 
hearing how these nominees perceive the changes and new 
challenges they face, and hearing how they intend to deal with 
them.

                Prepared Statement of Hon. John McCain,
                       U.S. Senator from Arizona
          The Corporation for Public Broadcasting Nominations
    The Committee will now move to our second item of business: review 
of the renominations of Ms. Katherine Anderson and Mr. Frank Cruz as 
Members of the Board of Directors of the Corporation for Public 
Broadcasting, and the nominations to the Board of Mr. Kenneth 
Tomlinson, and Dr. Ernest Wilson. I welcome the nominees to the 
Committee, and I invite them at the beginning of their statement to 
introduce any family members that may be present today.
    As we consider these nominees to the Board of CPB, we must 
acknowledge that the sweeping changes affecting the entire 
telecommunications industry impact CPB as well as more commercial 
interests such as cable, satellite and commercial broadcast television.
    In the past, I have criticized CPB for a lack of objectivity in 
public programming, and I have encouraged nominees to work towards 
improving programming balance. CPB has made significant strides in this 
area and I hope that the Board will be vigilant in ensuring that future 
programming is balanced and objective.
    I look forward to hearing how these nominees perceive the changes 
and new challenges they face, and hearing how they intend to deal with 
them.

    We will begin with Ms. Anderson. Welcome back before the 
Committee, Ms. Anderson.

 STATEMENT OF KATHERINE ANDERSON, NOMINEE, MEMBER OF THE BOARD 
       OF DIRECTORS, CORPORATION FOR PUBLIC BROADCASTING

    Ms. Anderson. Thank you, Mr. Chairman.
    Mr. Chairman, I have my husband with me here today; he is 
Tom H. Anderson.
    The Chairman. Welcome, Mr. Anderson.
    Ms. Anderson. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to appear before you today to 
discuss my renomination to the Board of Directors of the 
Corporation for Public Broadcasting.
    I would first like to express my appreciation to the 
President for nominating me, and to the Senate Majority Leader, 
Trent Lott, for recommending me. I'm very grateful for their 
support.
    I first appeared before this Committee as a nominee to the 
CPB Board nearly 3 years ago, and today I appear as a nominee 
for a second term. I bring to public broadcasting an 
entrepreneurial spirit and a background of service in both the 
public arena and the private sector. I am drawn to public 
broadcasting because of its reputation for providing excellent 
educational programming.
    Education is the cornerstone of public broadcasting and its 
commitment to children is as old as public broadcasting itself 
but more vibrant than ever before. The celebrated and award-
winning children's programs that appear on public television 
are testament to its devotion to preparing America's youngest 
citizens for the classroom and teaching them more about the 
world around them.
    From Sesame Street to Zoom to Mister Rogers' Neighborhood, 
public television has a reputation of providing excellent 
children's programming. This tradition continues with new 
children's programs, such as Dragon Tales and Between the 
Lions, a series focused on teaching kids to read. These 
programs make learning fun for children. I believe that CPB can 
build on this legacy creatively, looking for better ways to 
stretch federal dollars through innovation, partnerships, and 
new technology.
    Digital technology gives public broadcasters educational 
tools we have never had before. It promises to revolutionize 
the educational and cultural impact of public broadcasting for 
both children and adults. When we convert to digital 
technology, viewers will be able to interact with television 
rather than just passively view it.
    For example, an enhanced viewing of Great Performances 
would allow a viewer to watch the performance, follow the 
written music score, and perhaps even mute a particular 
instrument and play along with the orchestra. The viewer would 
even be able to receive a violin lesson taught by musician 
great Itzhak Perlman by simply clicking on the 
``Troubleshooting Guide for the Violinist.''
    More channel space will also be available through digital 
technology, at least four channels per station, allowing public 
broadcasters to broadcast simultaneously programs that appeal 
to different audiences and age groups.
    This means that on a single digital channel, a station 
might offer, in addition to the main programming feed, a 
dedicated children's channel, an adult lifelong learning 
channel, and a local programming channel emphasizing a special 
interest in the viewer's local community.
    While CPB works to take advantage of digital technology and 
the promises that it holds, public radio and television will 
continue to improve and innovate in other aspects, including 
operations and services.
    Public broadcasting has made significant progress in these 
areas. CPB has phased in policy changes to distribute federal 
funds more efficiently, and to better ensure that public 
broadcasting stations are focused on serving their communities. 
The result is that more funds are available for incentive-based 
matching grants, and more stations sharing a market are cutting 
overhead by working with their neighboring stations through 
cooperative arrangements.
    To further assist all stations in improving their service 
to the community, CPB created the Television and Radio Future 
Funds. The Future Funds are used to invest in critical new 
initiatives that help stations improve and increase their 
services, and share best practices for better operations in the 
future.
    In addition, both the Television Community Service Grant 
and the Radio Community Service Grant have recently been 
rewritten to direct a higher percentage of resources to rural 
and minority stations.
    I believe that these initiatives exhibit a responsible use 
of government money, and I support such policies. This is a 
very unique time to be involved in the broadcasting industry. 
If confirmed to this position, I will work to ensure that CPB 
continues to be a leader in putting technology to work for the 
benefit of all Americas, and that as today's technologies 
change, public broadcasting remains committed to offering a 
standard of excellence and a commitment to education for all 
its citizens.
    Thank you for this opportunity to appear before you. I'm 
happy to answer any questions.
    The Chairman. Thank you very much.
    [The prepared statement and biographical information of Ms. 
Anderson follow:]

Prepared Statement of Katherine Anderson, Nominee, Member of the Board 
           of Directors, Corporation for Public Broadcasting
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss my renomination to 
the Board of Directors of the Corporation for Public Broadcasting. I 
would first like to express my appreciation to the President for 
nominating me and to Senate Majority Leader Trent Lott for recommending 
me. I am very grateful for their support.
    I first appeared before this Committee as a nominee to the CPB 
Board nearly three years ago, and today, I appear as a nominee for a 
second term. I bring to public broadcasting an entrepreneurial spirit 
and a background of service both in the public arena and the private 
sector. I am drawn to public broadcasting because of its reputation for 
providing excellent educational programming. Education is the 
cornerstone of public broadcasting and its commitment to children is as 
old as public broadcasting itself but more vibrant than ever before. 
The celebrated and award-winning children's programs that appear on 
public television are testament to its devotion to preparing America's 
youngest citizens for the classroom, and teaching them more about the 
world around them. From Sesame Street to Zoom to Mister Rogers' 
Neighborhood, public television has a reputation of providing excellent 
children's programming. This tradition continues with new children's 
programs, such as Dragon Tales and Between the Lions, a series focused 
on teaching kids to read. These programs make learning fun for 
children. I believe that CPB should build on this legacy creatively, 
looking for new ways to stretch federal dollars through innovation, 
partnerships, and new technology.
    Digital technology gives public broadcasters educational tools we 
have never before possessed. It promises to revolutionize the 
educational and cultural impact of public broadcasting for both 
children and adults. When we convert to digital technology, viewers 
will be able to interact with television rather than just passively 
view it. For example, an enhanced viewing of Great Performances would 
allow a viewer to watch the performance, follow the written music 
score, and perhaps even mute a particular instrument and play along 
with the orchestra. The viewer would even be able to receive a violin 
lesson taught by musician great, Itzhak Perlman, by simply clicking on 
``Troubleshooting Guide for the Violinist.'' More channel space will 
also be available through digital technology, at least four channels 
per station, allowing public broadcasters to simultaneously broadcast 
programs that appeal to different audiences and age groups. This means 
that on a single digital channel, a PBS member station might offer, in 
addition to the main programming feed, a dedicated children's channel, 
an adult lifelong learning channel, and a local programming channel 
emphasizing a specific interest in the viewer's community.
    While CPB works to take advantage of digital technology and the 
promises that it holds, public radio and television will continue to 
improve and innovate in other aspects, including operations and 
service. Public broadcasting has made significant progress in these 
areas. CPB has phased-in policy changes to distribute federal funds 
more efficiently, and to better ensure that public broadcasting 
stations are focused on serving their communities. The result is that 
more funds are available for incentive-based matching grants, and more 
stations sharing a market are cutting overhead by working with their 
neighbors through cooperative arrangements. To further assist all 
stations in improving their service to the community, CPB created 
television and radio Future Funds. The Future Funds are used to invest 
in critical new initiatives that help stations improve and increase 
their services and share ``best practices'' for better operations in 
the future. In addition, both the Television Community Service Grant 
and the Radio Community Service Grant have recently been rewritten to 
direct a higher percentage of resources to rural and minority stations. 
I believe that these initiatives exhibit a responsible use of 
government money and I support such policies.
    This is a very unique time to be involved with the broadcasting 
industry. If confirmed to this position, I will work to ensure that CPB 
continues to be a leader in putting technology to work for the benefit 
of all Americans, and that as today's technologies change, public 
broadcasting remains committed to offering a standard of excellence and 
a commitment to education for all its citizens.
    Thank you again for this opportunity to appear before you. I am 
happy to answer any questions that you may have.
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Katherine 
Milner Anderson.
    2. Position to which nominated: Board, Corporation for Public 
Broadcasting.
    3. Date of nomination: May 1, 2000.
    4. Address: (List current place of residence and office addresses.) 
Residence: 18 Wolfe Street, Alexandria, VA 22314. Office: Team 
Washington. Inc., 817-B Slaters Lane, Alexandria, VA 22314.
    5. Date and place of birth: December 16, 1947, Gulfport, 
Mississippi.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married: Tom H. Anderson, Jr.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) No children.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.) Gulfport High 
School, 1962-1965, Gulfport, Mississippi, Graduated with Honors, May 
1965. University of Mississippi, 1965-1969, Oxford, Mississippi, 
Bachelor of Arts in Education.
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)


1969-1972                     High School Instructor, Gulfport High
                               School, Gulfport, Mississippi
 
1975-1976                     Special Assistant, Citizens for Reagan
                               (Presidential Election Committee),
                               Washington, DC 20036
 
1977-1980                     Assistant Director of Administrative
                               Services, Republican National Committee,
                               301 First Street, SE, Washington, DC
 
1981-1983                     Director, Executive Secretariat,
                               Department of Transportation, Washington,
                               DC
 
1983-1984                     Associate Director, Office of the Cabinet,
                               The White House, 1600 Pennsylvania
                               Avenue, NW, Washington, DC
 
1985-1986                     Chairman of the Board, Team Washington,
                               Inc.
 
1986                          Executive Director, The President's Dinner
                               (Republican Senate-House Fundraiser)
 
1987                          Executive Director, The President's Dinner
                               (Republican Senate-House Fundraiser)
 
1988 to Present               Chief Financial Officer, Team Washington,
                               Inc., 817-B Slaters Lane, Alexandria, VA
                               22314
 
1988 to Present               President, River Galleries, 18 Wolfe
                               Street, Alexandria, VA 22314
 

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)

Federal Government:

  President's Advisory Council on Peace Corps
  President's Task Force on Legal Equity for Women
  Secretary's Executive Resource Review Board (SES Selector)
  Secretary's Annual Awards Review Board
  Secretary's Representative on Federal Committee on the Arts and 
        Humanities Underwriters Review Board
  Secretary's Representative on the White House 1984 Olympics Committee

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)

Business Relationships:

  Director, Team Washington, Inc.
  Director, Chairman, Team Washington, Inc.
  Owner/Proprietor, River Galleries
  Partner, Columbia Pike, LLC
  Partner, Duke Street Associates, LLC
  Partner, Lanham Group Associates, LLC
  Partner, Anderson, Meeks, LLC (Pennsylvania Avenue)
  Partner, Meager Means Investors
  Partner, Minnesota Avenues Group, LLC
  Member, Board of Directors of the Corporation for Public Broadcasting

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)

  International Furnishing and Design Associate
  Allied Board of Trade
  National Trust for Historic Preservation
  Trinity Episcopal Church, Upperville, Virginia
  Meager Means Investment Club (Member NAIC)
  Phillips Galleries
  Piedmont Environmental Council
  Member, Board of Directors for Columbia Hospital for Women Foundation
  Chairman, Awards Committee, Special Olympics, Barbados, West Indies
  Chairman, Host Committee, National Cancer Society, Barbados, West 
        Indies

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. Employee of Citizens for Reagan Committee, 1975-1976; Employee 
of Republican National Committee, 1977-1981.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Trent Lott for 
Mississippi, Fred Thompson for Senate, Marshall Coleman for Governor, 
and Tom Davis Committee.
    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
Honors and Awards (Scholastic): National Honor Society, Dean's List--
University of Mississippi, Bonus Award--National Teacher's Exam, and 
Outstanding Young Women of America.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. None.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? I assume that my business background, my strong commitment 
to public service, my experience in education and the arts, and my past 
experience on the CPB Board gave me a strong endorsement by both the 
Republican Leadership and the President.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? My 
experience in the education field, both locally and internationally, 
has been long-lasting and broad-ranging. My experience includes 
classroom academic instruction, as well as applied skills in foreign 
countries. My background also includes many years of involvement in the 
arts, both fine arts, and decorative arts, as well as music 
appreciation.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Not applicable.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. Not applicable.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? Not applicable.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. Employment as Chief Financial Officer, Team 
Washington, Inc.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. Courtesy calls on 
appropriate House Members in seeking to remove the covenants on the 
property occupied by Columbia Hospital for Women, that restricted 
services to ``women and children.''
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I 
would attempt to resolve any conflict of interest thoroughly and to the 
satisfaction of all concerned parties.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. I testified in 
a civil action filed against Team Washington, Inc. by a former 
employee. Alexandria Circuit Court, Lynch vs. Team Washington, Inc.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes, to the 
best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the best of my ability.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. In addition to serving on the CPB board since 1997, I 
believe that my experience as a businesswoman, former educator, and 
community service volunteer uniquely qualifies me for the position on 
the board of the Corporation for Public Broadcasting (CPB). I have 
served in the public and private sectors. From 1981 to 1983, I was the 
Director, Executive Secretariat in the Department of Transportation and 
from 1983 to 1984 I was the Associate Director in the Office of the 
Cabinet in the White House. In addition, I have served on numerous 
government task forces and boards, including a two-year Presidential 
appointment to the Peace Corps Advisory Board. I began my career as a 
high school English teacher in Mississippi.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? Having served on the CPB board for nearly 
3 years, I am confident of my skills and ability to successfully carry 
out the responsibilities of this position.
    3. Why do you wish to serve in the position for which you have been 
nominated? I am committed to education and children's programming. I 
believe that public broadcasting plays a crucial role in providing 
universal educational opportunities and excellence in children's 
programming.
    4. What goals have you established for your first two years in this 
position, if confirmed? I would like for CPB to continue encouraging 
stations to streamline operations through cooperative agreements, joint 
fundraising, and technological innovation [during the conversion to 
digital technology]. I also believe that CPB has a leadership role to 
play in determining ways to best use emerging technologies to serve the 
American people.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. My 
philosophical view is that the role of government should be limited. In 
certain instances in which the private sector can provide the 
efficiencies that the government cannot, I believe it is reasonable for 
the private sector to have a role in society's problems. I strongly 
believe in seeking non-governmental solutions to societal problems. I 
believe that the government has a role in ensuring education, 
infrastructure, public safety, and providing for the security of its 
citizens. When a government program is no longer efficient or 
effective, I believe that consideration should be given to phasing such 
a program out.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. CPB's 
mission, major programs, and major operational objectives are focused 
on education, diversity, and universal access. CPB is committed to the 
mission of education through technology. Programs like the Ready To 
Learn (RTL) Service reach nearly 90% of American households, the 
disadvantaged, and those for whom English is a second language. RTL, a 
literacy program, helps children learn how to read through the medium 
of television. In addition, local workshops train parents and 
caregivers, and local stations distribute new books to children who 
would not otherwise have them.
    Another remarkable program is the groundbreaking free teacher 
training resource: The Annenberg/CPB Channel. CPB in conjunction with 
the Annenberg program offers professional development for teachers in 
the core academic subjects, with an emphasis on math and science. More 
than 45,000 schools throughout the nation, as well as 22 million homes, 
receive the Annenberg/CPB digital television service. The audience 
grows by over 1,000 schools and 50,000 homes per month. In addition, 
the Annenberg/CPB Web site currently receives about 1.5 million visits 
per month.
    Historically, CPB has been committed to education. This commitment 
has expanded to include the uses of digital technology and new media in 
furthering this goal.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. Our mission of providing to all Americans noncommercial, 
educational, and cultural programming that addresses issues of local 
and national interest has not changed. The conversion of public 
television stations to digital technology will provide new 
opportunities to fulfill that mission. The financing of converting all 
public television stations to digital will test that mission in new 
ways.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? The conversion to digital technology involves 
a host of financial and technical challenges. Three of the primary 
challenges facing the board are creating innovative educational 
initiatives, exploring alternative funding solutions, and successfully 
expanding the reach of our content to all emerging technological and 
public platforms.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? I believe we have been successful in 
making excellent educational programming accessible to all people and 
moving toward delivering that content over multiple platforms. I 
believe we have been sensitive and responsive to the need to reach 
diverse and rural audiences and we have helped stations cut costs 
through consolidations.
    10. Who are the stakeholders in the work of this agency? Parents, 
teachers, educators, children, federal, state, and local governments, 
viewers and listeners, station members in particular, and the 
universities, local communities and local governments that hold 
noncommercial licenses and qualify for CPB support. More and more, 
local libraries, schools, childcare centers, and other community 
service providers are becoming part of CPB's extended family. The 
stakeholders are the public at large.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten. We 
hope to continue to be partners with these stakeholders, and work 
together toward common goals for the good of the American people.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? When I am in a direct 
supervisory role, my goal is to bring out the best in a worker by 
setting clear goals and then trusting the employee to perform in the 
expected manner. I often use periodic reviews to further the 
understanding of performance expectations and measurability. I believe 
in giving an employee the freedom of achieving goals and results that 
are beyond my expectations. No direct employee of mine has ever taken 
formal action against me.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. While serving on the CPB board, I 
have had experience working with Congress. In previous positions such 
as the Peace Corps Board, and while working in the Executive Branch, I 
was always ready to cooperate with congressional committees as 
requested.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. I will be open 
and responsive to concerns raised by this Committee and other 
stakeholders to ensure CPB's compliance with both the spirit and letter 
of the laws that govern us.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. I believe that CPB should be reauthorized 
and that CPB should be authorized to distribute funds for digital 
conversion.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. It is the President's job to nominate 
qualified individuals to various independent boards and commissions. 
Nominees, when considered, should be completely candid about their 
opinions and background. When confirmed, the board member should be 
open to input from all sources, including the President, the Senate, 
and the American people. The board member should then exercise his or 
her best judgment in the interests of the entity he or she has been 
nominated to serve.

    The Chairman. Mr. Cruz, welcome.

   STATEMENT OF FRANK CRUZ, NOMINEE, MEMBER OF THE BOARD OF 
         DIRECTORS, CORPORATION FOR PUBLIC BROADCASTING

    Mr. Cruz. Thank you, sir.
    My relatives and my family are in the State of Arizona and 
California; they are not here with me today, but they are here 
in spirit.
    Mr. Chairman and Members of the Committee, thank you for 
this opportunity to appear before you today to discuss my 
renomination to the Board of Directors of the Corporation for 
Public Broadcasting. I would like to begin by thanking 
President Clinton for renominating me, and I would also like to 
acknowledge the strong and thoughtful leadership of Diane Blair 
who immediately preceded me as CPB Board Chair, and with whom I 
served as Vice Chair for 2 years. I mention her because she 
just recently passed away a couple of weeks ago.
    This is an exciting and challenging time to be part of 
public broadcasting; technology is changing rapidly, and these 
changes provide public broadcasting with an opportunity to 
reach new people and to empower new voices and to meet the 
changing educational needs of adults and children in 
communities across the country. I have a strong desire to be 
part of the CPB Board at this time, and to use my skills and 
experience to help build and lead public broadcasting into the 
21st Century.
    I believe that my past experience on the CPB board and my 
professional background in broadcasting, management, and 
business can add to CPB's mission of education, diversity and 
technology.
    I grew up in the barrios of Tucson, Arizona, a little 
barrio that we affectionately called ``Hollywood.'' We called 
it Hollywood because it's the exact opposite of Hollywood. 
These are my roots and background. I was raised by a mother who 
was left a young widow shortly before I was born. After 
graduating from high school, I was an enlistee in the U.S. Air 
Force. Then I went on to become a high school teacher in the 
inner city of Los Angeles.
    Almost thirty years ago I began a career in broadcasting as 
a reporter and as an anchor for KNBC in Los Angeles, KABC in 
Los Angeles. After KNBC, I went on to create a Spanish language 
independent station in Los Angeles, KVEA-TV. Then shortly 
thereafter, I was the founder and the chairman of Telemundo, 
the nation's second Spanish-language network. More recently, I 
founded and served as chairman of Gulf Atlantic Life Insurance 
Company, the first Latino-owned life insurance company in the 
United States.
    I also have been recently appointed as a member of the 
University of Southern California Board of Trustees, after 
receiving both my Bachelor's and Master's degrees from USC, and 
I am proud of this honor. My career in education, broadcasting 
and business have responded to the needs of our ethnically-
diverse population, and in all honesty, I can tell you I am 
proud to be the first minority chairman ever of the Corporation 
for Public Broadcasting, and, obviously, the first Hispanic 
ever to chair CPB.
    Throughout my life, I have always been very aware of 
diversity. While a young man in the Air Force, I realized that 
America truly embodies a melting pot and a mosaic of cultural 
beliefs and customs. If I am reconfirmed to the CPB board, one 
of my goals for public broadcasting will be to continue to 
promote and encourage programming for, by, and about diverse 
audiences.
    At a time when the commercial broadcasters are being 
criticized for their lack of diversity, public broadcasting 
continues its strong commitment to meeting the diverse needs 
and interests of every American. I believe that digital 
technology offers public broadcasting even more opportunity to 
provide programming that reflects the diversity and the rich 
culture of America.
    Having worked both as a high school teacher and as a 
college professor in California, I understand how important it 
is to provide educational opportunities to all members of our 
community. Education can open doors of opportunity to everyone, 
as I have witnessed in my own personal life. I truly believe 
that public broadcasting does play an important role in 
providing educational opportunities.
    From its new children's series, Between the Lions, aimed at 
helping young children learn to read, to PBS's Adult Learning 
Series, geared to providing lifelong learning, public 
broadcasting remains committed to ensuring the growth and 
development of instructional, educational and cultural 
programming.
    For example, the Annenberg/CPB Channel is really an 
excellent combination of private sector--due to the generosity 
of Ambassador Annenberg--and Public Sector CPB dollars. The 
free satellite television and web service funded by The 
Annenberg Foundation and CPB provides professional development 
in all core subjects to teachers nationwide. The service is 
currently received by more than 45,000 schools throughout the 
nation, as well as in 22 million homes, and its audience grows 
by over 1,000 schools and 500,000 homes per month. I would like 
to add that the video and web-based resources of the Annenberg/
CPB Channel look carefully into the real classrooms across the 
country, feature the finest minds in education, and they 
promote discussion, reflection and change throughout the 
teacher corps nationwide.
    The Annenberg/CPB channel will soon be used by thousands of 
non-credentialed teachers who are in the process of getting 
credentials in the State of California throughout the system; 
so your taxpayer dollars, through CPB, are going well to work 
in that direction.
    Perhaps the newest challenge, however, that we face is 
effectively responding to the emerging technology. Digital 
broadcasting promises to greatly improve public television's 
ability to educate, inform, and serve the American people. The 
digital age will allow for enhanced programming, where each 
individual television program will have the potential to 
deliver multiple layers of information simultaneously, as 
opposed to the only one layer which is offered now through the 
analog technology world.
    In addition, digital technology will enable stations to 
multicast, broadcasting children's programs and adult education 
simultaneously. While the digital age poses a great financial 
challenge to the public broadcasting community at large, it 
will also improve public broadcasting's public service to all 
Americans.
    These are challenges that I welcome and I will continue to 
help public broadcasting meet if I am confirmed to another term 
on the CPB Board.
    Thank you so much for the opportunity to appear before you, 
and I'd be happy to answer any questions that you may have for 
me. Thank you.
    The Chairman. Thank you, Mr. Cruz. I thank you and Ms. 
Anderson for the fine job that you have done in your previous 
tenure, and I believe that you are highly qualified to continue 
in this very important work.
    I thank you both.
    [The prepared statement and biographical information of Mr. 
Cruz follow:]

   Prepared Statement of Frank Cruz, Nominee, Member of the Board of 
             Directors, Corporation for Public Broadcasting
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss my re-nomination to 
the Board of Directors of the Corporation for Public Broadcasting 
(CPB). I would like to begin by thanking the President for nominating 
me again. I would also like to acknowledge the strong and thoughtful 
leadership of Diane Blair who immediately preceded me as CPB Board 
Chairman and with whom I served as Vice Chair for two years.
    This is an exciting and challenging time to be a part of public 
broadcasting. Technology is changing rapidly, and these changes provide 
public broadcasting with an opportunity to reach more people, to 
empower new voices, and to meet the changing educational needs of 
adults and children in communities across the country. I have a strong 
desire to be a part of the CPB Board at this time and to use my skills 
and experience to help lead public broadcasting into the 21st century.
    I believe that my past experience on the CPB Board and my 
professional background in broadcasting and management can add to CPB's 
mission of education, diversity, and technology. I grew up in the 
barrios of Tucson, Arizona, raised by my mother who was left a young 
widow shortly before I was born. After graduating from high school, I 
was an enlistee in the U.S. Air Force. I then went on to become a high 
school teacher in inner city Los Angeles.
    Nearly 20 years ago, I began a career in broadcasting as an anchor 
at KNBC-TV in Los Angeles. After my work at KNBC, I helped create KVEA-
TV in Los Angeles, the second Spanish-language station in the area. 
Soon after, I became a founder of Telemundo, the nation's second 
Spanish-language network. More recently, I founded and served as 
Chairman of Gulf Atlantic Life Insurance, the first Latino-owned life 
insurance company in the country.
    I have also just been recently appointed as a member of the 
University of Southern California (USC) board of trustees, after 
receiving both my Bachelors and Masters degrees from USC. I am proud 
that my career in education, broadcasting, and business have responded 
to the needs of our ethnically diverse population, and I am proud to be 
the first Hispanic to serve as Chairman of the Corporation for Public 
Broadcasting.
    Throughout my life, I have always been very aware of diversity. 
While a young man in the Air Force, I realized that America truly 
embodies a ``melting pot'' and a mosaic of cultural beliefs and 
customs. If I am re-confirmed to the CPB Board, one of my goals for 
public broadcasting will be to continue to promote and encourage 
programming for, by, and about diverse audiences. At a time when 
commercial broadcasters are being criticized for their lack of 
diversity, public broadcasting continues its commitment to meeting the 
diverse needs and interests of every American. I believe that digital 
technology offers public broadcasting even more opportunity to provide 
programming that reflects the diversity and culture of America.
    Having worked as both a high school teacher and a college professor 
in Los Angeles, I understand how important it is to provide educational 
opportunities to all members of the community. Education can open the 
doors of opportunity to everyone, as I have witnessed in my own life. I 
truly believe that public broadcasting can and does play an important 
role in providing educational opportunities. From its new children's 
series, Between the Lions, aimed at helping young children learn to 
read, to PBS's Adult Learning Series, geared toward providing lifelong 
learning, public broadcasting remains committed to ensuring the growth 
and development of instructional, educational, and cultural 
programming.
    For example, the Annenberg/CPB Channel--a free satellite television 
and Web service funded by The Annenberg Foundation and CPB--provides 
professional development in all core subjects to teachers nationwide. 
The service is currently received by more than 45,000 schools 
throughout the nation, as well as in 22 million homes, and, its 
audience grows by over 1,000 schools and 500,000 homes per month. The 
video and web-based resources of the Annenberg/CPB Channel look 
carefully into real classrooms across the nation; feature the finest 
minds in education today; and they promote discussion, reflection and 
change throughout the teacher corps, nationwide.
    Perhaps the newest challenge we face is effectively responding to 
emerging technology. Digital broadcasting promises to greatly improve 
public television's ability to educate, inform, and serve the American 
people. The digital age will allow for enhanced programming, where each 
individual television program will have the potential to deliver 
multiple layers of information, as opposed to only one layer which is 
offered today through analog technology. In addition, digital 
technology will enable stations to multicast, broadcasting children's 
programs and adult education simultaneously. While the digital age 
poses a great financial challenge to the public broadcasting community, 
it also will improve public broadcasting's public service to all 
Americans. These are challenges that I welcome and will continue to 
help public broadcasting meet if I am confirmed to another term on the 
CPB Board.
    Thank you again for the opportunity to appear before you today. I 
am happy to answer any questions that you may have.
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Frank Henry 
Cruz.
    2. Position to which nominated: Board of Directors, Corporation for 
Public Broadcasting.
    3. Date of nomination: 9/27/99.
    4. Address: (List current place of residence and office address.) 
17 Faire Winds, Laguna Niguel, CA 92677.
    5. Date and place of birth: 10/04/39, Tucson, Arizona.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Married--Bonnie Jean Cruz (Baldwin).
    7. Names and ages of children: (Including stepchildren and children 
from previous marriages.) Heather Susan Cruz/Nitabach--Age 32, 
Francisco Richard Cruz--Age 28, and Vanessa Gabriela Cruz--Age 28.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)

  Tucson High School, Tucson, AZ, 1954-1957, Diploma
  East Los Angeles College, Los Angeles, CA, 1961-1964, AA (June 1964)
  University of Southern California, Los Angeles, CA, 1964-1966, BA 
        (May 1966)
  University of Southern California, Los Angeles, CA, 1966-1969, MA 
        (May 1969)

    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

  Teacher (Social Studies), Los Angeles Unified School District, 
        Lincoln High School, Los Angeles, CA, 1967-1969
  Assistant Professor (Chairman of Ethnic Studies Department), Sonoma 
        State College, Sonoma, CA, 1969-1970
  Associate Professor, California State University Long Beach, Long 
        Beach, CA, 1970-1972
  Reporter, KABC-TV, Los Angeles, CA 1972-1975
  Reporter/Anchor, KNBC-TV, Los Angeles, CA, 1975-1985
  Vice President/General Manager, KVEA-TV, Los Angeles, CA 1985-1989
  President/Executive Director, Latino Museum of History, Art & 
        Culture, Los Angeles, CA 1990-1991
  Chairman, Gulf Atlantic Life Insurance Company, Los Angeles, CA, 
        1991-1995
  President, Cruz & Associates, Laguna Niguel, CA, 1995 to present

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)

  Member, Advisory Committee on Public Interest Obligations of Digital 
        Television Broadcasters (Gore Commission), 1997-1998
  Member, Board of Directors (Current Chairman), The Corporation for 
        Public Broadcasting, 1994 to present
  Chairman Emeritus, California Institute for Federal Policy Research, 
        1991 to present

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm partnership, or other 
business enterprise, educational or other institution.)

  Member, Board of Directors, Health Net, 1986-1999
  Vice President & General Manager, KVEA-TV, 1986-1989
  Member, Board of Directors/Chairman, Gulf Atlantic Life Insurance 
        Company, 1991-1995
  President, Cruz & Associates, 1995 to present

    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.)

  Member, Board of Directors, Los Angeles Area Chamber of Commerce
  Member of Rebuild Los Angeles
  Member, Board of Directors, Latino Museum of Art, History & Culture
  Member, Board of Councilors, University of Southern California School 
        of Public Administration
  Member, Partnership 2000; Member/Chairman, California Institute for 
        Federal Policy Research

    13. Political affiliations & activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    14. Honors & Awards: (List all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals and any other 
special recognitions for outstanding service or achievement.)

  Hispanic of the Year, National Hispanic Scholarship Fund
  Golden Mike Award--Anchor (KNBC-TV Outstanding Newscast)
  Los Angeles Press Club, Excellence in Reporting (2 years)
  Emmy Award--``The Latinization of Los Angeles''
  University of Southern California, Outstanding Alumni Award

    15. Published Writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.) ``President Clinton's New Beginning'', panel presentation--
economic paper, Donald I. Fine, Inc., 1992; ``The Latin Americans: Past 
& Present,'' Houghton-Mifflin, 1972.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated. None.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? The President has renominated me for this position because 
he knows that as a member of CPB's Board of Directors for the past 6 
years I have successfully advocated Public Broadcasting mission of 
education, diversity and quality programming. The President is aware 
that I have championed public broadcasting as a clear alternative to 
the commercial networks, and that I can provide the leadership needed 
for Public Broadcasting to make the transition from analog to digital 
television.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? My 
background and experience of more than 25 years as broadcaster, 
business person and educator qualifies me for this position. In 
addition, the achievements of the CPB Board during the past 6 years 
while I served as Chairman (currently), Vice Chairman for 2 years, and 
Chairman of the Audit and Finance Committee for 3 years.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? No.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with our previous employer, business firms, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out our full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investment, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) N/A.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. I have over 25 years of broadcasting, business, and 
educational experience. Taught at the university level for 5 years. 
Fourteen years as a reporter and anchor with ABC and NBC. Founder and 
executive of Telemundo, the Nation's second Spanish-language network. 
Founder and Chairman of Gulf Atlantic Life Insurance Company. Member of 
the CPB Board for the past 6 years. The combined broadcast and business 
background uniquely qualifies me for this position.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? None.
    3. Why do you wish to serve in the position for which you have been 
nominated? A sincere desire to use my business, broadcasting and 
educational experience for the benefit of public broadcasting and 
Americans. Public broadcasting is an American treasure that is 
undergoing enormous technological changes and it offers an opportunity 
to reach out to more people in more ways, and I want to serve at this 
exciting and challenging time.
    4. What goals have you established for your first two years in this 
position, if confirmed? I would like to expand public broadcasting's 
reach to include more ethnically and racially mixed audiences. A 
commitment to use new technologies to empower new voices and meet the 
changing educational needs of students, teachers, and classroom 
curriculum. Will encourage a new interactive environment that will 
enable public broadcasting to empower our viewers, our listeners, and 
our community participants to explore new possibilities in this new 
media environment.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. I 
believe that government has a role to play in certain areas of our 
society. For example, the government plays a key role in the funding 
and oversight of public broadcasting. And as such, provides the 
American public with a clear alternative to commercial broadcasting. In 
turn, public broadcasting leverages the federal dollars with private 
sector money and fulfills its mission of quality programming to its 
viewers. Public broadcasting is a marriage of government and the 
private sector interest which enables it to provide viewers access to 
the richness of our various cultures, breadth of human knowledge and 
experience, and the enlightenment of current affairs.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. The mission 
of the Corporation for Public Broadcasting (CPB) is to facilitate the 
development of, and to ensure that all Americans have access to, 
noncommercial high quality programming and telecommunications services, 
including television, radio, on-line and digital services. In doing so, 
CPB distributes federal funds and provides a variety of other support 
to more than 1,000 public television and radio stations all across the 
country.
    In carrying out this mission, CPB is committed to funding programs 
and services that inform, enlighten, and enrich the public. CPB is 
dedicated to encouraging the development of programming that involves 
creative risks and that addresses the needs of unserved and under 
served audiences, especially children and minorities.
    Since its creation by Congress in 1967, CPB has been a catalyst for 
innovation and change within the public broadcasting system. In its 
role as catalyst and funder, CPB acts as a guardian of the mission for 
which public broadcasting was established. CPB will continue to focus 
on and be committed to education and diversity.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years? In the next five years, the mission of CPB is not likely to 
change; however, the challenges facing CPB will expand. The conversion 
from analog to digital will be one of the greatest challenges public 
broadcasting will face in the coming years.
    Not only is technology changing, but the demographics of the U.S. 
are changing as well. In fifty years, no ethnic population will 
represent a majority. CPB will play a vital role in making public 
broadcasting more relevant to older and younger generations, and to an 
increasingly diverse population.
    8. In further reference to question number six, what are the lively 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? While nothing has prevented CPB thus far from 
accomplishing its mission, a significant decrease in CPB's funding 
might hinder its ability to carry out that mission. In addition, if 
individual public broadcasting stations are not able to obtain funding 
necessary to convert to digital technology, our goal of universal 
service could suffer.
    The top three challenges facing the Board today are education, 
diversity, and new technology. The Board will be challenged to 
facilitate the development of programming that is rich in culture and 
information and stimulates life-long learning, to represent the culture 
of different racial and ethnic groups, and to take advantage of the new 
opportunities that digital technology creates.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? Over the years, CPB has strived to meet 
its mission consistently and effectively. It has been a strong leader 
in promoting education, diversity, community, non-commercialism, and in 
creating greater opportunities for learning using new technology. 
Although we have made great strides, this should not keep us from doing 
an even better job in the future.
    10. Who are the stakeholders in the work of this agency? The 
stakeholders are the American people, including Congress, educators, 
parents, students, children, minorities, and the disadvantaged of our 
nation. The stakeholders are also the individual public broadcasting 
stations nationwide, program producers, and the national organizations 
that represent public broadcasting.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten? I 
represent the interests and needs of the stakeholders. If confirmed, I 
will be responsive to the stakeholders, and when interests and voices 
conflict, I will look objectively at all sides.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I am a firm believer 
that a board member's role is to provide goals and priorities for 
supervisors who in turn oversee employees. Communications and 
accountability are key ingredients to a successful supervisor/employee 
relationship. No complaints have been brought against me.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. None.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. As a member of 
the Board, I will continue to work to ensure that CPB is responsive to 
the needs of this Committee and Congress, and that CPB complies with 
the spirit of the laws.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. I believe that reauthorization of CPB and 
authorization of digital conversion funds should be top priorities. I 
also believe that reauthorization of the Elementary and Secondary 
Education Act (ESEA) is a priority. In particular, emphasis should be 
placed on teacher professional development and educational content for 
digital broadcast.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. As a voting board member of CPB, my 
responsibility is to consider the vested interest of CPB and the wishes 
of a particular president should have no bearing on my decision.

    The Chairman. Mr. Tomlinson. For the record, Mr. Tomlinson 
and I have known each other for many, many years, and I'm very 
pleased to see an old friend nominated for this very important 
position.
    Mr. Tomlinson.

STATEMENT OF KENNETH TOMLINSON, NOMINEE, MEMBER OF THE BOARD OF 
         DIRECTORS, CORPORATION FOR PUBLIC BROADCASTING

    Mr. Tomlinson. Mr. Chairman, I am honored to be here. 
Before I give my statement, I'd like to introduce my wife, 
Rebecca, and my sons, William and Lucas.
    The Chairman. Welcome. I notice that one of them is in 
uniform. I'm pleased to see that, Mr. Tomlinson.
    Mr. Tomlinson. We're very proud to see Lucas still in 
uniform after 4 years over there.
    Mr. Chairman, I'll offer to forego reading my entire 
statement. I would point out that I'm a lifelong journalist; I 
had the privilege to study broadcasting, since I served as 
foreign correspondent in the 1970's, as Director of Voice of 
America; and in the eight or so years I served on the U.S. 
Board for International Broadcasting, I had a chance to 
implement a lot of the ideas I had formed in studying 
international broadcasting, especially in studying the model of 
the BBC World Service.
    I will pause to say that whenever we gather in a forum like 
this, I think we should reaffirm our commitment to political 
balance in our broadcasting, and we certainly want to do so 
today. I realize that we don't have to look far for a good 
model, because within PBS there was the great original McNeil/
Lehrer Report, now the Jim Lehrer News Hour, which has served 
as a model for in-depth broadcasting for balance in 
broadcasting.
    I believe passionately in the mission of public 
broadcasting. I'm especially committed to the role many of our 
local stations play in the preservation of the culture of music 
in this country, whether you're talking about delta blues or 
bluegrass or gospel or jazz. Our local stations, especially 
some of the ones I've been associated with as a volunteer and 
supporter of KCY in New York, and WAMU here in Washington, have 
done a marvelous job at preserving our musical heritage.
    I would be happy to answer any questions and to read 
further from my statement. Mr. Chairman and Members of the 
Committee, thank you very much for considering my nomination.
    The Chairman. Thank you. I am pleased to see you again, Mr. 
Tomlinson.
    [The prepared statement and biographical information of Mr. 
Tomlinson follow:]

 Prepared Statement of Kenneth Tomlinson, Nominee, Member of the Board 
           of Directors, Corporation for Public Broadcasting
    Thank you Mr. Chairman, Senator Hollings, and members of the 
Committee. It is a great privilege to appear before you today. I do 
want to express my appreciation to the President for nominating me to 
this Board--and to those who encouraged this nomination.
    Allow me to describe to you briefly how I came to be involved in 
public broadcasting. I am a life-long journalist, writer, and editor. I 
also am a life-long fan of broadcasting. Growing up in a rather 
isolated region of the Blue Ridge Mountains, broadcasting literally was 
my window to the world.
    When I was working as a foreign correspondent in the 1970s, I came 
to study rather extensively the BBC World Service in search for why 
this outlet was so far superior to its international broadcast 
competitors. The lessons I learned during those years of listening to 
BBC served me well during the two years (1982-84) when I served as 
Director of the Voice of America (VOA) during the Reagan 
Administration.
    Not coincidentally, one of the first people I sought out for advice 
when I went to VOA was Jim Lehrer. Not coincidentally, the public 
affairs broadcast that most resembled the standards of the BBC was the 
McNeil/Lehrer Report, and later the NewsHour. This standard also would 
be my guide during the nearly eight years I served on the U.S. Board 
for International Broadcasting.
    I concluded my 28-year career with Reader's Digest with service as 
the magazine's Editor-in-Chief during which time we opened new editions 
of the magazine in Russia, Hungary, Poland and the Czech Republic. 
Following my retirement from the Digest in 1996, we moved to a farm 
near Middleburg, VA, where I breed and race thoroughbred horses. Last 
year, I became President of the National Sporting Library.
    I believe passionately in the mission of public broadcasting. Jim 
Lehrer's NewsHour represents broadcasting which I believe is important 
to American democracy. For example, this year, public television will 
provide gavel-to-gavel coverage of the Democratic and Republican 
political conventions at a time when major networks are abandoning such 
coverage. As a parent, I also came to recognize the importance of the 
Public Broadcasting Service's (PBS) children's programming. The 
educational component of public television--especially as we move 
toward the new frontiers of digital broadcasting--is worthy of our 
support.
    All this we must do with great economy and efficiency--constantly 
reviewing what we do and how we do it to ensure that the public's money 
is spent effectively. We must also insist that public broadcasting 
reflects the political balance of our nation. As I used to say at VOA, 
America does not speak with one homogenized voice. You cannot 
understand the dynamics of America unless you hear the voices of 
America.
    Public television no longer is the only alternative to three 
networks. At my farm near Middleburg, I have access to something close 
to 100 channels--and only one represents PBS. Clearly, through quality 
programming and coverage of events not found on other commercial 
networks, public television must continue to earn the wide support it 
enjoys from the people.
    Radio, of course, is my passion. If you need justification for 
National Public Radio (NPR) and the public radio stations in this 
country, I invite you to take a drive and examine the offerings on your 
FM dial. We may have experienced extraordinary improvement in the 
quality of serious AM public affairs and sports broadcasting, but the 
need for public radio is still great.
    In no area is the justification for public radio more profound than 
in the role many of these stations have played in preserving the 
culture of traditional American music. Whether we are talking about 
delta blues or Appalachian bluegrass, gospel or jazz, public radio has 
been critical in nurturing radio. (In the interest of full disclosure, 
I once worked as a bluegrass disk jockey on WAMU-FM, that great public 
radio station in Washington, D.C.)
    Preserving the local component of radio in an era of consolidation 
of broadcast conglomerates is a significant part of our mission. 
Members of this Committee know better than I the importance of public 
radio in rural America. I will work to protect these services and 
expand them wherever possible.
    Finally, if I am confirmed, I do look forward to working with 
Capitol Hill to ensure that the views of the people's representatives 
are reflected in our work for public television and radio. I am proud 
of the reputation I earned at VOA for close cooperation with Members of 
the Senate and the House and their staffs. If confirmed as a member of 
the CPB Board, I will seek a similar close level of cooperation with 
this Congress and this Committee.
    Thank you for your consideration of my nomination.
                      a. biographical information
    1. Name: (Include any former names or nick names used.) Kenneth Y. 
Tomlinson.
    2. Position to which nominated: Board of Directors, Corporation for 
Public Broadcasting.
    3. Date of nomination: June 28, 2000.
    4. Address: (List current place of residence and office addresses.) 
Springbrook Farm, Middleburg, Virginia 20118-1508. Federal Express 
address: Springbrook Farm, 7863 Old Carters Mill Road, Marshall, 
Virginia 20115. Business: National Sporting Library, 102 The Plains 
Road, P.O. Box 1335, Middleburg, Virginia 20118.
    5. Date and place of birth: August 3, 1944. Mt. Airy, North 
Carolina.
    6. Marital status: (Include maiden name of wife or husband's name.) 
Rebecca Moore Tomlinson.
    7. Names and ages of children: (Include stepchildren and children 
from previous marriages.) William Moore Tomlinson, 22, CNN-Sports 
Illustrated, Atlanta; Lucas Young Tomlinson, 21, United States Naval 
Academy, Annapolis.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.) Galax 
(Virginia) High School, 1962; Randolph-Macon College, B.S. history, 
1967, but listed under class of '66.
    9. Employment record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment.)

  Reporter, Richmond Times-Dispatch, 1965-1968
  Correspondent/Editor, Reader's Digest, 1968-82
  Director, Voice of America, 1982-84
  Managing Editor/Executive Editor, Reader's Digest, 1984-1989
  Editor-in-Chief, Reader's Digest, 1989-96
  Retired, thoroughbred horse breeder, 1996-
  President and Director, National Sporting Library, 1999-

    10. Government experience: (List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)

    Member, National Commission on Voluntary Service (ACTION), 1981-82
    Chairman, National Commission on Libraries and Information Science, 
1986
  Member, U.S. Board for International Broadcasting (Radio Free Europe/
        Radio Liberty), 1986-94.

    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.) Owner, Sandy 
Bayou Stable (race thoroughbred horses), H. Graham Motion, Trainer; 
Owner, Springbrook Farm (where we raise thoroughbred horses).
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.) Union League Club, New York; Capitol Hill Club, 
Washington; and Trinity Episcopal Church, Upperville.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

  1992, Forbes for President, $1000.
  1993, Hevesi for Comptroller, New York City, $250.
  1996 & 1998, Rohrabacher (CA) for Congress, total of $500.
  1996 Kelly (NY) for Congress, $250.
  1998 Winkelmann (Fauquier, VA) for Supervisor, $200.
  1999 Weeks (Fauquier, VA) for Supervisor, $200.
  1999 Allen (VA) for Senate, $250.
  1999 Pollard (VA) for Delegate, $250.
  2000 Bush for President $1,000.

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.) 
Virginia Press Association's Virginian of the Year, 1994; Virginia 
Communications Hall of Fame, 1994; Doctorate of Letters, Randolph-Macon 
College, 1995.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)

  Co-author POW, a history of prisoners of war in Vietnam, 1976
  Authored roughly 50 articles for Reader's Digest between 1968 and 
        1981
  Numerous racing articles in such publications as the Blood-Horse
  Columns in Washington Times, Richmond Times-Dispatch, and Weekly 
        Standard
  Best known article in recent years in the Weekly Standard, ``Mike 
        Barnicle's Demise,'' August 31, 1998, a piece credited by The 
        New York Times as having prompted the Boston Globe to fire the 
        columnist.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? I have a life-long interest and involvement in journalism 
and public affairs broadcasting.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? I spent my 
professional life as a journalist and editor. As a foreign 
correspondent, I became particularly knowledgeable about international 
broadcasting, particularly the BBC. One of the reasons I was perceived 
to have been a successful director of the Voice of America was my 
knowledge of public affairs broadcasting, that is to say international 
broadcasting.
    Also, it is no accident that one of the first people I sought out 
after being named director of VOA was Jim Lehrer. To me the News Hour, 
from its inception, has been a model for news and public affairs 
broadcasting.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? As a retiree, I have severed all formal 
relations with Reader's Digest. I have no business relationships which 
would conflict with service on the Board of the Corporation for Public 
Broadcasting.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. I receive approximately $100,000 per year in 
retirement income from Reader's Digest, plus executive retirement 
compensation of approximately $60,000 per year for ten years. I own 
approximately 70,000 stock options in Reader's Digest at levels ranging 
from 41 to 46 dollars per share. These options expire in August 2002.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I 
would notify appropriate officials of the CPB and remove myself from 
involvement in any such issues before the board.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. I am a life-long journalist and writer. As a foreign 
correspondent, I developed a particular interest in international 
radio. I was fascinated by why the BBC was so superior to other 
international broadcasters, and this led me to countless hours 
listening to this medium. The BBC model, which, after all, reflects the 
McNeil/Lehrer model (or is it the other way around) reflects news and 
public affairs broadcasting at its best. My knowledge of all this 
enabled me to be an effective director of the Voice of America, and, I 
submit, also made me effective as a long-time member of the U.S. Board 
for International Broadcasting.
    I know the professional standards that should guide journalism and 
public television and radio. Maintaining these standards has been a 
lifetime pursuit.
    Like countless other Americans, I was a fan of public television 
from its earliest days. From Masterpiece Theater to Fawlty Towers the 
programs of public television enriched our lives.
    I have long had a passionate interest in the role public radio 
stations play in the preservation of American culture. Whether you are 
talking blues in its various incarnations or mountain music or any of a 
number of ethnic musical cultures (from Irish to Polish to Greek), the 
programming of public radio stations has done more to preserve and 
perpetuate these priceless expressions of our past than any other 
factor in American life.
    For that matter, I am a former (minimum wage) employee of 
Washington's WAMU-FM. For three months during the summer of 1976, I was 
WAMU's bluegrass disk jockey.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I believe I possess the skills necessary 
to be an effective CPB board member. But the one component which 
necessarily will be on-going will be the importance of constantly 
viewing and listening to public television and radio. That is a basic 
for anyone who would seek to be involved in oversight in the area.
    3. Why do you wish to serve in the position for which you have been 
nominated? I have always sought to be involved in causes for which I 
have passion. Involvement in public television and radio represents a 
great opportunity for service in an area of long-time interest to me.
    4. What goals have you established for your first two years in this 
position, if confirmed? I would expect to be doing a great deal of 
learning. I would also hope to make significant contributions as a 
member of this board. I believe my past involvement in public 
broadcasting will enable me to encourage the highest quality in 
programming on public television and radio broadcasting.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. I 
once heard President Reagan explain: ``Government is rarely the 
solution. Government is usually the problem!''
    Lord Acton said, ``The government which governs best, governs 
least.''
    While I agree with this political philosophy, I also believe that 
government has a role to play in addressing challenges facing our 
country and its people.
    Specifically, I believe that government has a role to play in 
creating public interest broadcasting, even in an era when the 
consumer, through cable and satellite dishes, has extraordinary choice 
in programming.
    The value of public television children's programming alone is 
worth government participation in broadcasting. The value of the Jim 
Lehrer NewsHour is worth government involvement in broadcasting. And I 
would also submit, as reflected in an earlier answer, that commercial 
radio does not even come close to the role of cultural preservation 
which has been such a vital function of public radio.
    Anyone who doubts the importance of public radio to this country 
should drive in the countryside of virtually every section of our 
nation and compare public radio programming with that available on 
private local (particularly FM) stations. Now I realize there have been 
significant developments in (particularly AM) radio in the last decade. 
But I submit that if we ended National Public Radio we would severely 
impair the opportunity for our citizens to be informed about what is 
happening here and abroad. In no area does public broadcasting play a 
more important role than in our rural regions--from Alaska to 
Mississippi.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. The mission 
of public television and radio is to enrich the culture of our nation 
and to ensure a level of news and public affairs broadcasting that will 
help our citizens make informed judgments on issues facing our people 
and our nation. Public broadcasting will accomplish this mission by 
producing high quality programming--and managing our resources in such 
a way as to merit public and private support for our broadcasting.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. The important, if costly, issue of digital conversion offers the 
challenge of greatly expanding the value of public television--
especially in the area of children's programming. The already 
significant value of public television as an educational force will be 
particularly enhanced if we can find the public and private resources 
to expand digital broadcasting.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? Addressing the latter question first, 
providing an environment that will foster the production of quality 
programming will always be a top objective of CPB. Guiding 
technological change to enhance the value of public broadcasting is 
critical. Finally, CPB must provide the type of financial oversight and 
leadership that will give the public--and Congress--confidence that 
public broadcasting deserves support.
    To accomplish our mission, it is critical that our citizens, 
reflecting a broad spectrum of political opinion, continue to believe 
that public broadcasting reflects the highest standard for creativity 
and fairness in its programming. Maintaining a consensus on the value 
and merit of public broadcasting--a consensus that reflects viewpoints 
from conservatives and liberals and moderates--is critical if we are to 
prevent outside forces from blocking our mission.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? The issue of financial support for public 
broadcasting is an ever-present challenge to achieving our mission. 
Also important is maintaining the type of quality of program content 
that will merit support of public broadcasting from the major elements 
of political attitudes in this country.
    10. Who are the stakeholders in the work of this agency? The 
people--and the people's elected representatives.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten? If 
confirmed, an important aspect of my job is ensuring the faith and 
support of the stakeholders.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I know of no employee 
complaints. The management philosophy of Peter Drucker is my guide. I 
believe a supervisor should establish a vision for employees that will 
guide them in accomplishing their mission. I believe the ideal 
supervisor leaves employees free to accomplish that mission--but I 
believe a supervisor must be willing to step in and guide when 
standards are not being met.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I have extensive experience in 
dealing with Congress as director of the Voice of America as well as 
Chairman of the National Commission on Libraries and Information 
Science and the U.S. Board for International Broadcasting. I am 
particularly proud of a record which demonstrates the ability to work 
with both Republicans and Democrats.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. Closely.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. I hope Congress will soon see fit to pass an 
authorization for CPB. I also trust our work at CPB will be of such 
quality as to inspire continued public support for public broadcasting.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. I believe Presidents appoint 
independent board members to exercise their own considered judgment--so 
long as we act within the law and in such a way as to merit the support 
of Congress.

    The Chairman. Dr. Wilson, welcome.

STATEMENT OF DR. ERNEST J. WILSON, III, NOMINEE, MEMBER OF THE 
    BOARD OF DIRECTORS, CORPORATION FOR PUBLIC BROADCASTING

    Dr. Wilson. Thank you, Mr. Chairman.
    I would first like to introduce my wife, Dr. Francia L. 
Wilson, who is here with me this morning.
    The Chairman. Welcome, Dr. Wilson.
    Dr. Wilson. Mr. Chairman and Members of the Committee, I 
first want to express my gratitude to you for holding this 
hearing, and to the President for nominating me to serve on the 
Corporation for Public Broadcasting. I am deeply honored to be 
here today.
    This is a very exciting time to be a part of public 
broadcasting. Our rapidly changing technology offers new 
opportunities to expand public broadcasting's educational 
mission, and to reach even more diverse audiences than are 
already being reached today.
    The CPB Board has identified three major priorities for the 
coming years: education, technology, and diversity. If 
confirmed to serve on CPB's Board, I pledge myself to advance 
each of those objectives to the fullest of my abilities.
    As an educator, I am especially committed to advancing the 
educational goals of the CPB for all Americans. I've been 
involved in academia for more than 25 years. I've taught at the 
University of California at Berkeley, University of 
Pennsylvania, University of Michigan, and now at the University 
of Maryland-College Park, where I serve as Director of the 
Center for International Development and Conflict Management.
    In addition, I have experience in broadcasting that 
includes work with the United States Information Agency, Radio 
Free Europe, and other federal broadcasting units. I've also 
had positions within the executive branch, including the 
National Security Council and the private sector, with the 
Global Information Infrastructure Commission.
    I am also strongly committed to helping public broadcasting 
think through and advance its commitment to take full advantage 
of the benefits of the new digital technologies, which are so 
enormously important and which my colleagues have already 
addressed. Much of my recent career has been spent working on 
the issue of the information revolution, and I'm currently in 
the process of doing a book for M.I.T. on that topic. So I 
really look forward to working with my colleagues on the issue 
of digital conversion.
    As public broadcasting has always been a leader in putting 
technology to work for the benefit of all Americans, if 
confirmed I will work to ensure that public broadcasting 
remains a leader in developing, testing and implementing these 
technologies.
    For public broadcasters, the goal of universal access means 
not only providing broadcast service to individuals living 
across the United States that are geographically isolated or 
rural, but also reaching out to unserved or underserved 
populations as well. It is important then that public 
broadcasting continue to ensure that underserved communities 
have access to new technologies.
    Technology allows adults and children to learn of the world 
around them and helps all racial, ethnic and socioeconomic 
groups to understand one another better.
    I am committed to working to close the digital divide in 
technology that exists today in our country, and if confirmed, 
will work to ensure that public broadcasting continues to meet 
the needs of underserved communities. By providing these 
communities access to new technologies, I believe we can 
enhance the opportunities for them to tell their own local 
stories. I believe public broadcasting can have a significant 
impact to help close the digital divide.
    I have been a longtime admirer of public broadcasting and 
believe it is unique in being able to reach out to all 
Americans.
    If confirmed, I hope to serve the nation in these areas 
where I have experience and I hope some expertise to offer to 
the Board, especially in helping CPB meet its objectives in 
education, in technology, and in digital media convergence.
    I am committed to upholding the high ideals of public 
broadcasting, including balance, serving underserved and 
unserved audiences, and in particular minorities, educators and 
children.
    Thank you very much, Mr. Chairman, for the opportunity to 
be here today.
    The Chairman. Thank you, Dr. Wilson.
    [The prepared statement and biographical information of Dr. 
Wilson follow:]

Prepared Statement of Dr. Ernest J. Wilson, III, Nominee, Member of the 
        Board of Directors, Corporation for Public Broadcasting
    Good morning Mr. Chairman and Members of the Committee. I first 
want to express my gratitude to the Chairman for holding this hearing 
and to the President for nominating me to serve on the Board of the 
Corporation for Public Broadcasting (CPB). I am honored to be here 
today.
    It is an exciting time to be a part of public broadcasting. Our 
rapidly changing technology offers new opportunities to expand public 
broadcasting's educational mission and to reach even more diverse 
audiences than are already being reached today.
    The CPB Board has identified three priorities for the next year and 
for years to come: education, technology, and diversity. If confirmed 
to serve on CPB's Board, I will support these three priorities with 
enthusiasm, and I believe that my background will further add to serve 
CPB's mission along each of these priorities and beyond them.
    As an educator, I am deeply committed to advancing the educational 
goals of CPB for all Americans. I have been involved in academia for 
more than 25 years. I began my career as a teacher abroad in Zaire and 
eventually taught political science at the University of California, 
Berkley; the University of Pennsylvania; and the University of 
Michigan, Ann Arbor. Currently, I am on the faculty at the University 
of Maryland, College Park and serve as the Director of the Center for 
International Development and Conflict Management. In addition, I have 
experience in broadcasting that includes work with the United States 
Information Agency (USIA), Radio Free Europe, and Radio Marti. I also 
have held numerous positions in the Executive Branch including the 
National Security Council and the Global Information Infrastructure 
Commission.
    I am also strongly committed to helping public broadcasting think 
through and advance its commitment to take full advantage of the 
benefits of the newest digital technologies. Much of my recent career 
has been spent researching and analyzing the impact of the global 
information revolution. I am deeply engaged in studying the educational 
possibilities of digital technology. I have worked on the subject of 
the impact of information technology on society with research groups 
such as RAND and the Center for Strategic and International Studies 
(CSIS), and lectured at Harvard, George Mason University (GMU) in 
Virginia, and abroad.
    As public broadcasting has always been a leader in putting 
technology to work for the benefit of all Americans, if confirmed, I 
will work to ensure that public broadcasting remains a leader in 
developing, testing, and implementing new technology, and embraces 
digital technology's promise of new learning opportunities for all.
    For public broadcasters, the goal of universal access means not 
only providing broadcast service to individuals living in areas across 
the United States that are geographically isolated or rural, but also 
means reaching out to unserved and underserved populations. It is 
important then, that public broadcasting continue to ensure that 
underserved communities have access to new technology. Technology 
allows adults and children to learn about the world around them--
outside of their immediate families, their friends, and their 
neighbors--and helps all racial, ethnic, and socio-economic groups 
understand each other better.
    I am committed to working to close the digital divide in technology 
that exists today, and if confirmed, will work to ensure that public 
broadcasting continues to meet the needs of underserved communities. By 
providing these communities access to new technologies, we can enhance 
the opportunities for them to tell their own stories. I believe that 
public broadcasting can have a significant impact on helping to close 
the digital divide.
    I have been a long-time admirer of public broadcasting--I believe 
it is unique in reaching broad segments of the population, including 
minority youth, who have grown up on shows like Sesame Street where all 
children can find something to spark their intellectual curiosity and 
interest in reading.
    A new program aimed at helping children with literacy skills, 
Between the Lions, demonstrates public broadcasting's commitment to 
utilize television as a teaching tool. Preparing and helping children 
age 4-to-7 learn how to read is a national education challenge. Public 
broadcasting meets these and other challenges in an effective and high-
quality way.
    If confirmed, I hope to serve the nation in these areas where I 
have experience and some expertise to offer, especially in helping CPB 
meet its objectives in education, technology, and the digital media 
convergence. I am committed to upholding the high ideals of public 
broadcasting, and serving unserved and underserved audiences, in 
particular, minorities, educators, and children.
    Thank you.
                      a. biographical information
    1. Name: Ernest J. Wilson III (`Chico' childhood nickname).
    2. Position to which nominated: Board member, Corporation For 
Public Broadcasting.
    3. Date of nomination: November 10, 1999.
    4. Address: 415 St. Lawrence Drive, Silver Spring, MD 20901.
    5. Date and place of birth: May 3, 1948, Washington, D.C.
    6. Marital status: Married.
    7. Names and ages of children: Malik Ernest Wilson, 22; Rodney 
Rusan Gregory Wilson, 15.
    8. Education: High School: Capitol Page School, Washington, D.C. 9/
63-6/66; College: Harvard University, Cambridge, MA. 9/66-6/70; 
University of California at Berkeley, M.A.: 6/73, Ph.D.: 1/78.
    9. Employment Record:

  Director, Center for International Development and Conflict 
        Management, University of Maryland, College Park, and Associate 
        Professor, Government and Politics Department, 8/95-present
  Deputy Director, Global Information Infrastructure Commission, 
        Washington, D.C. 7/94-8/95
  Director, Policy Planning, U.S. Information Agency Washington, D.C. 
        2/94-7/94
  Director, International Programs and Resources National Security 
        Council, White House 1/93-2/94
  Associate Professor, Government and Politics Department, University 
        of Maryland, College Park 7/92-1/93 (given 2\1/2\-year leave of 
        absence for service to work at White House, USIA, GIIC)
  Visiting Senior Fellow for Africa Council on Foreign Relations New 
        York, 8/92-1/93 (part time while at Maryland)
  Associate Professor, Department of Political Science, University 
        Michigan, Ann Arbor, Michigan, 1986-1992
  Director, Center for Research on Economic Development; and Associate 
        Research Scientist, Institute for Public Policy Studies 1987-
        1992
  Assistant Professor, Department of Political Science, University of 
        Michigan, Ann Arbor, MI 8/1981-8/1986
  Assistant Professor (on leave), Department of Political Science, 
        University of Pennsylvania, Philadelphia, Pennsylvania (While 
        on leave, was a Gilbert White Fellow at Resources for the 
        Future, Washington, D.C. and Post Doctoral Fellow, Kennedy 
        School of Government, Harvard University, Cambridge MA 1980-
        1981
  Assistant Professor, Department of Political Science, and Energy 
        Management and Policy Program, School of Public and Urban 
        Policy, University of Pennsylvania, Philadelphia, Pennsylvania 
        1977-1980
  Acting Assistant Professor, Department of Afro-American Studies, 
        University of California, Berkeley, ``Afro-American Political 
        Strategies'' 1977
  Editorial Assistant, The Black Scholar Magazine, Sausalito, CA 1976-
        1977 (graduate student, University of California, Berkeley, 
        1972-77)
  Teaching Assistant, Department of Political Science, University of 
        California, Berkeley, 1974-75
  Field Research Worker, Survey Research Center, University of 
        California, Berkeley; Conducted and assisted in the evaluation 
        of social science survey in the Bay Area, 1972-1973
  Legislative Assistant to Hon. Charles C. Diggs, Chairman, House 
        Subcommittee on Africa, 1972
  National News Desk, The New York Times, Washington Bureau 1971-1972
  Teacher, L'Ecole Secondaire Lapsley, Kasai Oriental, Zaire. Taught 
        Social Studies in French, 1970-1971

    10. Government Experience: The Center which I direct at the 
University of Maryland, (Center for International Development and 
Conflict Management) has received grants and contracts from USAID, for 
which I am the Principal Investigator. The support is from the `Leland 
Initiative' for Internet connectivity in Africa; and a pending grant 
for work in Rwanda. Advisory/consultative position with National 
Intelligence Council for scholarly research initiative on global 
conflict and sovereignty. In addition, I have in the past served as a 
consultant to various federal agencies, including the State Department, 
USAID, USIA, NSA, the Interior Department, an advisory board for the 
state of Michigan (on trade), and several advisory boards for the 
Congressional Black Caucus.
    11. Business Relationships: The following activities are those for 
which I was a paid consultant:

    2000
    University of Denver
    State University of New York Press
    World Bank
    National Intelligence Council

    1999
    Corporate Council on Africa (writer)
    Economic Commission for Africa
    Global Information Infrastructure Commission (advisor and 
            consultant)
    Keizai Koho (speaker)
    World Bank
    National Intelligence Council

    1998
    American Academy of Ophthalmology (speaker)
    Center for Strategic and International Studies
    Economic Commission for Africa
    George Mason University (speaker)
    Global Information Infrastructure Commission
    International Development and Research Center and Department of 
            Communications, South Africa
    NEC (speaker, consultant)
    NSA
    University of Arkansas Medical School (speaker)
    University of Denver (speaker)
    University of South California (speaker)
    Washington Strategy Group
    World Bank

    1997
    Corporate Council on Africa (writer)
    Rockefeller Brothers Fund
    University of Denver (speaker)
    World Bank

    1996
    United Nations Commission on Science and Technology for Development
    USAID

    12. Memberships:

  Council on Foreign Relations
  Pacific Council on International Policy
  American Political Science Association
  African Studies Association
  Member, Overseas Development Council, 1996-present
  Journal of Democracy, Editorial Board
  The Black Scholar, Editorial Board
  Member, International Advisory Board, National Academy of Sciences
  Member, Research Advisory Board, Internet Policy Institute
  Member, Advisory Committee, ``Briefing the President'' Project 
        Internet Policy Institute
  Sigma Pi Phi (fraternity)
  Chair, Y2k Advisory Committee, National Research Council (1998-2000)
  Member, Advisory Board, Telecommunications Project, Rainbow Push 
        Coalition
  Member, Cyber Threats Task Force, Center for Strategic and 
        International Studies
  Member, Study Group on IT and International Relations, Carnegie 
        Endowment for International Peace
  Member, Africa Regional Advisory Panel, Social Science Research 
        Council
  Member, Anwar Sadat Chair Advisory Committee, University of Maryland

    13. Political Affiliations and Activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. Volunteer for Gov. Bill Clinton campaign for President, 1992 
(made telephone calls in Michigan state primary); wrote occasional 
policy pieces on foreign affairs. Volunteer for Vice President Gore 
campaign, 2000.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Contribution to Gore 
presidential campaign, 1999, $1,000.
    14. Awards and Honors:

  Professor-in-Residence and W.E.B. DuBois Lecture, George Mason 
        University, 1998
  Fellow, Center for Global Communications, Tokyo, Japan 1997
  International Affairs Fellow, Council on Foreign Relations, 1985-1986
  National Science Foundation, 1983-1986
  Outstanding Young Men of America, 1983
  Grantee, ``Public Sector-Private Sector Relations in Africa''
  Gilbert White Fellow, Resources for the Future, Washington, D.C. 
        1980-81
  Grantee, Rockefeller Family and Associates, ``The 
        Institutionalization of Alternative Energy Technologies in 
        Africa,'' 1979-81
  Post Doctoral Fellow, Southern Fellowship Fund, 1980
  Ford Foundation Post Doctoral Fellow, Alternate, 1980
  Post Doctoral Fellow, J. F. Kennedy School of Government, and Joint 
        Fellow, Energy and Environmental Policy Center, and Center for 
        Science and International Affairs, Harvard University, 1980
  Andrew W. Mellon/Aspen Institute for Humanistic Studies Fellow, 1979-
        80
  Ford Foundation Doctoral fellow, 1972-76
  University Consortium for World Order Studies Fellow, 1975-76
  Ford Foundation Middle East and Africa Research Fellowship for Afro-
        Americans, 1975
  First Prize, W.E.B. DuBois National Essay Award, 1975
  African American Scholars Council Grantee, 1973
  Ralph Bunche Fellowship, Finalist, 1973
  Graduate Minority Program (Berkeley) Fellow, 1972
  American Political Science Association, Fellow, 1972
  Michael Clarke Rockefeller Fellow, 1970
  Harvard Regular Scholarship, 1966-70

    15. Published writings:
Books and Monographs
  ``Global Information Revolution and Africa,'' CIDCM Working Paper, 
        College Park, MD, March 1997.
  The United States and Africa: Toward A New Relationship, with David 
        F. Gordon, report of a study funded by the Ford Foundation, 
        published by the Center for International Development and 
        Conflict Management, College Park, MD, April 16, 1997.
  Co-Editor, National Information Initiatives: Political Vision and 
        Public Policy. Cambridge, MA: MIT Press, 1997 (with Brian Kahn) 
        (translated into Chinese).
  Does the Global Information Highway Lead to Africa? Center for 
        Strategic and International Studies CSIS Notes, Washington, 
        D.C., May, 1996.
  International Economic Reform: Theoretical and Comparative 
        Perspectives. (editor) Ann Arbor: C.R.E.D., 1991.
  Politics and Culture in Nigeria. Ann Arbor: Center for Political 
        Studies, Institute for Social Research, University of Michigan, 
        1988.
  ``Privatization In Ivory Coast: Three Case Studies.'' Center for 
        Business and Government, J. F. Kennedy School of Government, 
        Harvard University, 1987.
  The Decade of Energy Policy: Policy Analysis in Oil Importing 
        Countries, Ernest J. Wilson III and Paul Kemezis. New York: 
        Praeger, 1984.
Chapters in Books
  ``What Social Science Theory Can Do For Policy Makers: The Relevance 
        of Theory For Foreign Policy'' in Miroslav Nincic and Joseph 
        Lepgold, eds. Being Useful: Policy Relevance and International 
        Relations Theory, Ann Arbor, Mich.: University of Michigan 
        Press, 2000.
  ``The What, Why, Where and How of National Information Initiatives'' 
        in Brian Kahn and Ernest J. Wilson III, National Information 
        Infrastructure Initiatives: Vision and Policy Design, 
        Cambridge, MA: MIT Press, 1997.
  ``Business Associations in Africa: New Directions for Comparative 
        Political Economy'' in Peter Lewis and Ernest J. Wilson III, 
        eds., Business Associations in Africa, forthcoming.
  ``Building the African Information Society with Public and Private 
        Sector Cooperation,'' UN Economic Commission for Africa, 1997.
  ``Interest Groups and Foreign Policy Making: A View from the White 
        House,'' in The Interest Group Connection: Electioneering, 
        Lobbying, and Policymaking. Paul S. Herrnson, Ronald G. Shaiko 
        and Clyde Wilcox, eds. Chatham, NJ: Chatham House Publishers, 
        1997.
  ``Privatization in the Ivory Coast,'' in State Owned Enterprises in 
        Africa. Barbara Grosh and Rekaza Mukandala, eds., Boulder, CO: 
        Lynne Rienner, 1994.
  ``Creating a Research Agenda for the Study of Political Change in 
        Africa,'' in Economic Change and Political Liberalization in 
        Sub-Saharan Africa. Jennifer Widner, ed., Johns Hopkins 
        University Press, 1994.
  ``Privatization,'' Oxford Companion to Politics of the World. Joel 
        Krieger, ed., Oxford University Press, 1993.
  ``The Politics and Economics of Privatization in Nigeria,'' in 
        Nigeria: The Economics of the Transition to Civilian Rule. T. 
        Bierstecker, ed., Hoover Institution, forthcoming.
  ``Paradigms and Paradoxes: Political Science and African American 
        Politics,'' (with Michael Dawson), in Political Science: 
        Theories, Methods and Scope, William Crotty, ed., Evanston, IL: 
        Northwestern University Press, 1991.
  ``Nigeria's Position in a Restructured World Oil Market,'' in 
        Nigeria's International Economic Relations, Joy Ogwu and R. 
        Omotayo Olaniyan, eds. Lagos, Nigeria: Nigerian Institute of 
        International Relations, 1990.
  ``A Political Puzzle of African Perestroika,'' in Richard Joseph, 
        ed., Glasnost and Perestroika in Africa, Carter Center, 
        Atlanta, GA, 1989.
  ``Privatization in Africa'' (with Thomas Callaghy) in Raymond Vernon, 
        ed., Privatization. New York: Council on Foreign Relations, 
        1988, pp. 179-230.
  ``The Petro-Political Cycle,'' in Richard Ender and John Kim, eds., 
        Energy Resources, Development Politics and Policies. Greenwood 
        Press, 1987, pp. 7-19.
  New ``Introduction'' (co-author), Crisis of the Negro Intellectual. 
        Harold Cruse, New York: Morrow, 1984.
  ``Public Corporations: Goals, Structure and Strategy,'' in Elliot P. 
        Skinner and Pearl Robinson, eds., Transformation and Change in 
        Africa. Washington, D.C.: Howard University Press, 1982, pp. 
        45-68.
  ``A Social Science Research Agenda Through the Year 2000,'' Blacks in 
        the Year 2000. Joseph Washington, ed., Afro-American Studies 
        Program, University of Pennsylvania, 1981.
  ``Nigeria,'' National Energy Profiles. Kenneth Stunkel, ed., New 
        York: Praeger, 1980, pp. 315-358.
  ``Nigeria: African Giant,'' Chapter in Yardbird Reader, Vol. V, with 
        Franeille Rusan Wilson; William Lawson, editor. Yardbird Press, 
        Berkeley, California, 1976.
Journal Articles
  Rubin Patterson and Ernest J. Wilson III, ``New IT and Social 
        Inequality: Resetting the Research and Policy Agenda,'' The 
        Information Society. 16:77-86, 2000.
  ``Electronic Commerce in Africa: The Contribution of Business 
        Associations,'' Electronic Markets.
  ``The Role of Leadership in Making the Information Revolution: 
        Information Revolutionaries in Brazil,'' DataGram, April 2000.
  ``Development of National Information and Communications Services: A 
        Comparison of Malaysia and South Africa,'' Journal of 
        Developing Societies. Vol. XV, April 1999, pp. 47-60.
  ``Meeting the Challenges of Internet Inequality,'' On The Internet 
        (official publication of the Internet Society), November/
        December 1999, pp. 26-30.
  ``Inventing the Global Information Future,'' Futures, February 1998.
  ``French and United States Commercial Relations in Africa: Explaining 
        Conflict and Cooperation,'' in Perspectives on Africa, Vol I, 
        No. 1, Fall 1997.
  ``The Digital Diaspora,'' Our World Press Web Page, August, 1996.
  ``Africa and the Global Information Infrastructure,'' in Africa 
        Communications, Vol. 6, 3, May/June, 1995, pp. 40-43.
  ``French Support for Structural Adjustment Programs in Africa,'' 
        World Development. Vol. 21, 3, 1993, pp. 331-347.
  ``Rational Choice Applications to Developing Areas: A Critical 
        Assessment of the Work of Robert Bates,'' with Howard Stein, 
        lead article in a special issue devoted to the work of Robert 
        Bates, World Development, Vol. 21, 6, 1993, pp. 1035-1050.
  ``Poland's Third Revolution: Property Reform,'' Public Enterprise. 
        Special Issue, Privatization in Reforming Socialist Economics, 
        Vol. 11, No's 2-3, pp. 119-132.
  ``Global Economic Reform,'' Review Essay, American Political Science 
        Review. December 1991.
  ``Strategies of State Control of the Economy: Nationalization and 
        Indigenization in Black Africa,'' Comparative Politics, Volume 
        22, No. 4, July 1990, pp. 401-419.
  ``Privatization et reforme des enterprises publiques en Afrique: 
        Reflexion generale et etude du cas Ivorian'' Annee Africaine 
        1987-1988. (Leading French language annual review of political 
        and economic development in Africa (University of Bordeaux, 
        1990).
  ``The Wide Scope of Economic Reform'' (with David Gordon), Economic 
        Impact. March 1990.
  ``Price Tag of Reform,'' Christian Science Monitor, June 29, 1989.
  ``The Crisis and Challenge of African Development,'' (Review), H. 
        Glickman, Ed., in Studies in Comparative and International 
        Development.
  ``The Iran-Contra Affair--Errant Globalism in Action, ``National 
        Journal of Political Science, Vol. 1, 1989, pp. 110-113.
  ``Privatization: Domestic Causes, Current Status and Future 
        Scenarios'' Issues: XVI, 2, 1988 pp. 24-29.
  ``Patterns of Public Enterprise Control in Africa: Ideology and 
        Administration in the Public Enterprise Sector,'' Public 
        Enterprise 8, No. 2 (April 1988) pp. 188-199.
  ``Trials and Tribulations of Petroleum Development: Lessons and 
        Advice for Prospective Producers,'' with Harry Broadman, 
        Natural Resources Forum Vol. II, No. 3, 1987, pp. 241-249, 
        reprinted in Law and Policy Issues for Petroleum in Non-Opec 
        Developing Countries. K. Khan, ed. Martinis Nijhoff, 1988.
  ``The Privatization Process in Action: Some Lessons from 
        International Experience'' in Restructuring The Nigerian 
        Economy: The Place of Privatization. Lagos: Securities and 
        Exchange Commission, 1987.
  ``The Public-Private Sector Debate,'' Africa Report, July-August 
        1986, pp. 93-95.
  ``Why Political Scientist Don't Study Black Politics but Historians 
        and Sociologist Do,'' PS, Summer, 1985, pp. 600-606.
  ``Nigeria and OPEC: More Troubles Ahead,'' Geopolitics of Energy, 
        Vol. 7, No. 1, January 1985.
  ``Contested Terrain: A Theoretical and Comparative Re-Assessment of 
        Public Enterprises in Africa,'' Journal of Comparative and 
        Commonwealth Studies, March 1984, reprinted as ``Public 
        Enterprises in Africa,'' Public Enterprises in the World.'' 
        R.K. Mishra & S. Ravishankar, Bombay: Himalaya Publishing 
        House, 1986, pp. 67-97, and in Estado y Sociedad en el Africa 
        Actuel. Peter Nyong'o, ed. El Colegio de Mexico: Mexico City, 
        1989 as ``Territorio en disputa: reconsideration comparativa y 
        teorica de las empresas estatales en Africa.''
  ``African Governments between Domestic and International Markets,'' 
        Rural Africanan, Special Issue on the World Bank Report on 
        Accelerated Development in Africa, 1984.
  ``Blacks and the Industrial Policy Debate,'' Focus, April 1983, pp. 
        3-4. Reprinted in Entrepreneurial Economy.
  ``Industrial Policy and Minority Concerns,'' Washington, D.C.: 
        Congressional Black Caucus Foundation, September 1983.
  ``The Energy Crisis and African Underdevelopment,'' Africa Today, 
        October/December 1975. Updated and published in Dunstan Wai, 
        ed., The Triangular Relationship: Africa, the Arabs and the 
        West, Westview Press, 1982.
  ``The `Oil Crises' and African Economics: Oil Slick on a Tidal 
        Wave,'' with Dr. Willard Johnson, Daedalus, 1982, pp. 211-241.
  ``Two Rivers: An African Journey Home,'' Harvard Advocate, Spring 
        1974.
  ``The Great Energy Gap: 1970-1990,'' Black Scholar, March 1974.
  ``Energy, Africa, and World Politics,'' Review of Black Political 
        Economy, 1973.
Current Publishing Activities
  The Information Revolution and Developing Countries. MIT Press, under 
        contract.
  MultiCulturalism, Double Diversity and U.S. Foreign Policy. Routledge 
        Press, under contract.
  Negotiating the Digital Divide: The Policy and Politics of Internet 
        Diffusion in Africa, under preparation (co-editor).

    16. Speeches: None.
    17. Selection:
    (a) Do you know why you were chosen for this nomination by the 
President? I believe my experiences working with Radio Free Europe, 
Radio Liberty, Voice of America and other international public 
broadcasting bodies, and my publishing and professional work in the 
information revolution, led the President to nominate me.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? I believe 
that my experiences with international public broadcasting, my 
knowledge of digitalization and globalization, and my commitments to 
reducing the `digital divide' and to diversity qualify me for 
membership on the Board.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Since this is a part-time unsalaried board 
appointment, I will retain my current employment as a professor at the 
University of Maryland.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. See above. Not applicable.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? Not applicable.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? Not applicable.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes, I do 
intend to serve out my full term.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I 
would seek the advice of the Office of Government of Ethics, CPB 
General Counsel, or other appropriate legal counsel to ensure than any 
future conflict of interest, should one arise, is properly addressed.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes, to the 
best of my abilities.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes, to the best of my abilities.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee? Yes, to 
the best of my abilities.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. Please describe how your previous professional experience and 
education qualifies you for the position for which you have been 
nominated. I believe that my professional and academic background 
qualifies me for the position on the CPB Board. My professional career 
encompasses more than 25 years of engagement with international 
affairs, in particular on globalization and information technology. My 
experience in broadcasting includes work with the United States 
Information Agency, Radio Free Europe, and Radio Marti on modernization 
and consolidation. Presently, I am engaged in academic research for an 
upcoming MIT Press book on Information Technology and the digital 
divide in developing countries. I am also deeply engaged in studying 
the educational possibilities with digital technology, including 
distance education.
    I have held numerous posts within the executive branch that will 
help me perform well on the CPB Board of Directors. I served as the 
Director of International Programs and Resources on the National 
Security Council, Director of the Policy and Planning Unit, Office of 
the Director, USIA. A decade in the private/NGO sector, I was Deputy 
Director of the Global Information Infrastructure Commission. My 
professional and academic career has taken me to live on the East and 
West Coasts and in the Midwest. I have a graduate degree and Ph.D. from 
the University of California, Berkeley and a Bachelor's degree from 
Harvard University. I have a unique perspective on public policy issues 
based on my experiences.
    I currently serve on the faculty at the University of Maryland, 
College Park and as the Director of the Center for International 
Development and Conflict Management. I have also held faculty positions 
at the University of Michigan, Ann Arbor and the University of 
Pennsylvania.
    2. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I believe I have all the skills necessary 
to successfully fill the position. At the same time, I look forward to 
the opportunity to expand my knowledge of public broadcasting. For 
example, I intend to learn more about the broadcasting activities and 
contributions of local public television stations, as well as the non-
broadcast services these stations provide to their communities.
    3. Why do you wish to serve in the position for which you have been 
nominated? I want to serve the nation in an area where I have 
expertise, particularly in the policy area of the emerging technology 
of digital media convergence. The technological changes now taking 
place are important to the United States. I believe my expertise in 
this area is well suited for the position for which I have been 
nominated.
    4. What goals have you established for your first two years in this 
position, if confirmed? I am particularly interested in public 
broadcasting's role in digitalization, the digital divide, diversity, 
and education. I would like to help further public broadcasting's 
leadership in these areas.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. I 
believe in partnerships, for example, public/private sector 
partnerships. The government should set the parameters and can 
contribute in instances where the private sector cannot. I believe in a 
competitive marketplace, but in some instances certain societal 
objectives cannot readily nor feasibly be achieved by the private 
sector. Government programs should be judged on their effectiveness and 
efficiency. If certain programs do not meet these standards, I do not 
believe they should be automatically extended.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. CPB was 
established to facilitate the full development of programming of high 
quality, diversity, creativity, excellence, and innovation from diverse 
sources. CPB is committed to continued funding of the highest quality 
programming on television and radio. CPB has also made education, 
diversity, and conversion to digital technology its top priorities for 
next year.
    7. In reference to question number six, what forces are likely to 
result in changes to the mission of this agency over the coming five 
years. I do not foresee the mission of CPB changing over the next five 
years. Some of the challenges unique to the coming year will be 
converting public stations to a digital signal, repositioning public 
broadcasting in a way that maintains its noncommercial, educational 
nature, yet addresses the changing way people are using media in the 
face of expanding choices, and maintaining federal and non-federal 
sources of financial support.
    8. In further reference to question number six, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
board/commission and why? Based on what I know now, I believe the top 
three challenges facing the Board will be converting to digital 
broadcasting, addressing the growing competition from other media 
outlets, and securing future funds for public broadcasting.
    9. In further reference to question number six, what factors in 
your opinion have kept the board/commission from achieving its missions 
over the past several years? The pace of technological change and lack 
of federal funding for digital conversion could hinder CPB's mission.
    10. Who are the stakeholders in the work of this agency? The 
stakeholders are the American people, Congress, and unserved and 
underserved audiences, particularly minorities, educators and children.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question number ten? My 
relationship with the stakeholders would be to foster openness, seek 
advance consultation and input into the process.
    12. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? Throughout my career, 
I have developed a reputation for being accessible and fair.
    13. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I have served as a Congressional 
aide for a member of Congress, testified before Congress on policy 
matters, and done pro bono work for the Congressional Black Caucus.
    14. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your board/commission 
comply with the spirit of the laws passed by Congress. I would, when 
appropriate, consult with the Committee and other stakeholders to 
ensure that CPB policy complies with the spirit of the laws enacted by 
Congress.
    15. In the areas under the board/commission jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. I believe Congress should consider CPB 
reauthorization, authorization of digital conversion funding, and CPB's 
annual appropriation as legislative priorities.
    16. Please discuss your views on the appropriate relationship 
between a voting member of an independent board or commission and the 
wishes of a particular president. A voting member of an independent 
board should be truly independent while taking into account the wishes 
of federal interests and other stakeholders.

    The Chairman. I want to thank all witnesses for their 
willingness to serve. I believe that all of you are well-
qualified, and I appreciate again your willingness to take up 
very important responsibilities.
    I would like to discuss one issue with all of you that is 
in the process of being addressed in some fashion or another, 
by Congress or by the FCC.
    As you may know, recently the FCC has made a decision to 
allow low-power FM stations to operate, and these broadcasts 
would take place in neighborhoods and obviously limited 
geographical areas because of the low power FM status.
    In the view of many, including me, this is an opportunity 
for churches, for neighborhood organizations, and for 
minorities to set up small broadcasting facilities and have an 
opportunity that otherwise they would not have if they were 
required to set up the more elaborate, more expensive, higher 
power FM facilities.
    The National Association of Broadcasters, not surprisingly, 
is in opposition, basing their opposition that somehow this 
might interfere with other broadcasting stations.
    I have legislation that requires there to be proof these 
low power FM stations do interfere, and then they can be shut 
down, with that determination being made by the National 
Academy of Sciences. There is legislation that is attempting to 
be inserted in appropriations bills and other ways which would 
basically shut down low power FM stations.
    Much to my surprise, National Public Radio has come out in 
opposition to my legislation and in opposition to these low 
power FM stations being set up. All four witnesses have talked 
about the necessity for diversity, for as many Americans as 
possible to partake in this business, and I would hope that you 
would urge the National Public Radio to reexamine their 
position on this issue.
    I don't expect you to respond unless you wish to on this 
issue, because I don't expect you to be totally up to speed on 
it. But I hope you will look at this issue, because I view it, 
as the FCC does, as an opportunity for minorities, for others 
to have a voice that they otherwise would not be able to take 
part in broadcasting.
    If you would like to make any comments, I would be glad to 
respond.
    Mr. Cruz, you look as if----
    Mr. Cruz. I couldn't agree with you more, Senator McCain, 
that the idea of the concentration of media in America as we 
can see has been getting into smaller and smaller and fewer and 
fewer hands; and this is an excellent opportunity, I think, for 
community groups and minorities and churches and others to 
perhaps utilize the airways with the low power FM.
    I think your efforts, with your legislation, is a positive 
step to helping resolve that particular issue and that concern.
    The concern that we have had really is one more of 
technology, and it's not that we're against the concept; it has 
been more of trying to find out if indeed there is 
interference.
    I might add, in addition to National Public Radio we have 
about sixty-some odd minority owned radio stations, public 
broadcasting stations across the country. Most people just know 
of NPR, but there is Claudio Bilingual, the bilingual station 
throughout the Southwestern part of the United States. And 
there's one for Native Americans also, Radio Arrows, and 
several others across the country that we already support. So 
we endorse that concept of many voices and diverse voices.
    But the issue has been one of the technology influencing 
and interfering, and I think the suggestions of the legislation 
you have offered might be a good compromise or a good way of 
getting at the issue.
    The Chairman. I thank you.
    Would you like to comment on any of the other issues?
    Ms. Anderson. I applaud the policy and agree with you, I 
would like to see more movement toward the solving of the 
interference problems.
    The Chairman. Thank you, but Ms. Anderson, I also want to 
make--it's perfectly clear. The proposed legislation of the 
opponents--who to my understanding National Public Radio is 
supporting--will shut down low power FM. Let's be very clear as 
to the effect of it, because these people don't have the 
resources or the expertise to prove that they will not 
interfere under any circumstances.
    So let's be very clear about the effect of pending 
legislation on low power FM. And I don't think any objective 
observer would argue differently. No one would support any 
entity beginning that which would interfere with existing 
broadcasting that is licensed--it would be totally unfair.
    The question is whether there should be an organization 
such as the National Academy of Sciences to make the judgment 
or not. And that body, in my view, is perfectly qualified and 
objective enough to make that decision.
    So I don't want to belabor it, but I think that time after 
time throughout the years that I have been on this Committee, 
we lament the fact that minorities, community-based 
organizations, religious organizations, et cetera, do not have 
an opportunity. This is an opportunity and it's about to be 
killed.
    There ought to be a way to make sure that they have that 
ability and at the same time prevent them from interfering with 
existing broadcasting capability.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman. I agree with 
your legislation, and I think it's a very good solution to the 
problems that have been raised, including by many that just 
simply don't want to face competition.
    I have two questions, really. The first is more 
philosophical, the second is more specific. One of the things 
that troubles me as a lover of classical music is that only 
about 4 or 5 percent of CDs bought in this country, purchased 
in this country, are classical; and all the rest is what I 
would refer to, with the possible exception of bluegrass and 
jazz, as junk.
    Interestingly, I just came back from a week in Thuringia, 
which is the province of East Germany, where Johann Sebastian 
Bach grew up, and we traced his footsteps in the various places 
he had been to; and that is an area which has an enormous 
loyalty, obviously, to him and to the music of the high 
baroque. All their record sales are 4 to 5 percent of CDs.
    Now I may be wrong, but it's my general impression that 
although public broadcasters refer to the number of Americans 
who watch or listen to National Public Radio or television, 
they always talk about 100 million people a week, but still 
it's about 4 or 5 percent of the American people who listen to 
public broadcasting or watch public television on a regular 
basis.
    It's very, very disturbing. We can have all of the talk 
about digital divide and technology and the rest of it, and I'm 
very curious, because it comports with things that worry me 
about democracy, for example; I think there's only about 6 
percent of Americans who vote for boards of education. We have 
16,000 boards of education; typically they're placed last on 
the ballot, right before the bond levy, where everybody comes 
out to vote ``no.'' And I don't know why we place them last on 
the ballot, but we do, so I've always been of the mind that the 
local board of education is probably one of the most important 
elected offices in the land. And, again, the 6 percent factor.
    So philosophically, how do you react to that, Mr. Cruz? 
What does CPB, what can they do other than funding, set certain 
kinds of policies, to fight that trend? I don't believe that 
one should accept that as a condition of the American people. I 
think the condition of the American people depends upon the 
forces that are applied to them or the enticements that are 
presented to them.
    The 4 or 5 percent is not good. CPB, both public 
broadcasting and public television is excellent, but the 
viewership is insufficient and it has not changed in a while. I 
wonder how you worry about that and what you contemplate when 
you think about that.
    Mr. Cruz. Let me answer your first question in terms of the 
classical music. I so happen to be the trustee of the 
University of Southern California, and it is one of the 
classical stations for public radio KUSC. There are at least 
eight, if memory serves me correctly, or so dedicated classical 
public radio stations across the country.
    And in an effort to help them in terms of perfecting fund 
raising and in terms of getting them to have a better and a 
higher profile of interest in reference to classical music, we 
have funded several projects aimed at bringing them together; 
we have one with the University of Southern California and one 
in the State of Colorado where we are getting them together so 
that they can find better ways of running their, if you will, 
subset of classic music business and industry.
    But I couldn't agree with you more. Philosophically, I 
don't know why the American public doesn't take to that kind of 
music more or why they don't vote and turn out--I think these 
are issues that we could debate for quite some time.
    In terms of the viewership of public broadcasting, 
philosophically as a whole and the loss of audience that you 
were saying, I so happen to have worn that hat of the 
commercial side for twenty-some-odd years. On the English side 
for about 16, on the Spanish-language side for about 6. And 
quite frankly, Senator, sometimes I'm almost embarrassed to 
tell you how I feel about what the commercial side is doing.
    Clearly what drives me with a passion, and in my belief of 
public broadcasting, is because of the alternative that it does 
offer. Public broadcasting, study after study recently has 
shown that--at least one out of Princeton showed that 82 
percent of the American public still believed that PBS is as 
important if not more important than before; indicative of the 
fact that they feel that we are providing a good alternative 
service to the American public.
    When I sit in Los Angeles in the suburb of Orange County 
where I live, and I tune in to ABC News or--not to pick on my 
old networks that I worked for, it's downright embarrassing 
when an hour's newscast is interrupted because they're going to 
have a 45-minute high speed chase on the freeways. I mean, that 
is really a great news disservice and a great disservice to the 
American public.
    We don't do that in public broadcasting. Whenever there are 
hearings pertaining to violence, violence to children to 
violence in America, we are conspicuously absent from those 
hearings because public broadcasting has always been a safe 
haven for our kids and for our children, and that's really what 
motivates me and pushes me, to say nothing of what the digital 
conversion technology has in store for us in the future.
    Hopefully in the next 4 or 5 years when it takes over, you 
will have your regular PBS schedule, and then you will have a 
working mother come home at 4 or 5 in the afternoon after she 
picked up her child and on the PBS kids can see Arthur and 
Barney and Dragon's Tales. Or a young man who is growing up in 
East Los Angeles or in South Central Los Angeles and hasn't 
been able to get an advanced degree, the Adult Learning Service 
channel hooked up through his local college can do that for 
him, late at night when they come in with that extra channel.
    So I'm very, very--to use a business phrase, ``very 
bullish'' on the future of public broadcasting and the things 
that it can really do. We often say within staff and with 
public broadcasting that ``Finally, the technology has caught 
up with the mission of public broadcasting.'' Because we look 
forward to the things that we can do.
    Senator Rockefeller. Let me just, without pursuing that, 
ask if you would be willing to spend a little bit of time 
writing out for me what I would consider a more direct answer 
to the question, which is: How do you get the 4 or 5 percent up 
to 8 or 9 percent? In other words, CPB is the source of funding 
for all of these places, and it just strikes me as something 
that CPB would think about, worry about, be unhappy about, 82 
percent of the people approving notwithstanding, since 
obviously a lot of them aren't listening or watching.
    Second question I have stems somewhat from that. Because of 
the lack of, the 4 or 5 percent or whatever the figure is 
exactly, PBS has shown, it seems to me, signs of self-
preservation in ways that aren't healthy. There have been a 
number of instances where it seems to be they're reaching for 
the--they're looking at the bottom line more than they are at 
what works, and what's right for America and what the mission 
that you've all talked about really is.
    That's obviously made up of stations all over the country, 
those station managers may be sophisticated or not in national 
policy, but they have tremendous control, enormous power; more 
than you all do to the point on programming. It seems to me 
increasingly there is an instinct to make decisions based upon 
bottom line financial considerations.
    Now one can defend that, because if you're at 4 or 5 
percent, you're probably having a survival problem. Or if 
you're in a small market, you may be having a survival problem, 
so you can't automatically condemn that. But I just want to 
note for the record that it's troublesome to me that they are 
perhaps willing to take a look at eliminating very, very good 
programs that uplift the national consciousness about news 
events, whatever, in favor of degrading what they offer because 
it might in a sense reflect upon what I just said--it might 
attract more viewers but be of a lower quality.
    Now that's a dilemma which I don't pass judgment on at this 
point, but one that I'd like to raise to you and wonder if you 
have any thoughts at all on that.
    Mr. Cruz. It's a troubling one for us. Let me just say that 
for many years, public broadcasting has almost caught itself in 
a Catch-22 situation: There are those who would like it to be 
more commercial and then there are those who castigate it for 
being too commercial. And a lot of it stems from funding, and 
the lack of or having to constantly meet those kinds of budgets 
and goals that they must meet.
    And it's a difficult one, but I think that--you know, were 
there to be adequate funding, and we could have a discussion on 
what ultimately that could be, certainly is an area to pursue, 
to find other alternate sources of funding.
    Commercial radio in some major markets right now, out of an 
hour's time probably devotes, some major markets, to 30 minutes 
of commercials. On the television side, an hour on television 
on prime time can have about 24 minutes of commercial time.
    Fortunately, ours is down to about 3 minutes or so at the 
beginning and at the end. So we are very conscientious and very 
concerned about that, and still trying to keep it as 
commercial-free as we can. But it's a difficult one because it 
ultimately hinges on funding and the stations surviving. Four 
or 5 of the major stations in public broadcasting could 
probably do well, but after that, many of the others--it's a 
struggle, and it's difficult for them to make it. So they must 
rely on their viewers, on their subscribers to make ends meet, 
to meet their budgets, and take to some underwriting to do.
    But it is a concern to me. Ultimately, if I had my druthers 
and had an open check, I'd like to get rid of all the 
commercials, all of the underwriting in public broadcasting. 
But it's a difficult budgetary dilemma.
    Senator Rockefeller. Thank you, sir.
    The Chairman. I thank you all, and we'll move your 
nominations at the earliest time we can, and I thank you again 
for your willingness to serve.
    This hearing is adjourned.
    [Whereupon, at 10:46 a.m., the hearing adjourned.]
                            A P P E N D I X

                       Corporation for Public Broadcasting,
                                   Washington, D.C., July 28, 2000.
Hon. John D. Rockefeller IV,
United States Senate,
Washington, D.C.

Dear Senator Rockefeller:

    Thank you for your continued support of public broadcasting. Your 
comments during the recent Senate Commerce Committee confirmation 
hearing for the nominees, including myself, to the Board of Directors 
of the Corporation for Public Broadcasting (CPB), were important and 
timely. You specifically asked what public broadcasters could do to 
increase the percentage of Americans who both watch public television 
and listen to public radio.
    Public broadcasting is unique from commercial broadcasting in the 
sense that programs produced for noncommercial television and radio are 
first considered on the basis of high-quality content, educational 
value, and diversity, and not ratings potential. However, ratings are a 
way to discover who is watching and listening to public broadcasting, 
but they do not measure the impact of the programs on people's lives.
    In fact, public broadcasters have taken measures to increase 
viewership. While public broadcasting does not have the promotional or 
advertising budgets that are available to commercial outlets, public 
television has initiated a national promotion and awareness campaign. 
The Public Broadcasting Service (PBS) recently announced significant 
changes to its national schedule. The new changes will start in seven 
major cities in September with the ultimate aim to expand viewership by 
moving programs to different time slots to appeal to more viewers.
    More than 92 million Americans watched public television each week 
during the 1997-98 season. Today, nearly 160 million people tune in 
sometime during a month. Public television's ratings in prime time 
average 2.0, the percentage of the population tuning in to a program. 
The public television community recognizes the need to reach more 
Americans, and continues to create and offer programs to draw more 
viewers without compromising quality. Considering viewership trends of 
leading commercial networks, public television has fared well. But we 
continue to strive to do better.
    At the same time, public radio's audience has grown steadily; over 
the past 10 years the audience size has doubled. In 1999, 22.4 million 
people listened to public radio weekly. Public radio's cumulative 
audience is 10 percent of the American people.
    Public radio is continuing to pursue ways to reach more audiences, 
particularly minority communities, and to increase the 10 percent 
listenership rate. I would like to include, for your review, a recent 
article by CPB's Vice President of Radio, Rick Madden, which provides a 
detailed account on the growth of public radio and future steps to 
attract listeners.
    Thank you for your interest.
        Sincerely,
                                              Frank H. Cruz
Enclosure
             It's Time Again for Public Radio to Aim Higher
                     Richard Madden, VP, Radio, CPB
    Public radio's world is changing and changing rapidly. While our 
public service is growing, listener choices are increasing even faster. 
Confronted with what appears to be an overlapping sequence of 
unprecedented challenges, we should remind ourselves about how the 
industry succeeded when it faced earlier and just as remarkable tests. 
Put simply, public radio asked more of itself. We did so by shifting 
our public service expectations.
    The result is that public radio's programming is strong and getting 
stronger. Our audience continues to grow and become more diverse. 
Listener-sensitive revenues grow annually at double-digit rates. Public 
radio is on a roll. This paper recounts how we arrived here and 
suggests some of the issues that must be resolved going forward.
    The late 1980s are key to understanding public radio's current 
achievements. At that time, CPB began redistributing most of its 
national programming dollars to stations, reserving for itself some 
funds to launch new programs--that is, the Radio Program Fund. NPR had 
retired a debt that had nearly caused its bankruptcy. Since CPB was no 
longer contracting with NPR directly for the production of its major 
series, NPR began assessing stations a fee for the program purchases. 
Because stations were being asked for the first time to pay directly 
for national programs, stations began considering their acquisitions 
and their air time in a much different context. As our expectations 
shifted, so did our standards.
    Informing all of this was the release of a sequence of CPB-funded 
research papers titled Audience 88.\1\ Audience 88 advanced the notion 
that programming causes audience. Though this may seem obvious today, 
it was not a widely held or well understood idea in 1988. Quoting, the 
study concluded:
---------------------------------------------------------------------------
    \1\ Audience 88 was written by Terry Clifford, David Giovannoni, 
Linda Liebold, and Tom Thomas.

  <bullet> Listeners who choose public radio are significantly 
---------------------------------------------------------------------------
        different from those who do not.

  <bullet> Listeners who make a public radio station their favorite are 
        different from those who just sample its programming.

  <bullet> These differences extend to the kinds of listeners who are 
        attracted to each of public radio's distinctive formats and 
        services.

  <bullet> All of these differences are reflected in the extent to 
        which listeners consider public radio important and worthy of 
        their financial support.

    As outlined in Audience 88, the key linkage between programming and 
audience is programming appeal--the special attraction that specific 
programming holds for specific listeners. As the study noted, ``appeal 
is the mechanism through which programming shapes the audience, with a 
cascade of ramifications for the entire public radio enterprise.''
Audience
    If programming causes audience--then the character and quality of 
public radio's public service has improved during the past 10 years.
    Over the 22 years from CPB's 1967 creation through 1988, public 
radio's cumulative audience grew to about five percent of the American 
people. Over the next decade, public radio nearly doubled audience 
penetration.
    From a different context. Public radio is only reaching about 10 
percent of the American people. Can we do better? If so, how?

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Public radio's audience is also more diverse. The chart and table 
below show that all public radio audiences are growing, with some 
audience segments growing faster than others. As the diversity of this 
country's population continues to expand and as delivery platforms 
multiply, we must again ask if we can do even better.
    Measured minority audience growth can be attributed to public 
radio's twin strategies of transcendence and targeting.
    Because public radio's mainstream programs transcend race, most 
minority listening results from this approach. Since programming causes 
audience, this public service outcome affirms the inclusive nature of 
public radio's mainstream programming.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                      Average Quarter Hour Audience
------------------------------------------------------------------------
                                        1989                 1998
------------------------------------------------------------------------
All                              797,000             1,368,600
African American                 48,300              102,200
Hispanic                         15,200              44,800
Percent                          >8%                 >12%
------------------------------------------------------------------------


    CPB has also pursued a targeting strategy, funding dozens of 
minority controlled and managed stations and creating American Indian 
Radio on Satellite and Satelite Radio Bilingue.
    Because Arbitron does not measure all minority listening or even 
all African American or Hispanic listening, we can be confident that 
public radio's minority audience is larger than indicated and, 
therefore, greater than 12 percent of the listening audience.
    Public radio's share of overall listening has also increased. It 
has done so because of the relative excellence and special character of 
our public service.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Further, the public radio audience time spent listening has 
increased modestly over the past five years or so--up three percent 
from 7.8 hours per week to 8 hours per week--while listening to 
commercial FM has decreased over the same period--down six percent, 
from 23.25 hours per week to 21.75 hours per week. Commercial AM 
audience is down considerably.
    In a more competitive environment, what share and time-spent-
listening benchmarks should we seek?
Listener Sensitive Revenues
    If programming causes audience, audience causes listener-sensitive 
income. Consistent with the audience growth trend, public radio enjoys 
similar growth in the amount of listener-sensitive income--member 
income and underwriting--per the graph to the right. This graph plots 
growth rates, with underwriting growing much faster than member income.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The table below offers the context. Underwriting has become a more 
important element in station revenue patterns. Still, in 1998, even 
after such growth, stations received more than two dollars in member 
income for every one dollar in underwriting.


                Contributors & Listener-Sensitive Income
                               (millions)
------------------------------------------------------------------------
                                      1989          1995         1998
------------------------------------------------------------------------
Contributors                      1.2           1.8          2.2
Underwriting                      $21           $42          $71
Member Income                     $60           $114         $154
------------------------------------------------------------------------


    The role underwriting plays in station budgets began to shift in 
1995. Two things happened--federal funding was challenged and CPB and 
public radio accepted the challenge. How?
    Public radio shifted expectations with an increased emphasis on 
listener service. Another element of our response was to create the 
Future Fund. One analysis of the Future Fund may flow from a detailed 
focus on the numbers. However, no more simple but compelling argument 
exists for the Future Fund's value than the above picture.
    Further, the number of public radio contributors about doubled over 
the past decade, from 1.2 million to 2.2 million. Much of this growth 
results from audience increases.
    From a different vantage point, the ratio of contributors to AQH 
audience remained relatively stable--between 13 percent and 15 percent 
over the decade.
    As intriguing as this analysis may be, this examination also 
suggests the fragility of listener-sensitive income.
    For instance, the average member gift decreased almost one dollar 
between 1997 and 1998. With more than 2 million public radio members, 
the industry ``lost'' $2 million.
    In addition, these broader listener-sensitive revenue increases 
occurred in a healthy economy. What is the exposure, if any, for public 
radio when the economy is not as healthy? Some listeners may have 
become anxious about the character of the fund raising.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    And, in a new media environment, sustained audience growth is not 
guaranteed. If the audience size plateaus, the number of contributors 
may do so as well.
Listener-Sensitive Revenues Relative to Other Funding Sources
    Not all revenue sources have enjoyed the same relative growth as 
listener-sensitive income--that is growing faster than the broader 
economy.
    If radio cash income is divided into three sources--listener-
sensitive, CPB, and all other--the graph to the right explains public 
radio's focus on listener-sensitive income.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 1989, listener-sensitive revenues generated about $80 million, 
one dollar in three of direct income. By 1998, stations were reporting 
an additional $145 million per year from this source, significantly 
outperforming the economy and other public radio revenue sources. As of 
1998, listener-sensitive income provided one of every two dollars of 
direct income to stations.


                       Public Radio Direct Income
                               (millions)
------------------------------------------------------------------------
                                              1989             1998
------------------------------------------------------------------------
Listener-Sensitive Income               $80              $224
CPB Station Grants                      $47              $50
Other Cash Income                       $115             $167
------------------------------------------------------------------------


    From CPB station grant support, stations reported an increase of 
only $3 million from 1989 to 1998, well below the growth rate of the 
nation's Gross Domestic Product (GDP). The consequence is that CPB 
station grant support played a more modest role in the mythical average 
station's budget, down from one in five dollars in 1989 direct income 
to only one in nine dollars of 1998 income.\2\
---------------------------------------------------------------------------
    \2\ CPB station grants were also spread across more grantees. The 
number of grantees increased by nearly 100 during the period.
---------------------------------------------------------------------------
    Note that this is before the significant increase in federal 
funding scheduled for FY 2000. Even accounting for this major increase, 
the rate of CPB station grant growth would remain less than the growth 
in GDP.
    Other cash income--for instance, institutional support and state 
governments--grew but not as fast as GDP. It remains a significant and 
a relatively stable portion of public radio's revenue stream.
    These other income sources suffer from much the same fragility as 
listener-sensitive income. Put simply: what goes up may also go down. 
This is why it is useful to compare public radio's and public 
television's experience.
Public Radio/Public Television
    Public radio and public television are at two distinct points in 
their life cycles. The graph to the right shows one element of the 
fundamentally different financial trends of the respective public radio 
and television industries.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Over the past decade, public radio listener-sensitive income has 
exceeded the compound annual growth rate of Gross Domestic Product 
(GDP).\3\ Public television viewer-sensitive income has not grown 
relative to GDP. Why this difference?
---------------------------------------------------------------------------
    \3\ Different indices have different assets. Gross Domestic Product 
was chosen for this analysis. GDP is the broadest measure of economic 
change in the country. For the 1989-1998 period, the compound annual 
growth rate of the GDP was 5.1 percent.
    Another widely used, but more focused index is the Consumer Price 
Index or CPI. This is considered a measure of inflation. During this 
same period, its compound annual growth rate was 3.1 percent.
---------------------------------------------------------------------------
    To begin, public radio's audience is growing--for now--and public 
television's audience is not.
    PTV faces direct competition. Public radio's programming remains 
unique--for now.
    Further, public radio is more local, with about half of a typical 
station's schedule produced locally. Less than 10 percent of a standard 
PTV schedule is local. (Playing CDs is counted as local programming in 
radio, a possible soft spot in the new media environment where music 
will be available from many more sources.)
    Radio listeners connect differently with stations, with public 
radio listeners spending about eight hours listening to just public 
radio. Television viewers surf dozens of channels, spending only a 
couple of hours per week with their public television station.
    Radio's use of regular programming in its fund raising strengthens 
the connection between the listener and the station's public service. 
PTV's extensive use of stunt programs during pledge may have the 
opposite effect.
    Public radio stations may fund raise around their entire schedule. 
Public television appropriately does not raise funds around children's 
or instructional programs.
    Finally, PTV faces an immediate and sizeable digital programming, 
technological, and financial hurdle. Though this awaits public radio, 
the guestimates are that the effect will be less dramatic.
    All of that occurs on top of industries where the costs of doing 
business are markedly different.
    The consequence of these differences is that public radio and 
public television are moving along different vectors as each works to 
define its public service future.
    Despite these factors, CPB has substantially shifted expectations 
on the minimum nonfederal financial support necessary for public 
television stations to receive a CPB station grant. Based on the 
recommendations of an industry advisory committee, CPB has established 
an FY 2001 minimum NFFS of $1 million, an increase of more than 50 
percent from the FY 1998 requirement of $650,000 in FY 1998.
    What steps should public radio consider regarding its own 
standards? While our public service is growing, listener choices are 
increasing even faster. Just as public radio met and surpassed recent 
funding challenges by focusing on listener service, is it prepared and 
is now the time to confront new media opportunities with the same 
emphasis? More important, in an environment that will be shaped more by 
content than by delivery mechanisms, is there value in expecting more 
of ourselves as a means of affirming and strengthening our public 
service?
Future Assumptions
    The preceding pages describe in public service terms a dynamic 
enterprise or, as Audience 88 described it, the ``cascade of 
ramifications'' flowing from changes within public radio. In short, the 
industry's dynamism results from a willingness to ask more of itself. 
The character and quality of the programming listeners consume today 
bear witness to the value of a mature industry dedicated to improving 
its public service--to raising the standards we apply to our work. Our 
responsibility today is to interpret, freshen, and advance those 
standards which foster accountability to the public we seek to serve, 
regardless of platform. As we proceed with that task, CPB begins with 
several assumptions.

  <bullet> The American people have entered an era defined by the 
        widening public square of ideas, culture, and values and by the 
        growing virtual communities redefining our existing civic 
        landscape. For these reasons, public radio enjoys multiplying 
        opportunities for public service on existing and new delivery 
        platforms.

  <bullet> Listeners should find the content they value as they move in 
        unpredictable ways to an unpredictable array of new media.

  <bullet> Though this may mean that public radio must redefine, if not 
        reinvent itself, our future will continue to be driven 
        primarily by our public service aspirations, which result from 
        the content we are uniquely qualified to produce and the size 
        and character of the audiences we seek to serve.

  <bullet> Increased public service opportunities will remain available 
        through broadcast for some years to come.

  <bullet> Public radio is reasonably well-positioned to offer 
        additional public service to a wider audience through multiple 
        new distribution platforms but must accomplish more if it is to 
        be as successful as it is through broadcast.

  <bullet> To achieve a better position, public radio must address a 
        variety of questions about how to strengthen our existing 
        public service, our values, the diversity of audience, content, 
        and delivery mechanisms, our infrastructure, the regulatory 
        environment in which we operate.

    Despite the issues and their answers, we believe our future will 
continue to revolve around the equation that significant programming 
plus significant audience will equal significant public service--with 
significant public service always at the core.
    Note: An edited version of this paper was reprinted in Current, May 
22, 2000, p. B1.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Slade Gorton 
                          to Francisco Sanchez
Question 1. Mr. Sanchez, what role will you play in DOT deliberations 
over the soon-to-be-announced U.S.-China frequencies and new 
designation? What are your views on this matter? When do you expect a 
decision?
    Answer. I recognize that this is an important case for the 
Department. While it would be inappropriate for me to comment on the 
merits of a case now pending before the Department, I can assure you 
that I would make a review of the record an immediate and top priority, 
if confirmed. The Department has consistently stated that it would 
issue its decision in this case in time for the selected carrier to 
begin service when the rights become available in April 2001. To 
facilitate this goal, the Department intends to issue a show-cause 
order by the end of the summer. Because the Assistant Secretary is not 
the decision maker in this case, my arrival would not have a delaying 
effect on the procedural timetable.

Question 2. Do you foresee the United States and China reaching an open 
skies agreement in the near future? What are the obstacles to reaching 
a full open skies agreement with China? Would granting China permanent 
normal trade relations status have an impact on opening up that air 
services market?
    Answer. I understand that it is unlikely that the United States and 
China can reach an open-skies agreement in the near future. 
Historically, China has been extremely protective of its airlines. The 
last agreement was reached in April 1999, and the Chinese granted the 
US the right to designate only one new carrier in the market, and add 
27 additional frequencies. Chinese carriers today only use 26 of the 54 
frequencies available to them per week; accordingly China has extensive 
room to increase services under the present agreement.
    While an open-skies agreement is unlikely in the near future, 
Chinese officials indicated to Secretary Slater during his visit to 
China this past winter that they are interested in resuming 
negotiations, and he informed them that the US would be seeking a more 
liberal regime than currently exists. The Department anticipates such 
possible talks before the end of this year.
    Obviously, granting China permanent normal trade relations should 
provide a stimulus for increased trade and the need for additional air 
services to accompany such an increase. However, it appears doubtful 
that China is ready for an open-skies aviation regime.

Question 3. I understand that there are two important Deputy Assistant 
Secretary positions beneath the job you are seeking. One of these 
positions has been vacant for about a year. What are DOT's plans to 
fill this key position?
    Answer. Secretary Rodney E. Slater recently named Susan McDermott 
to be the Deputy Assistant Secretary for Aviation and International 
Affairs, filling this key career aviation position in the Office of the 
Secretary.

Question 4. If confirmed, what role would play in the oversight of 
ticket distribution issues involving computer reservation systems and 
the Internet?
    Answer. If confirmed, I would continue the Department's effort to 
examine carefully recent developments in airline distribution so that, 
if the need arises, the Department can exercise its regulatory 
authority to prohibit unfair methods of competition and unfair and 
deceptive practices intelligently. I would also make every effort to 
expedite the Department's review of the rules governing airline 
computer reservation systems, taking into consideration the tremendous 
changes that have occurred as a result of the Internet.

Question 5. As a general matter, do you believe international air cargo 
talks should be negotiated separately from passenger talks?
    Answer. Cargo services are subsumed in all bilateral provisions. In 
most agreements, including standard open skies, separate provisions for 
cargo services have not been necessary, because the full array of 
rights and flexibilities are provided under the scheduled and charter 
clauses, including intermodal rights. In addition, in the most 
progressive open skies agreements, the Department has, wherever 
possible, included 7th freedom rights for cargo services (that is, the 
ability to serve between our bilateral partner's country and a third 
country without having to serve the U.S.). In restrictive regimes, when 
it has been possible to solve problems or negotiate additional benefits 
for cargo services that are not achievable for combination services 
(that is, passenger and cargo combined in one aircraft), separate cargo 
provisions are created (e.g., better route and traffic rights or lesser 
transition restrictions). For example, DOT negotiators recently 
concluded an all-cargo open-skies agreement with Australia. A few years 
earlier, the U.S. conducted a whole series of separate talks with Japan 
on cargo, resolving many of those issues well ahead of the eventual 
agreement on combination services. In sum, the Department tries, on a 
case-by-case basis, to approach each negotiation in the manner with the 
greatest likelihood of success for our cargo interests as well as 
passenger services.

Question 6. What would your position be if a country denied U.S. air 
carriers' rights that are guaranteed under an existing bilateral 
agreement? What actions should the U.S. take in response to such a 
situation?
    Answer. I believe that our bilateral rights should be enforced. If 
a country denied rights to which a U.S. carrier was entitled, I would 
expect DOT and State officials first to consult with the appropriate 
officials in the foreign government to vindicate those rights. It is my 
understanding that most such difficulties yield to bilateral 
consultation. In a case where consultation did not succeed, I would 
review the full range of measures that might be employed to resolve the 
problem successfully, including the formal complaint process 
established by Congress in the International Air Transportation Fair 
Competitive Practices Act.

Question 7. What is your view of the practice of linking an open skies 
agreement with the granting of antitrust immunity to an airline 
alliance that included an airline based in the foreign country?
    Answer. The existence of an Open-Skies aviation agreement between 
the United States and a foreign country is necessary for the Department 
to consider granting a request for anti-trust immunity from an airline 
of that foreign country. However, as U.S. negotiators have emphasized 
to our foreign partners, Open Skies is not a guarantee that immunity 
will be granted. The merits and competitive implications of any 
application for immunity are determined by the Department in a 
regulatory proceeding separate from the negotiation of the Open-Skies 
agreement.

Question 8. What is your view of the current trend toward global 
airline alliances? Are there potential problems for consumers if this 
trend continues?
    Answer. Global airline alliances are playing a key role in the 
evolving international aviation economic and competitive environment. 
Alliances are changing the structure of the airline industry and are 
generating new pressures to overcome the limitations of restrictive 
bilaterals. They provide improved, more competitive services in 
literally thousands of markets, stimulating additional demand. They 
have also provided consumers the benefit of substantially lower prices. 
Consumers recognize the product and service benefits which global 
alliances provide: a comprehensive route network with the convenience 
of coordinated schedules, single on-line prices, single point check-in, 
seamless service and product familiarity, reciprocal frequent flyer 
programs, and service upgrade potential.
    In my view, however, alliances are not ipso facto pro-competitive. 
Each alliance must be examined on a case-by-case basis. It is 
fundamentally important to consider all aspects of an alliance and the 
market configuration in which it is set to operate. We are at the very 
early stages of global aviation liberalization. I am mindful that 
international aviation and its competitive dynamic are constantly 
changing. I would therefore maintain the Department's commitment to 
monitor the development of alliances within the context of aviation 
liberalization to evaluate their effect on the aviation industry and 
consumer welfare.

Question 9. There has been talk recently of creating a single, open air 
services market between the European Union and North America. Do you 
think this is a realistic prospect in the near term? What would be the 
obstacles to attaining fully open skies over the Atlantic?
    Answer. The possibility of a transatlantic common aviation area is 
a useful stimulant for thinking about moving beyond bilateral 
agreements. Possible US-EU aviation negotiations could offer an 
opportunity for the US and EU, working together, to lead the world away 
from the traditional, bilateral paradigm as the model for organizing 
international aviation relations. I am told that Department staff held 
informal, exploratory discussions with European counterparts in 
Washington just last month, and I believe it is useful to continue this 
dialogue. With respect to realistic near-term prospects and the 
obstacles to be overcome, there are two significant factors to 
consider: First, the European Commission still lacks a comprehensive 
negotiating mandate from the member states; there is no current basis 
for speculation on when that mandate might be achieved. Second, the 
TCAA proposal includes several issues that present significant policy 
concerns for the U.S., such as cabotage, foreign ownership and the 
right of establishment, and carriage of government traffic.

Question 10. In 1995, the U.S. was on the brink of fully liberalizing 
air cargo rights with the British. Instead, the U.S. concluded a mini 
deal for passenger carriers only. Five years later, we still don't have 
such cargo rights. Will the U.S. agree to any aviation pact with the 
British that does not include full and open cargo rights for U.S. 
carriers?
    Answer. The U.S. objective from the beginning of the Clinton 
Administration has been to secure an Open-Skies agreement with the 
British covering both cargo and passenger operations. Late last year, 
following the unilateral British grant of expanded cargo rights for 
services to Scotland's Prestwick Airport, the United States gave the 
British a proposal for immediate open cargo rights for both U.S. and 
U.K. all-cargo airlines. Unfortunately, the British were unwilling to 
proceed on that basis. I can assure you that, in the current 
liberalization talks, the U.S. Delegation has made clear to the British 
the importance that the United States attaches to cargo liberalization, 
and we will continue to pursue cargo liberalization aggressively with 
the United Kingdom.

Question 11. It seems that the U.S. is making little or no meaningful 
progress in opening the British air service market. Should the U.S. 
consider renouncing this protectionist agreement?
    Answer. The U.S. goal remains an Open-Skies agreement with the 
British. As a result of contacts between Secretary Slater and U.K. 
Deputy Prime Minister John Prescott, liberalization talks have been 
renewed. However, even though the Department is cautiously optimistic 
that these talks will yield positive result, all options for opening up 
the U.S.-U.K. aviation relationship, including renunciation of the 
current agreement, remain available to it.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Ernest F. Hollings 
                          to Francisco Sanchez
Predatory Pricing
Question 1. DOT proposed predatory pricing guidelines in 1998, which 
were fairly controversial. DOT clearly has authority under existing law 
to address ``unfair methods of competition.'' The Commerce Committee 
held a hearing on the guidelines in April 1998, at which Alfred Kahn 
testified, noting that carriers did engage in predatory conduct and 
that it was critical that the government preclude such activities. When 
do you anticipate that you will issue the predatory guidelines, first 
proposed by the Department of Transportation (DOT) in 1998?
    Answer. I agree that the question of potential predatory behavior 
in the airline industry is important and that the Department should 
issue soon a final decision about its proposed competition guidelines. 
The Department published those guidelines for comment because the DOT 
Secretary determined that the public's input should be obtained, since 
he wished to begin a debate on the issues and adopt the best possible 
final policy. The Department has received over 5,000 comments on the 
proposed policy. In addition, as directed by Congress, the 
Transportation Research Board of the National Research Council issued a 
report on airline competition that included an assessment of the 
Department's proposed policy. I understand that the Department 
continues to work on its proposed policy statement. The Department felt 
it necessary to proceed deliberately with this important and very 
contentious matter. The matter is difficult because of questions on how 
the Department can best proceed to deal with potential anticompetitive 
conduct. I understand that the Department plans to make a final 
decision soon on its proposed policy.
Hub Concentration
Question 2. Included in the recently enacted AIR-21 (FAA 
Reauthorization bill), airports have to develop and submit plans to 
increase competition at their airports, which should facilitate the 
building of gates and facilities for carriers other than the dominant 
carrier. Will you use the authority of the Department to aid carriers 
that want to get into fortress hubs?
    Answer. The Department must be committed to eliminating unnecessary 
entry barriers at airports, thus providing all carriers--new entrants 
and incumbents alike--with opportunities to expand service and compete. 
As outlined in the Department's October 1999 report on airport business 
practices (Airport Business Practices and Their Impact on Airline 
Competition), airport managers have a legal obligation to ensure that 
air carriers have reasonable access to essential airport facilities. 
Moreover, over the past several months, OST and FAA staff have worked 
with new entrant carriers and airport managers to resolve certain 
complaints that have been raised about airport access.
    Beginning in fiscal year 2001 certain large and medium hub airports 
must submit airport competition plans in order for the FAA to approve 
the collection of a new Passenger Facility Charge (PFC) or for a grant 
to be issued under the Airport Improvement Program (AIP). The 
underlying purpose of this new statutory requirement--and one with 
which I fully concur--is for those airports that are dominated by one 
or two air carriers to demonstrate how they will provide for new 
entrant access and the expansion of service by incumbent carriers. The 
DOT has issued (May 8, 2000) a regulatory guidance document for 
airports, as well as a ``template'' as to what type of information and 
data the typical airport plan should contain. If confirmed, I will see 
to it that the Department reviews the plans carefully to ensure that 
airports are taking all appropriate actions to ensure reasonable 
access. Further, I will work closely with the Committee in recommending 
additional steps that may be taken should the current actions prove 
inadequate.

Question 3. Should we give DOT back the authority to review and approve 
airline mergers, with tougher standards than were applied before so 
that other factors can be taken into consideration?
    Answer. I do not believe that DOT should be given the authority to 
review and approve airline mergers. Transferring the authority to DOT 
to determine whether a merger should be disapproved on antitrust 
grounds would be inconsistent with deregulation. The Department of 
Justice has been responsible for enforcing the antitrust laws and 
blocking anticompetitive mergers and acquisitions since the sunset of 
the statutory requirement that such transactions obtain the prior 
approval of the Department of Transportation. Congress' deregulation of 
the airline industry thereby caused mergers and acquisitions in the 
airline industry to be treated like mergers and acquisitions in other 
unregulated industries. I am confident that the Justice Department will 
effectively enforce the antitrust laws and challenge any airline 
mergers that may substantially reduce competition in any relevant 
market. The Justice Department is currently suing Northwest Air Lines 
to keep it from influencing the operations of Continental Air Lines. I 
understand, moreover, that, when DOT had the authority to review 
airline mergers, it approved a few mergers that the Justice Department 
had opposed.
    I do believe, however, that DOT has an important role to play in 
the analysis of proposed mergers and acquisitions. I fully support that 
role and look forward to working closely and cooperatively with the 
Antitrust Division of the Department of Justice on these important 
matters.
International Aviation/Cargo Rights
Question 4. For years we have complained about the highly restrictive 
Bermuda 2 air service agreement with the British but we made little 
progress in improving opportunities for all our carriers. After years 
of ``negotiations,'' which have done little to improve the ability of 
passenger and cargo carriers to provide service to the U.K., do you 
believe that the Administration should seriously consider renouncing 
this agreement?
    Answer. The U.S. goal remains an Open-Skies agreement with the 
British. As a result of contacts between Secretary Slater and U.K. 
Deputy Prime Minister John Prescott, liberalization talks have been 
renewed. However, even though the Department is cautiously optimistic 
that these talks will yield positive result, all options for opening up 
the U.S.-U.K. aviation relationship, including renunciation of the 
current agreement, remain available to it.

Question 5. Given your background in trade issues, you know how 
important air cargo is to our economy, Mr. Sanchez. Can you assure me 
that the U.S. will not agree to any aviation pact with the British that 
does not include rights for U.S. cargo carriers?
    Answer. The U.S. objective from the beginning of the Clinton 
Administration has been to secure an Open-Skies agreement with the 
British covering both cargo and passenger operations. Late last year, 
following the unilateral British grant of expanded cargo rights for 
services to Scotland's Prestwick Airport, the United States gave the 
British a proposal for immediate open cargo rights for both U.S. and 
U.K. all-cargo airlines. Unfortunately, the British were unwilling to 
proceed on that basis. I can assure you that, in the current 
liberalization talks, the U.S. Delegation has made clear to the British 
the importance that the United States attaches to cargo liberalization, 
and we will continue to pursue cargo liberalization aggressively with 
the United Kingdom.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. John McCain 
                          to Francisco Sanchez
Question 1. I know that you are not able to comment on specific matters 
pending before DOT, such as the United-US Airways proposed merger. I 
also understand that you are not yet familiar with all the complicated 
facets of the airline industry. Nevertheless, I am hoping to get a 
better sense of how you would approach a critical issue like airline 
industry consolidation. As a general matter, I want to know what 
concerns you might have, even just as a member of the traveling public, 
about the possibility that the six largest airlines will pair off to 
become three mega-airlines. What might be the negative consequences for 
consumers if there are fewer competitors for passengers? Can you 
foresee any positive aspects to an industry with three enormous 
competitors rather than fewer? Please feel free to elaborate on your 
responses.
    Answer. The Department must ensure that airline markets remain 
competitive in light of the proposed and possible future airline merger 
and acquisition proposals. It should thoroughly and carefully review 
the proposed United/US Airways merger and any future merger proposals 
to see whether they would likely reduce competition. If the Department 
concludes that any such transaction would likely reduce competition I 
would urge the Justice Department to challenge the proposed merger or 
acquisition.
    Since the Department has just begun its investigation of the 
proposed United/US Airways merger's likely impact on competition, I 
cannot say what the Department will recommend to the Department of 
Justice. Consumers, however, are generally more likely to obtain the 
benefits of competition when there are more rather than fewer large 
airlines operating in the United States. I would be concerned that 
reduced competition resulting from fewer large airlines would mean 
higher fares and less choice for the traveling public.
    It is important to emphasize that Congress assigned the Department 
of Justice primary responsibility for allowing or disallowing airline 
mergers and acquisitions. I believe that the Department of Justice and 
the Department must prevent any significant loss of competition in the 
airline industry. Further, I am confident that the Justice Department 
will oppose any merger or acquisition that reduces the number of large 
airlines unless the Justice Department has determined that the 
transaction will not likely reduce competition. As you know, the 
Justice Department filed an antitrust suit in 1998 to keep Northwest 
Airlines from retaining the major block of Continental Airlines voting 
stock. Justice took this action after it concluded that the transaction 
would violate the antitrust laws (Northwest and Continental are the 
fourth and fifth largest airlines).
    United and US Airways have told the Department and have testified 
before your Committee that they believe that many consumers will value 
the greater geographical scope of the network that would be created by 
their proposed merger. Whether or not that is true, the decisive factor 
in determining whether the airlines should be allowed to complete the 
merger must be whether the merger is likely to reduce competition. I 
look forward to working closely and cooperatively with the Anti-trust 
Division of the Department of Justice on these important matters.

Question 2. The General Accounting Office and other highly regarded 
analysts have found the perimeter rule at Reagan National Airport to be 
an impediment to competition that tends to harm consumers and keep 
airfares relatively high. Understanding that you are not fully versed 
on all aspects of this particular issue, can you nonetheless give me a 
general sense of whether federal laws and regulations that prohibit 
private airlines from flying routes sought by their customers are 
warranted in a deregulated industry? To look at it another way, would 
you view as credible an attempt to limit the distance that passenger 
ships or rail carriers could travel from a particular port or station? 
If you believe that these types of federal restrictions on interstate 
commerce and transportation are acceptable, please explain why.
    Answer. Let me say, at the outset, that I believe one of my key 
responsibilities at the Department will be to protect and promote 
competition. Enhancing competitive choice for consumers has been a 
priority for this Administration. Working on a bipartisan basis with 
you and this Committee, I believe we have made important strides 
together. There is, however, more work to be done. If confirmed, I will 
come to my new position with that understanding and pledge to you that 
maximizing consumer choice and competition will be a guiding principle 
of every decision I make.
    The decision whether to repeal the Perimeter Rule is a difficult 
one for Congress to make. You and other supporters of this policy have 
made strong arguments that such a change would benefit consumer choice 
and competition. I am convinced that the Perimeter Rule, on its face, 
operates against all that has been achieved through deregulation. 
Further, I have noted with great interest the degree of carrier 
participation in competing for the outside-perimeter slot exemptions 
authorized by AIR-21, and I recognize that there remains a great deal 
of pent-up demand for additional service beyond the perimeter. 
Moreover, the Department's order articulates the potential competitive 
benefits that can be achieved by allowing airlines to serve cities 
outside of the perimeter. I fully concur with this assessment.
    On the other hand, as a resident of Washington D.C., I am aware 
there are strongly held local concerns about elimination of the 
perimeter rule. Up to now Congress has lacked solid empirical data to 
assess whether the concerns local officials and some of your colleagues 
have raised are as significant as they fear. For the first time, 
however, such data will be available. I am referring to the mandate in 
AIR-21 that an assessment be prepared for the Congress on the local 
impact of the six daily roundtrip flights beyond the perimeter.
    Mr. Chairman, I look forward to reviewing the impact assessment of 
the new beyond the perimeter flights when it is prepared. I think that 
the study will be very useful to the Department and to Congress should 
it revisit the Perimeter Rule issue in the future.

Question 3. As I am sure you are aware by now, there has been an 
intensive lobbying campaign on Capitol Hill and at DOT with respect to 
the award of new flights to China. In a Wall Street Journal article, 
the Acting Assistant Secretary conceded that politics will play some 
role in the upcoming decision, even though it is supposed to be based 
solely on the public interest. While the views of members of Congress 
and what is best for the country are not mutually exclusive, political 
pressure should in no way affect such decisions. If you are confirmed, 
can you assure me that you will do what is best for the public, even in 
the face of political pressure from Capitol Hill or elsewhere?
    Answer. I can assure you that, if I am confirmed, I will do what is 
in the public interest. I will not be swayed by political pressure.

Question 4. Our skies are becoming ever more crowded. With the numbers 
of flights and passengers increasing each year, the air transportation 
system seems to get closer and closer to the breaking point. Many 
observers say that the air traffic control system is simply not up to 
the task of handling future demand. The problems with the ATC system 
are in turn said to affect the competitive environment in the airline 
industry. The airlines have even been known to blame the ATC system for 
passenger dissatisfaction with their customer service. Do you believe 
that the ATC is in need of a dramatic overhaul, or will the current 
system allow the airline industry to remain healthy for the foreseeable 
future? Do you think that privatization is an option that should be 
considered to improve the ATC system?
    Answer. I believe the air traffic control system needs to be 
enhanced to match the growth of the industry and to be prepared for the 
future. Addressing the increasing demand for air travel will require an 
intense and coordinated effort by the FAA, the airlines, the airports, 
and Congress. The FAA has taken steps in an effort to improve overall 
operational efficiency of the National Airspace System. Those efforts 
include the collaborative decision-making of the Spring/Summer 2000 
plan and its successful efforts with Free Flight Phase One. The FAA 
continues to work with the entire aviation industry to build upon the 
successes of these initiatives. In addition, the Administration 
supported the reforms contained in the recently enacted FAA 
reauthorization, the Wendell H. Ford Aviation and Investment Reform Act 
for the 21st Century, Pub. L. 106-181. The management and financial 
reforms contained in the statute are expected to yield considerable 
benefits towards the modernization of our nation's air traffic control 
system. The Administration is committed to exploring other options or 
structural changes that are necessary to respond to the growing demand 
for air traffic services.

Question 5. As you may know, Richard Branson, CEO of Virgin Atlantic 
Airways, expressed interest in starting a low fare carrier in the 
United States. However, federal law currently prohibits him from doing 
so. Wouldn't a new low fare carrier, regardless of its ownership, 
inject much needed competition in the U.S. market? Should the Congress 
lift the statutory limits on foreign ownership of U.S. air carriers?
    Answer. You have identified a key issue in the ongoing debate 
regarding our ownership and control statute. To relax the current 
limits clearly would create broader opportunities for additional 
capital, and therefore more competition, in the domestic airline 
industry. On the other hand, such an initiative would also involve 
significant national security and economic policy issues, of many 
years' standing. I do not believe that, in light of these significant 
issues, that it would be appropriate to lift the statutory limits on 
foreign ownership at this time.

Question 6. DOT retains significant authority with respect to slot 
restrictions at several key domestic airports. As Assistant Secretary, 
would you urge opening up these airports beyond what was provided in 
the recent FAA reauthorization act?
    Answer. The Administration's legislative proposal to Congress 
recommended that the slot rules be eliminated at all airports except 
Ronald Reagan Washington National Airport by September 30, 2004. The 
administration also recommended the exemption of regional jet services, 
meeting specific noise requirements, from the High Density Rule at all 
airports except Reagan National as of September 30, 2000. I fully 
support the subsequent approach taken by Congress and the difficult 
compromises it reached in drafting the Wendell H. Ford Aviation 
Investment and Reform Act for the 21st Century (AIR-21) legislation.
    The Department has expeditiously implemented this legislation, 
which relaxed the slot rules at all four slot-controlled airports in 
varying degrees. At Washington Reagan National, the Department granted 
12 exemptions beyond the perimeter and 12 within. At the other three 
airports, the statute exempted essentially new service to small and 
non-hub airports with less than 71-seat aircraft. At LaGuardia and JFK, 
the Department issued two orders per airport: one granting exemptions 
to new entrants and one granting exemptions for service to small 
communities. At Chicago O'Hare, the Department issued an order granting 
blanket exemptions for service to small communities and a separate 
order granting a total of 30 exemptions to new entrant/limited 
incumbent carriers. Under the AIR-21 legislation, the slot rule ceases 
to exist at Chicago O'Hare on July 1, 2002 and at LaGuardia and JFK on 
January 1, 2007. I believe that the phased approach enacted by Congress 
will provide the time required for all interested parties to adjust to 
the changes and ensure a smooth transition. I am also committed to 
monitor this process and work with the Committee to consider whether 
additional changes ought to be implemented.

Question 7. One provision in the recent FAA reauthorization act 
requires DOT to ensure that gates and other essential facilities are 
available at fair and reasonable prices at large, dominated airports. 
It is intended to prevent major carriers from using their dominant 
positions in ways that deter entry by new carriers. What can the 
Department do to ensure that new entrant airlines have reasonable 
access to gates at airports they wish to serve?
    Answer. The Department must be committed to eliminating unnecessary 
entry barriers at airports, thus providing all carriers--new entrants 
and incumbents alike--with opportunities to expand service and compete. 
As outlined in the Department's October 1999 report on airport business 
practices (Airport Business Practices and Their Impact on Airline 
Competition), airport managers have a legal obligation to ensure that 
air carriers have reasonable access to essential airport facilities. 
Moreover, over the past several months, OST and FAA staff have worked 
with new entrant carriers and airport managers to resolve certain 
complaints that have been raised about airport access.
    Beginning in fiscal year 2001 certain large and medium hub airports 
must submit airport competition plans in order for the FAA to approve 
the collection of a new Passenger Facility Charge (PFC) or for a grant 
to be issued under the Airport Improvement Program (AIP). The 
underlying purpose of this new statutory requirement--and one with 
which I fully concur--is for those airports that are dominated by one 
or two air carriers to demonstrate how they will provide for new 
entrant access and the expansion of service by incumbent carriers. The 
DOT has issued (May 8, 2000) a regulatory guidance document for 
airports, as well as a ``template'' as to what type of information and 
data the typical airport plan should contain. If confirmed, I will see 
to it that the Department reviews the plans carefully to ensure that 
airports are taking all appropriate actions to ensure reasonable 
access. Further, I will work closely with the Committee in recommending 
additional steps that may be taken should the current actions prove 
inadequate.

                                <greek-d>

</pre></body></html>
